<html>
<title> - OVERSIGHT HEARING: UPDATE ON VA AND DOD COOPERATION AND COLLABORATION</title>
<body><pre>[Senate Hearing 110-781]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 110-781

 OVERSIGHT HEARING: UPDATE ON VA AND DOD COOPERATION AND COLLABORATION

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 23, 2008

                               __________

       Printed for the use of the Committee on Veterans' Affairs


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate
                     COMMITTEE ON VETERANS' AFFAIRS

                   Daniel K. Akaka, Hawaii, Chairman
John D. Rockefeller IV, West         Richard Burr, North Carolina, 
    Virginia                             Ranking Member
Patty Murray, Washington             Arlen Specter, Pennsylvania
Barack Obama, Illinois               Larry E. Craig, Idaho
Bernard Sanders, (I) Vermont         Kay Bailey Hutchison, Texas
Sherrod Brown, Ohio                  Lindsey O. Graham, South Carolina
Jim Webb, Virginia                   Johnny Isakson, Georgia
Jon Tester, Montana                  Roger F. Wicker, Mississippi
                    William E. Brew, Staff Director
                 Lupe Wissel, Republican Staff Director
                            C O N T E N T S

                              ----------                              

                             April 23, 2008
                                SENATORS

                                                                   Page
Akaka, Hon. Daniel K., Chairman, U.S. Senator from Hawaii........     1
Burr, Hon. Richard, Ranking Member, U.S. Senator from North 
  Carolina.......................................................     2
Murray, Hon. Patty, U.S. Senator from Washington.................     4
Isakson, Hon. Johnny, U.S. Senator from Georgia..................     6
Tester, Hon. Jon, U.S. Senator from Montana......................     7
Brown, Hon. Sherrod, U.S. Senator from Ohio......................     8
Wicker, Hon. Roger F., U.S. Senator from Mississippi.............    10

                               WITNESSES

Mansfield, Gordon H., Deputy Under Secretary of Veterans Affairs, 
  U.S. Department of Veterans Affairs; accompanied by Patrick W. 
  Dunne, Acting Under Secretary for Benefits and Assistant 
  Secretary for Policy and Planning..............................    11
    Prepared statement, combined with Mr. England of the U.S. 
      Department of Defense......................................    13
    Response to written questions submitted by:
      Hon. Daniel K. Akaka.......................................    23
      Hon. Jon Tester............................................    36
England, Gordon, Deputy Secretary of Defense, U.S. Department of 
  Defense; accompanied by David S.C. Chu, Under Secretary for 
  Personnel and Readiness........................................    38
    Response to written questions submitted by:
      Hon. Daniel K. Akaka.......................................    40
      Hon. Jon Tester............................................    45
Atizado, Adrian M., Assistant National Legislative Director, 
  Disabled American Veterans, on Behalf of the Authors of The 
  Independent Budget.............................................    64
    Prepared statement...........................................    66
Bowers, Todd, Director of Government Affairs, Iraq and 
  Afghanistan Veterans of America................................    71
    Prepared statement...........................................    73
Campos, Rene A., Commander, U.S. Navy (Ret.), Deputy Director, 
  Government Relations, Military Officers Association of America.    74
    Prepared statement...........................................    76



 
 OVERSIGHT HEARING: UPDATE ON VA AND DOD COOPERATION AND COLLABORATION

                              ----------                              


                       WEDNESDAY, APRIL 23, 2008

                                       U.S. Senate,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:48 a.m., in 
room 418, Russell Senate Office Building, Hon. Daniel K. Akaka, 
Chairman of the Committee, presiding.
    Present: Senators Akaka, Murray, Brown, Tester, Burr, 
Isakson, and Wicker.

     OPENING STATEMENT OF HON. DANIEL K. AKAKA, CHAIRMAN, 
                    U.S. SENATOR FROM HAWAII

    Chairman Akaka. This hearing will come to order. Good 
morning and welcome to the Committee's hearing on VA and DOD 
and your cooperation and collaboration. More specifically, 
today's hearing will focus on the joint VA and DOD Senior 
Oversight Committee.
    This is the eleventh now in a series of hearings dating 
back to January 2007 addressing how well VA and DOD are working 
together to meet the needs of returning servicemembers. This 
level of oversight is indicative of how important this issue is 
to me and the Committee. Progress has been made in this area 
over the last year, but much work still remains.
    It is clear that the two Departments need to function as 
one, especially when we have veterans at risk of suicide and 
severe PTSD. If either DOD or VA mishandles a veteran at risk, 
the result can be tragic. This Committee has asked for even 
greater collaboration to ensure that the wounded warrior 
provisions of the 2008 Defense Authorization Act are carried 
out appropriately, namely improvements to the way in which VA 
and DOD care for veterans with Traumatic Brain Injuries.
    VA Secretary Peake recently stated that the two Departments 
are currently operating under unprecedented levels of 
cooperation and information sharing. Secretary Gates recently 
declared that VA care is inconsistent. Both statements are 
indeed true, and both statements assure me that more can be and 
should be done.
    This Committee will work to strengthen the relationship 
between the Departments. Today, we will take a closer look at 
the Senior Oversight Committee, the mechanism VA and DOD 
established last May to resolve many of the issues related to 
servicemembers' transition from active duty to veteran status. 
This special body is co-chaired by VA Deputy Secretary Gordon 
Mansfield and DOD Deputy Secretary Gordon England. It is vital 
that with the coming change in administration there be no 
wavering of the energy and focus the Departments have brought 
to the issues of coordination and cooperation.
    Given the importance of improving the care and transition 
of wounded servicemembers, it is critical that the Departments 
sustain their joint efforts for as long as there are 
servicemembers in combat.
    I understand that the current plan is for the Senior 
Oversight Committee to hand over its responsibilities to the 
Joint Executive Council in January of next year. I am concerned 
that this body has neither the resources nor the leverage 
within the Departments to carry on this essential work. Let me 
be clear on that. I am committed to sustaining the energy and 
focus the Senior Oversight Committee has brought to bear on 
these issues and will take the necessary action to ensure this 
continues.
    Without the weight of both the Department Secretaries 
behind solving the problems related to seamless transition and 
a full-time joint staff to track them, we run the risk of 
returning to the bureaucratic lethargy which contributed to the 
Walter Reed scandal. We have come too far to return to those 
days.
    I hope that our witnesses today will provide us with a real 
sense of the next steps forward. As we learned last month from 
the families of wounded warriors, it is apparent that 
servicemembers, even those who are seriously wounded, are still 
remarkably not getting the attention and assistance they need. 
We owe more to those who have given so much for our country.
    Thank you, and may I call on our Ranking Member for his 
statement.

        STATEMENT OF HON. RICHARD BURR, RANKING MEMBER, 
                U.S. SENATOR FROM NORTH CAROLINA

    Senator Burr. Thank you, Mr. Chairman. Aloha. The Chairman 
forgot to say that this morning and I expect it every time I am 
here. I want to thank the Chairman.
    More importantly, I want to thank our witnesses, these 
officials from the Department of Defense and the Department of 
Veterans Affairs, as I would like to refer to them from now on, 
the Gordon and Gordon Team. Mr. Chairman, we could not have two 
more capable, committed, and passionate individuals that have 
been tasked with the job before them that many have suggested 
before they would accomplish and none have. I just want to say 
to both of them that we are extremely fortunate to have both of 
you in the capacity that we do. We are fortunate that you have 
been tasked with what others have not been able to accomplish. 
And I, for one, have tremendous confidence in both of you that, 
at the end of this process, we will have moved forward in a 
very positive and understandable way.
    For our wounded warriors who have sacrificed so much for 
our Nation, we must make sure they are provided in a quick, 
hassle-free, and effective way with the benefits and services 
they need to recover and to move on with fulfilling and 
productive lives. As Secretary Gates put it, ``apart from the 
war itself, we have no higher priority [than to care for our 
wounded].''
    But, last year, it became very clear that we have more work 
to do to meet the needs of these wounded warriors. I am sure we 
all remember the news stories about some servicemembers at 
Walter Reed who were dealing with lost medical records, 
substandard living quarters, and confusing and complex 
bureaucratic problems. Also, several studies and reports last 
year outlined system-wide problems affecting these wounded 
warriors. The reports stressed the need to provide better case 
management for injured servicemembers, to improve the flow of 
medical records between the Department of Defense and the VA, 
and to streamline the disability compensation system.
    Since then, the Senior Oversight Committee has helped to 
bring about changes--like the new Federal Recovery Coordination 
Program--that I hope will improve the lives of many 
servicemembers and their families. Today, I look forward to 
hearing about the progress that has been made so far and to a 
candid discussion about what we still need to do to make sure 
that our wounded warriors are quickly provided with the 
support, the services, and more importantly, the benefits that 
they need.
    But before we turn to the witnesses, Mr. Chairman, I would 
like to comment on one of, I think, the most important issues 
we will hear about today, and that is the efforts to improve 
the disability evaluation system. As we all know, this system 
often requires injured veterans to endure a lengthy, redundant, 
and bureaucratic process at both DOD and the VA to get their 
disability benefits. Before an injured servicemember can be 
discharged from the military, he or she may go through a 
lengthy, complex process with the Department of Defense to be 
assigned a disability rating. After going through that process, 
that injured servicemember may then go through a similar 
process at VA to get another rating that determines the monthly 
benefit he or she will receive from the VA. To add to the 
confusion, both ratings are based on the same outdated VA 
rating schedule. On top of that, there are complicated rules 
that limit how much of the benefits from the Department of 
Defense and the VA the veteran can get at the same time.
    For more than five decades, experts have been telling us 
that we need to update, simplify, and modernize this system. 
Similar recommendations were made last year by both the Dole-
Shalala Commission and the Veterans' Disability Benefits 
Commission. Like past reports, those distinguished commissions 
recommended that we get rid of the overlapping, confusing roles 
of two Departments in the disability rating process, completely 
update the VA disability rating schedule, compensate our 
veterans for any loss of quality-of-life, and place more 
emphasis on treatment and rehabilitation of our injured 
veterans.
    As we will hear today, the Senior Oversight Committee has 
tried to address some of these recommendations by initiating a 
pilot program under which VA will assign two disability 
ratings, one for DOD's purposes and one for VA's purposes. But 
those ratings may differ and the current confusing rules 
banning full concurrent receipt of payments from the Department 
of Defense and the VA will still apply.
    Mr. Chairman, this must be resolved. This Committee, along 
with the Department of Veterans Affairs, is charged with 
designing a VA delivery system for health care that is a 21st 
century delivery system. I know that Gordon Mansfield is 
committed to do that. I know Secretary Peake is committed to do 
that. They cannot do it without the full cooperation of the 
Congress of the United States, and it is impossible for me to 
believe we can accomplish that if we can't reverse the 
difficulties that exist within the system today.
    I appreciate the efforts of both Departments in trying to 
find ways to make the existing system work better and I hope 
this pilot program will improve services to injured 
servicemembers in the short term. But, as General Schoomaker 
recently said about this pilot program: ``When you speed up a 
bad process, all you have is a fast bad process.'' In my view, 
our wounded warriors deserve better than that. I think it is 
time, long past time, for Congress to actually fix the system 
and make lasting improvements that will benefit veterans for 
generations to come.
    Mr. Chairman, if we are willing to change this system--as 
recommended by commissions for over five decades--we can help 
ensure better benefits, and, more importantly, improved 
outcomes for veterans who have been injured in their service to 
this country. I look forward to working with you and to working 
with my colleagues on this Committee. Again, I welcome our 
witnesses and I encourage my colleagues to listen carefully to 
the great work of these two individuals.
    I yield the floor.
    Chairman Akaka. Thank you very much, Senator Burr.
    Senator Murray?

                STATEMENT OF HON. PATTY MURRAY, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Murray. Thank you very much, Chairman Akaka, 
Senator Burr. I appreciate your holding today's hearing as we 
examine the VA and the DOD's efforts to ensure our 
servicemembers can transition seamlessly from the military into 
the VA. I look forward to the progress report that you are 
going to present today and to hearing from our witnesses, 
particularly Deputy Secretary England and Deputy Secretary 
Mansfield. I share the Committee's thanks to both of you for 
the work you are doing on this important committee.
    Mr. Chairman, it has been more than a year since news 
reports about the excessive red tape and substandard outpatient 
care for our wounded warriors came out, which they were facing 
at Walter Reed and literally across the country. Since that 
time, Congress, the VA, DOD, and numerous independent 
commissions have invested a great deal of time and work to 
ensure that our servicemembers don't leave the battlefield only 
to have to fight their own government here at home to get the 
benefits that they have earned.
    Congress passed record levels of funding for our veterans, 
including $1.8 billion in veterans' funding in the supplemental 
appropriations bill last year. We increased veterans' spending 
by $3.7 billion over the President's request in the 2008 
spending bill. We passed important legislation, including the 
Joshua Omvig Suicide Prevention Bill, which increased the VA's 
capacity to reduce veteran suicide, and the Wounded Warriors 
Act, which improves the coordination of care for servicemembers 
who transition from the military to the VA. Numerous 
commissions, task forces, and independent review groups around 
the country have been studying these problems within the 
transition process and making hundreds of recommendations to 
us.
    Now, a lot has been done, but we have a long way to go, I 
believe, to ensure that we get this process as smooth as 
possible. As we found out from the Walter Reed scandal, one of 
the biggest problems facing our wounded warriors is the 
difficulty working through the bureaucratic maze to get the 
benefits that they have earned. In order to deal with that 
problem, DOD and VA created Federal Recovery Care Coordinators 
to help our servicemembers navigate through this really 
difficult process. But, while DOD and VA have promised to 
provide a Care Coordinator to every seriously injured 
servicemember who wants one, so far--DOD has identified more 
than 4,000 servicemembers who qualify--we only have eight 
coordinators today. So we have a long way to go to provide the 
care that we promised.
    We also know that a lot of work remains to be done to 
improve the Disability Evaluation System. It is my 
understanding that the pilot project that is now being run here 
in Washington, DC, isn't ready yet to be duplicated across the 
country; and this Committee must continue its work on 
legislation to overhaul the disability system to ensure that it 
is fixed.
    In addition, the VA and the DOD have not satisfactorily met 
the requirements dealing with the creation of a Joint 
Electronic Health Record as required by the Wounded Warriors 
Act.
    Mr. Chairman, the DOD and VA still have a lot of work to do 
to improve treatment for our troops who suffer from 
psychological wounds of battle. The RAND Corporation recently 
released a report that found that 320,000 of our troops suffer 
from Traumatic Brain Injury and 300,000 suffer from PTSD or 
major depression, yet only half of those veterans sought 
treatment, and of that number, only half of them received 
treatment that could be classified as even minimally adequate.
    Now, we know that all too often the consequences of leaving 
PTSD and depression untreated are marital problems, drug and 
alcohol abuse, unemployment, and, tragically, suicide. When 
300,000 troops are suffering from a serious mental health 
problem and only one-quarter of them are getting minimally 
adequate care, I think we ought to be worried. We ought to be 
worried that we haven't made nearly enough progress to enable 
us to move to the next step in the process by 2009, as the 
administration plans.
    As the central coordinating office for all of DOD's and 
VA's efforts to improve this seamless transition, the Senior 
Oversight Committee is responsible for tracking and overseeing 
all the efforts to improve care for our wounded warriors. For 
all the reasons that I just gave, Mr. Chairman, I think it 
hardly seems a good time for the oversight committee to declare 
victory and pass its responsibilities to the Joint Executive 
Council. The SOC is led by senior officials. It has the 
influence and the staff to continue to make this important 
progress. And I am really concerned that if we hand those 
responsibilities off now, the JEC won't be able to sustain the 
current energy for tracking and implementing the hundreds of 
recommendations. I am concerned we are going to lose the little 
ground we have made if that occurs.
    And last, Mr. Chairman, I just want to say to this 
Committee, I am incredibly concerned about the emails that came 
out from the VA yesterday downplaying the number of suicides of 
our veterans. This is a serious issue for our veterans, for our 
Americans, and particularly for us who sit on this oversight 
Committee. We need to have the correct information in order to 
have the right policies and provide the right kinds of 
resources, and if we can't count on the VA to tell us what they 
are seeing and what the facts are, we can't make the right 
decisions. So, I will have some more to say about that during 
the question and answer period, Mr. Chairman, but I think it 
should concern all of us as Members of this oversight 
Committee.
    Chairman Akaka. Thank you very much, Senator Murray.
    Senator Isakson?

               STATEMENT OF HON. JOHNNY ISAKSON, 
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. Thank you very much, Mr. Chairman, and 
Secretary Mansfield, Secretary England, welcome. We are glad to 
have you today.
    Every time I travel overseas, if I get anywhere near 
Landstuhl, I go to Landstuhl and visit our troops and the care 
they are getting there. I go quite frequently to Walter Reed. 
And when I am home in Georgia, where we have so many military 
installations so critically involved in the war in Iraq and the 
overall War on Terror, I go to Fort Benning and Fort Stewart.
    During the break in March, I went to Fort Stewart and I 
want to report on and compliment Secretary England on what has 
been done at Fort Stewart in the Warrior Transition Center. 
Some of the concerns that Senator Murray was talking about, we 
have all been concerned about, but I observed a remarkable 
installation in response by the United States Army.
    They have built a Warrior Transition Center where they are 
receiving--the Third ID is coming back from its third 
deployment in Iraq, and as they are coming back, there are a 
number of those soldiers who have PTSD, Traumatic Brain Injury, 
or the newest, which I was not aware is the most common 
affliction for women coming back from battle in terms of non-
combat injuries, is the orthopedic problems from the amount of 
weight they carry, and that has become a more difficult problem 
particularly with 15-month deployments.
    They have put a Transition Center in at Fort Stewart which 
is nothing short of remarkable. They did a lot of research in 
terms of counseling, psychotherapy, aesthetics in terms of 
housing, aesthetics in terms of accommodations. I sat down with 
16 women who had just come back from Iraq to Fort Stewart and 
had been put in the Transition Center. To see the response to 
the relief they were getting from the treatment they were 
receiving by the Army and the accommodations that they were in, 
what the Transition Center was doing was nothing short of 
amazing.
    Secondarily, on what we were talking about in terms of 
coordination with VA, they have put in a great Transition 
Center there, too, so that the counseling and the assistance 
for those transitioning out from active duty into the VA system 
is the best I have seen in any facility I have visited. So, it 
is obvious to me, at least from the standpoint of that visit to 
Fort Stewart--which is a significant point of deployment for 
the Middle East and Iraq--that the Army has responded and that 
new center is something I would commend the entire Committee to 
go and visit, because I think it is a direct response to our 
attention on wounded warriors and, particularly, the attention 
this Committee has paid to PTSD and Traumatic Brain Injury.
    To see and hear firsthand from these women in the 
Transition Center just back from the battlefield in Iraq about 
how much better they were already feeling, the response that 
they were getting, the environment they were in, I just want to 
commend Secretary England. If that is an example of what is 
happening around the country at facilities receiving our troops 
coming back from Iraq, then we are making some progress and I 
commend you.
    Thank you, Mr. Chairman.
    Chairman Akaka. Thank you, Senator Isakson.
    Senator Tester?

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Thank you, Mr. Chairman. I want to thank 
Ranking Member Burr, also, for holding this hearing.
    Before I get into my prepared remarks, I do want to 
dovetail onto something that Senator Burr was talking about and 
that is the disability rating mechanism that is being used. I 
have had several hearings around the State of Montana over the 
last 15 months and I guess the best explanation by the 
veterans, they said it was nothing short of Chinese arithmetic. 
Now, I am not Chinese and I don't know arithmetic that well, 
but my guess is what they meant is that it is very complicated, 
very hard to understand, and doesn't necessarily work that 
well.
    I want to step back in time a little bit. One of the most 
troubling moments in my first year here in the Senate was the 
revelation of the mistreatment of the folks, our soldiers in 
Walter Reed. Soldiers slipping through the cracks is something 
that nobody wants to see on this Committee, and I am sure it is 
nothing any of you folks want to see, either. But the fact is, 
it happened because of, I think, an overwhelming bureaucracy 
that we need to make more streamlined. Administrators and 
clerks that, quite honestly, didn't do their job.
    The Walter Reed scandal was nothing less than a huge black 
eye for this country and, really, a betrayal of the promise 
that we make our young people when we send the men and women of 
this country into war and ask them to put their lives on the 
line. I think they and their families feel like when they are 
in service and they get out, they have some coverage, some 
medical care, and when it is not there, it is regretful.
    We have made a lot of progress over the last year. You 
folks need to be commended for that. We have a long ways to go. 
Much of the credit not only goes to you folks, but also to the 
servicemen and their families who spoke out and made us take 
notice of what was happening as far as conditions on the ground 
and in facilities.
    We have worked to make the transition better for our 
service folks, but there is much more work to be done, 
particularly--particularly, but not exclusively--in the area of 
the National Guard and Reserves, of those folks falling through 
the bureaucratic cracks.
    It was just last March that a young Montana National Guard 
soldier named Chris Dana committed suicide. It was a wake-up 
call for us all. He had served in Iraq in 2004 and 2005 and by 
all accounts had been a model soldier. In response to that 
suicide, the Montana National Guard, the State government, a 
panel of mental health care experts in the State combined to 
issue several recommendations designed to prevent something 
like happened in Chris's tragic suicide from ever happening 
again.
    One of those recommendations was that the VA and the DOD 
collaborate to establish a system by which separating Guardsmen 
can automatically enroll in the VA health, and if eligible, 
into that disability compensation system. I understand that 
there are some potential problems with that, but I think it is 
something that we need to continue to work toward because I 
think it is the right thing to do. We have been talking about 
it for about 20 years and I think it is important.
    The other thing is the infrastructure problem with IT 
between VA and DOD. It is my understanding that DOD does not 
transmit to the VA all of the relevant data that the VA needs 
to understand a veteran's eligibility for VA medical care. 
Maybe that has changed recently, but that is my understanding. 
That needs to change 
and it needs to change soon. Guard and Reserve soldiers' 
benefit claims are denied far more often than their active duty 
brethren. That also needs to change, and we must also look at 
some of the reasons why that is the case and think about how we 
can change that scenario.
    Once again, Mr. Chairman, thanks for the hearing. I think 
we will have a good question and answer session after your 
testimony. Thank you folks for being here.
    Chairman Akaka. Thank you, Senator Tester.
    Senator Brown?

               STATEMENT OF HON. SHERROD BROWN, 
                     U.S. SENATOR FROM OHIO

    Senator Brown. Thank you, Mr. Chairman. Thank you for 
holding this hearing. And Deputy Secretary England and Deputy 
Secretary Mansfield, good to see you again. Thank you for being 
here today.
    I especially want to thank the Veterans Service 
Organizations that will testify later. I thank you for your 
service to our country and thank you for your ongoing 
commitment and service to veterans in our great country. Thank 
you for all that.
    We know that much of the work this Committee has tried to 
do this last year has revolved around the transition from 
soldier to citizen, and we have made progress, but as Senator 
Murray and others pointed out, the progress has been uneven and 
slower than we would like.
    In the last 15 months since Senator Tester and I came to 
the Senate, I have done in my State about 95 roundtables where 
I invite a cross-section of the community to sit down and talk 
about issues that concern them. There will be 20, 25 people 
there. Some of them have been exclusively with veterans. Others 
have been with veterans' service officers there and other 
advocates for 
veterans.
    I hear repeated stories about continued problems in the 
transition from soldier to citizen, particularly at one 
roundtable at the Lou Stokes Medical Center in Cleveland, which 
I did late last year. There were probably 20 people sitting 
around the room, all recent returnees, all who had left the 
service and were returned from Iraq and Afghanistan. As they 
went around the table and talked about their experience, every 
single one of them except for one, who was an air woman from a 
unit in Britain, every single one of them talked about when 
they left the service, they were asked repeatedly to re-up, to 
re-up, to re-up. But when they left, their commanding officer 
showed little interest other than, ``give us back your gear,'' 
showed little interest in their transition to civilian life, 
told them very little about education benefits, about health 
benefits, about whom they could call on when they came back to 
Ohio. That is why the work that you are both doing--both at the 
VA and the Department of Defense--is so very, very important.
    I think it is a positive sign that the VA has started to 
implement recommendations from the Dole-Shalala Commission, but 
as Senator Murray pointed out, the Federal Recovery 
Coordinators are a good place to start, but there are only 
eight, and eight people to manage the care for the most 
severely injured veterans obviously is grossly inadequate.
    One story, another specific story I would like to share for 
a moment, Mr. Chairman, last month, Glenn Minney, an Iraq 
veteran from Chillicothe, Ohio, is sitting in sort of South-
Central Ohio, in Appalachia. He met with me and shared his 
transition experience. He had testified before the House 
Veterans' Committee earlier that day, I believe. He had 
survived an IED blast in April. He was treated for his 
headaches with ibuprofen and for his scratchy eyes he was given 
pink eye medication. It wasn't until December, nearly 8 months 
after he was injured, that Glenn Minney was diagnosed with 
severe TBI. He advocated for increased attention to eye trauma 
in relation to TBI to prevent other veterans from suffering the 
months of uncertainty that he endured as his sight continued to 
deteriorate.
    TBI and PTSD are intimately related to vision problems, to 
cognitive issues, to memory lapses, to anger, to frustration, 
to other mental health issues, as we all have come to see. 
Under the National Defense Authorization for fiscal year 2008, 
DOD is to establish a Center of Excellence for the treatment of 
eye injury and a registry of these injuries. It is a level of 
attention needed for the constellation, if you will, of 
conditions that our Nation's veterans may face.
    I look forward to hearing about plans for establishing this 
center. I look forward to working with all of you as we move 
forward with these necessary improvements.
    Thank you, and thank you, Mr. Chairman.
    Chairman Akaka. Thank you, Senator Brown.
    Senator Wicker?

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Thank you, Mr. Chairman. I appreciate the 
fact that Senator Isakson and Senator Tester talked about the 
progress that is being made, and certainly when good things are 
happening, they ought to be mentioned and credit ought to be 
given where credit is due.
    Having said that, I do hope we can spend some time in this 
hearing today talking about a real frustration of mine, and 
that is the slow progress being made by VA and DOD with regard 
to the interoperability of medical records and the seamless 
transition of health information technology, Electronic Medical 
Records, from the Department of Defense to the VA Health Care 
Systems.
    My understanding is this has been a 10-year process. Ten 
years ago, the DOD and VA began pursuing ways to share data in 
their health information systems. But today, the information 
across different service branches and the VA still remain a 
morass of data, with pockets of progress and piles of 
duplicative paperwork.
    GAO evaluated the progress last year and recommended that 
the Departments: number 1, designate one lead agency; number 2, 
establish a clear line of authority; number 3, develop a master 
plan with agreed-upon milestones.
    In October of last year, I was Ranking Member of the VA-
Military Construction Appropriations Subcommittee, and DOD 
provided me with a summary of progress on these recommendations 
which basically set forth that: number 1, DOD rejected the need 
for a lead agency that had been recommended by the GAO; number 
2, said their line of authority was basically as good as it 
gets for bureaucracies; and number 3, said that they are 
developing a master plan but that timelines and priorities 
within it are likely to shift.
    Now, this Congress responded with language in two 
appropriation conference reports. The language from the 
conference report in the fiscal year 2008 defense 
appropriations bill said this. ``Electronic Medical Record 
interoperability: The conferees direct the Departments of 
Defense and Veterans Affairs to issue a joint report to the 
Congressional Defense Committees by March 3, 2008, detailing 
the actions being taken by each Department to achieve an 
interoperable Electronic Medical Record, EMR. The report should 
include but not be limited to a detailed spending plan for the 
use of funding provided in the Joint Incentive Fund, as well as 
identify all ongoing and planned projects and programs.'' A 
master plan, if you will.
    The language from the conference report of fiscal year 2008 
military construction-VA appropriations was similar. The 
Appropriations Committees, House and Senate, directed the 
Departments of Defense and Veterans Affairs to issue a joint 
report to the Committees on Appropriations detailing actions 
being taken by each Department. The request, the directive, 
March 3 and April 1, was explicit. Neither one of those dates 
have been met.
    Now, 2 weeks ago, my office contacted the VA and DOD to 
check on the status of these directed reports. We were told, in 
response, that the Departments were finishing up an interim 
report to explain why the progress report has not been 
finished. But also, we were assured that the master plan would 
be completed by April 30, a date which is fast approaching.
    I still have not received an interim report detailing why 
the progress report has not been submitted, and I will say to 
our distinguished panelists and to my fellow Senators that I am 
disappointed and frustrated at the lack of attention to an 
explicit directive by the Congress.
    So, I would hope that we will have an opportunity to 
discuss this and to talk about what the Departments need from 
this Congress to move forward on a system to develop an 
Electronic Medical Record that can be used by the servicemember 
when he or she is in the DOD, and can seamlessly transfer over 
to the veteran when that veteran comes under the jurisdiction 
of the VA.
    Thank you, Mr. Chairman.
    Chairman Akaka. Thank you very much, Senator Wicker.
    I now welcome our witnesses. I welcome our witnesses from 
the Departments of Defense and Veterans Affairs. I appreciate 
your all being here today and look forward to your testimony.
    First, I welcome Gordon England, Deputy Secretary of 
Defense. He is accompanied by Dr. David Chu, Under Secretary 
for Personnel and Readiness. I also welcome Gordon Mansfield, 
Deputy Under Secretary of Veterans Affairs. Mr. Mansfield is 
accompanied by Patrick Dunne, Acting Under Secretary for 
Benefits and Assistant Secretary for Policy and Planning.
    I thank all of you for joining us today and your full 
statements will appear in the record of the Committee.
    Secretary England, we will begin with your remarks.
    Mr. England. Let me defer to Secretary Mansfield. I mean, 
this is his committee, Mr. Chairman, and we have a joint 
statement; so if you don't mind, I would like to defer to my 
good friend here.
    Chairman Akaka. Thank you very much.
    Mr. England. And I will just make a few comments.
    Chairman Akaka. Thank you, Secretary England. We will defer 
to Secretary Mansfield.

  STATEMENT OF GORDON H. MANSFIELD, DEPUTY UNDER SECRETARY OF 
    VETERANS AFFAIRS, U.S. DEPARTMENT OF VETERANS AFFAIRS; 
  ACCOMPANIED BY PATRICK W. DUNNE, ACTING UNDER SECRETARY FOR 
    BENEFITS AND ASSISTANT SECRETARY FOR POLICY AND PLANNING

    Mr. Mansfield. Chairman Akaka, Senator Burr, and Members of 
the Committee, I appreciate this opportunity to appear before 
you today.
    The Department of Veterans Affairs and the Department of 
Defense have a positive good news report to give you today on 
our enhanced partnership to ensure today's active duty 
servicemembers and veterans receive the benefits, the care, and 
the services a grateful nation has promised them. They have 
surely earned that.
    I am especially pleased to have worked with Gordon England, 
Deputy Secretary for the Department of Defense, over the past 
year. Gordon and I have had a unique opportunity to focus the 
attention of both Departments on the needs of those we serve, 
our servicemembers and veterans. We have concentrated attention 
on the need for a seamless transition from DOD to VA. I want to 
publicly thank him for his leadership, which has allowed us to 
accomplish so much. The ties between the two organizations have 
been strengthened and lines of communication are now available 
across the two Departments. I want to also note that the two 
Department Secretaries were joined by the two Deputy 
Secretaries last week to discuss these issues.
    Allow me a moment to mention the recent departure of 
Admiral Dan Cooper as Under Secretary of Veterans Benefits. 
Admiral Cooper was an integral part of the success of the SOC 
and has been involved with it since its inception. His 
leadership and dedication will be missed, but fortunately we 
have an able leader stepping into his place. Pat Dunne has 
experience with the SOC and with these issues. Pat will do a 
great job in helping us move forward in all these areas.
    The Senior Oversight Committee has been operational since 
May 2007, but it is important to note that serious high-level 
cooperative efforts in the areas of health care and benefits 
delivery predate the SOC. VA and DOD formed the Joint Executive 
Council in February 2002. It was later codified into statute in 
November 2003 by actions of this Congress.
    I believe it is important to identify some of the positive 
efforts produced under the auspices of the JEC. Dental care, 
especially for Reserve and National Guardsmen, the North 
Chicago Joint Federal Health Care Facility, Traumatic 
Servicemen's Group Life Insurance, benefits delivery at 
discharge, VBA counselors at military treatment facilities, 
data sharing, the Joint Executive Fund are all examples of work 
that predates the SOC that the JEC has worked on and in some 
issues continues to work on. In short, the JEC provided a 
starting point for the SOC. I want to commend and thank Dr. 
David Chu for his past and continued cooperation as my DOD 
partner on the JEC.
    The SOC established eight lines of action which generally 
define the issues needing resolution. They include Disability 
Evaluation System; TBI and PTSD; case management; data sharing; 
facilities; legislation and public affairs; personnel, pay, and 
financial support; and then a look at what we would do if we 
could start over from the start if we wanted to build a system, 
notwithstanding what we have today.
    I want to note that our excellent joint DOD and VA staff, 
led by Melinda Darby and Roger Dimsdale, helped identify the 
lines of action from the issues presented in numerous reports, 
investigations, or commissions which reported last year, and 
those include the Dole-Shalala report, Terry Scott's 
commission, the Marsh-West report to the Secretary of DOD, and 
Secretary Nicholson's report to the President. All were 
reviewed completely to come up with a comprehensive plan of 
action.
    Currently, the SOC is overseeing the efforts to apply the 
decisions made from those line-of-action recommendations. For 
example, the case manager decision, the Federal Recovery 
Coordinators, has resulted in the VA standing up an office, 
hiring the first ten individuals, placing them in military 
treatment facilities, and having them start the process of 
fulfilling that requirement. We also are in the process of 
bringing HHS assistance to that main office.
    In another area, we have started a pilot project to have 
the VA complete one single medical exam which will allow DOD to 
make the fit/unfit decision to serve for the individual and 
then VA to process the claim for disability benefits if the 
individual is discharged from the service. That pilot will run 
for 1 year, until November 2008.
    We realize we have more work to do. Data sharing is an 
example, as mentioned here, where we move to the ability to 
transfer patient data between our two vast systems. We are also 
working together on TBI-PTSD care, research and treatment, and 
we see a greater emphasis on these issues at our new Center of 
Excellence.
    The SOC is prepared to come together whenever required to 
make decisions required by the dedicated VA and DOD staff which 
oversee the efforts on each one of these lines of action. We 
continue to address any issues regarding cooperation between 
the two Departments. Gordon England and I continue to discuss 
issues as needed. Remaining requirements stemming from the NDAA 
passed last session will keep us focused intently on continuous 
improvement.
    The issue of a new Disability Benefits System remains an 
open item. The VA has contracted for two studies which will 
allow us to move forward in this area. The studies are due for 
completion in approximately 4 months. They deal with transition 
payments, compensation and quality-of-life issues in a to-be-
proposed system.
    The issue of rehabilitation medicine continues to evolve as 
we treat and evaluate the patients returning from the 
battlefield, entering acute care treatment, and initial 
rehabilitation in military treatment facilities before they 
transition to VA polytrauma centers and to medical centers, or 
in some cases to civilian Centers of Excellence for specialty 
care.
    And finally, we are working to ensure better involvement 
and care by the DOD or the VA of family members, an important 
issue identified in the Dole-Shalala Commission. This remains a 
key area of concern for both VA and DOD.
    That concludes my statement and I await your questions.
    [The prepared joint statement of Mr. Mansfield and Mr. 
England follows:]
 Prepared Statement of Gordon England, Deputy Secretary of Defense and 
         Gordon Mansfield, Deputy Secretary of Veterans Affairs
    Chairman Akaka, Senator Burr, Members of the Senate Committee on 
Veterans' Affairs, we deeply appreciate your steadfast support of our 
military and veterans and welcome the opportunity to appear here today 
to discuss improvements implemented and planned for the care, 
management, and transition of wounded, ill, and injured servicemembers. 
We are pleased to report that while much work remains to be completed, 
meaningful progress has been made.
    The Administration has worked diligently--commissioning independent 
review groups, task forces, and a Presidential Commission--to assess 
the situation and make recommendations. Central to our efforts, a close 
partnership between our respective Departments was established, 
punctuated by formation of the Senior Oversight Committee (SOC) on May 
8, 2007, to identify immediate corrective actions and to review and 
implement recommendations of the external reviews. The SOC continues 
work to streamline, deconflict, and expedite the two Departments' 
efforts to improve support of wounded, ill, and injured servicemembers' 
recovery, rehabilitation, and reintegration.
    Specifically, we have endeavored to improve the Disability 
Evaluation System, established a Center of Excellence for Psychological 
Health and Traumatic Brain Injury, established the Federal Recovery 
Coordination Program, improved data sharing between the Departments of 
Defense (DOD) and Veterans Affairs (VA), developed housing facility 
inspection standards, and improved delivery of pay and 
benefits.
    The recommended shift in the fundamental responsibilities of the 
Departments of Defense and Veterans Affairs, however, remains one of 
the most significant recommendations from the many task forces and 
commissions. This shift in the fundamental responsibilities would take 
the Department of Defense out of the disability rating business. 
Creating this clear line between the responsibilities of the two 
Departments, as specifically recommended by the Dole-Shalala 
Commission, would allow DOD to focus on the fit or unfit determination 
and streamline the transition from servicemember to veteran.
    Senior high-level cooperative efforts between DOD and VA pre-date 
the SOC. The Joint Executive Council (JEC), which was established by 
the Departments in 2002 and later codified in law, is the nexus for 
senior leadership management of communications, coordination, and 
resource sharing between VA and DOD. The JEC was the starting point for 
the SOC. Today, the JEC continues to direct appropriate resources and 
expertise to specific operational areas through its two sub-councils, 
the Health Executive Council and the Benefits Executive Council, as 
mapped out in the VA/DOD Joint Strategic Plan.
                       senior oversight committee
    The driving principle guiding SOC efforts is the establishment of a 
world-class seamless continuum that is efficient and effective in 
meeting the needs of our wounded, ill, and injured servicemembers, 
veterans, and their families. The body is composed of senior DOD and VA 
representatives and co-chaired by the Deputy Secretary of Defense and 
Deputy Secretary of Veterans Affairs. Its members include: the Service 
Secretaries, the Chairman or Vice Chairman of the Joint Chiefs of 
Staff, the Service Chiefs or Vice Chiefs, the Under Secretaries of 
Defense for Personnel and Readiness and Comptroller, the Under 
Secretaries of Veterans Affairs for Benefits and Health, the Office of 
the Secretary of Defense General Counsel, the Assistant Secretary of 
Defense for Health Affairs, the Director of Administration and 
Management, the Principal Deputy Under Secretary of Defense for 
Personnel and Readiness, the Assistant Secretary of Veterans Affairs 
for Policy and Planning, the Deputy Under Secretary of Defense for 
Plans, and the Veterans Affairs Deputy Chief Information Officer. In 
short, the SOC brings together on a regular basis the most senior 
decisionmakers to ensure wholly informed, timely action.
    Supporting the SOC decisionmaking process is an Overarching 
Integrated Product Team (OIPT), co-chaired by the Principal Deputy 
Under Secretary of Defense for Personnel and Readiness and the 
Department of Veterans Affairs Under Secretary for Benefits and 
composed of senior officials from both DOD and VA. The OIPT reports to 
the SOC and coordinates, integrates, and synchronizes work and makes 
recommendations regarding resource decisions.
                   major initiatives and improvements
    The two Departments are in the process of implementing more than 
400 recommendations of five major studies, as well as implementing the 
Wounded Warrior and Veterans titles of the recently enacted National 
Defense Authorization Act (NDAA) for Fiscal Year 2008, Public Law 110-
181. We continue to implement recommended changes through the use of 
policy and existing authorities. For example, in January 2008, a joint 
DOD/VA Federal Recovery Coordination Program was instituted to provide 
the ultimate, long term case/care management oversight for our 
recovering severely Wounded, Ill and Injured Servicemembers, Veterans, 
and their families across multiple, multi-disciplinary teams, and 
across the continuum of care from recovery to rehabilitation to 
reintegration. Described below are the major SOC initiatives now 
underway.
                      disability evaluation system
    The fundamental goal is to improve the continuum of care from the 
point-of-injury to community reintegration. To that end, in November of 
last year, a Disability Evaluation System (DES) Pilot test was 
implemented for disability cases originating at the three major 
military treatment facilities in the National Capital Region (NCR) 
(Walter Reed Army Medical Center, National Naval Medical Center 
Bethesda, and Malcolm Grow Medical Center). The pilot is a 
servicemember-centric initiative designed to eliminate the often 
confusing elements of the two current disability processes of our 
Departments. Key features include both a single medical examination and 
single disability rating for use by both Departments. A primary goal is 
to reduce by half the time required to transition a member to veteran 
status and receipt of VA benefits and compensation.
    The pilot addresses those recommendations that could be implemented 
without legislative change from the reports of the Task Force on 
Returning Global War on Terror Heroes, the Independent Review Group, 
the President's Commission on Care for America's Returning Wounded 
Warriors (Dole-Shalala Commission), the Veterans' Disability Benefits 
Commission (Scott Commission), and the DOD Task Force on Mental Health. 
Its specific objectives are to improve timeliness, effectiveness, 
transparency, and resource utilization by integrating DOD and VA 
processes, eliminating duplication, and improving case management 
practices. To ensure a seamless transition of our wounded, ill, or 
injured from the care, benefits, and services of DOD to VA's system, 
the pilot is testing enhanced case management methods and identifying 
opportunities to improve the flow of information and identification of 
additional resources to the servicemember and family. The VA is poised 
to provide benefits and compensation to the veterans participating in 
the pilot as soon as they transition from the military.
    The pilot covers all non-clinical care and administrative 
activities, such as case management and counseling requirements 
associated with disability case processing, from the point of 
servicemember referral to a Military Department Medical Evaluation 
Board (MEB) through compensation and provision of benefits to veterans 
by the VA. Expansion of the pilot is being considered to address:

    <bullet> Performance measures--The pilot evaluation plan includes 
extensive quantitative and qualitative performance measures to ensure 
our servicemembers obtain all benefits and entitlements due by law. 
Although no servicemembers have completely transitioned from the pilot 
to veteran status, we expect a reasonable sample population to have 
processed through by mid-June. We'll complete our initial analysis at 
that time and make a determination regarding expanding the pilot. As of 
April 7, 2008, over 287 servicemembers were enrolled in the pilot, and 
we expect the first servicemember to separate within the next 30 to 60 
days.
    <bullet> Site assessment--The following criteria will be thoroughly 
analyzed by both Departments: resources, IT architecture development 
and fielding, case management effectiveness, training requirements, DES 
workload (for DOD and VA) in expansion areas, and costs.
    <bullet> Case management--Most importantly, pilot expansion to a 
broader population will require training and certification of DES and 
VA administrative and case management personnel. It is anticipated that 
certification of the case managers and determination of the appropriate 
case manager staff size will be overriding factors that limit or allow 
expansion of the pilot to other areas.
    <bullet> Phased expansion--Unlike the pilot's Physical Evaluation 
Board phases, which are consolidated in the NCR, the medical assessment 
and MEB phases occur across the Departments at numerous Medical 
Treatment Facilities (MTFs) and Veterans Health Administration (VHA) 
sites. Phased expansion of the pilot should allow MTF site preparation 
and training on a manageable timeline. The first in a series of 
meetings involving both VA and DOD personnel to address expansion of 
the pilot was held on March 12 and 13, 2008. VA and DOD created 
specific workgroups to develop recommendations for the expansion of the 
pilot.

    The pilot is part of a larger effort including medical research 
into the signature injuries of the war and updating VA's Schedule for 
Rating Disabilities (VASRD). Proposed regulations to update the 
disability schedule for Traumatic Brain Injury and burn scars were 
published in the Federal Register on January 3, 2008. We anticipate the 
final rule will be published later this summer and we appreciate the 
review and recommendations by this Committee in support of this change.
    Beyond the Pilot, the Veterans Benefits Administration (VBA) is 
processing claims from Very Seriously Injured (VSI) and Seriously 
Injured (SI) Operations Enduring Freedom (OEF) and Iraqi Freedom (OIF) 
veterans on a priority basis. Claims from all returning war veterans 
are expedited.
                      psychological health and tbi
    Improvements have been made in addressing issues concerning 
psychological health (PH) and Traumatic Brain Injury (TBI). The focus 
of these efforts has been to create and ensure a comprehensive, 
effective, and individually focused program dedicated to prevention, 
protection, identification, diagnosis, treatment, recovery, and 
rehabilitation for our servicemembers, veterans, and families who deal 
with these challenging health conditions.
    The DOD has a broad range of programs designed to sustain the 
health and well-being of every service and family member in the total 
military community. Because no two individuals are exactly alike, 
multiple avenues of care are open to create a broad safety net that 
meets the preferences of the individual. This continuum of care 
encompasses: prevention and community support services; early 
intervention to protect and restore before chronicity, and before the 
member does something rash; service-specific deployment-related 
preventive and clinical care before, during, and after deployment; 
sustained, high-quality, readily available clinical care along with 
specialized rehabilitative care for severe injuries or chronic illness, 
and transition of care for veterans to and from the VA system of care; 
and a strong foundation of epidemiological, clinical, and field 
research.
    VA's Vet Centers, operated by the Readjustment Counseling Service 
in the Veterans Health Administration (VHA), provide community outreach 
and professional readjustment counseling services for war-related 
psychological readjustment problems, including PTSD counseling. Vet 
Centers may treat PTSD, family relationship problems, lack of adequate 
employment, lack of educational achievement, social alienation and lack 
of career goals, homelessness and lack of adequate resources, and other 
psychological problems such as depression or substance use disorder. 
Vet Centers are community-based facilities located outside of the 
larger VA medical centers in convenient easy-to-access settings. The 
Vet Center service mission goes beyond medical care in providing a 
holistic mix of services designed to treat the veteran as a whole 
person in his/her community setting.
    Vet Centers provide an alternative to traditional mental health 
care that helps many combat veterans overcome the stigma and fear 
related to accessing professional assistance for military-related 
problems. Eligibility for Vet Center services is based on military 
service in a combat theater and does not require the veteran to go 
through the enrollment process.
    VA is currently expanding the number of its Vet Centers. In 
February 2007, VA announced plans to establish 23 new Vet Centers 
increasing the number nationally from 209 to 232. This expansion began 
in 2007 and is planned for completion in 2008. More than half of the 
new Vet Centers are operational based on having signed a lease, having 
hired staff, and providing services to veterans. The remaining Vet 
Centers are actively pursuing and/or completing staff recruiting and 
lease contracting. They will all be open by the end of the fiscal year.
    Since hostilities began in Afghanistan and Iraq, the focus of the 
Vet Center program has been on aggressive outreach at military 
demobilization and at National Guard and Reserve sites, as well as at 
other community locations that feature high concentrations of veterans 
and family members. To promote early intervention, the Vet Center 
program hired 100 OEF and OIF veteran returnees to provide outreach 
services to their fellow combatants. These fellow veteran outreach 
specialists are effective in mitigating veterans' stigma and 
establishing immediate rapport. From early in FY 2003 through the end 
of FY 2007, Vet Centers have provided readjustment services to over 
268,987 veteran returnees from OEF and OIF. Of this total, more than 
205,481 veterans were provided outreach services, and 63,506 were 
provided substantive clinical readjustment services in Vet Centers. The 
Readjustment Counseling Service operated a budget of $110 million in FY 
2007.
    Our Departments have partnered in the development of standard 
clinical practice guidelines for Post Traumatic Stress Disorder (PTSD), 
Major Depressive Disorder, Acute Psychosis, and Substance Use 
Disorders. Joint Clinical Practice Guidelines for the evaluation and 
treatment of mild Traumatic Brain Injury (TBI) are currently under 
development. These guidelines help practitioners determine the best 
available and most appropriate care for PH conditions and TBI. In an 
effort to ensure that providers are trained in best practices, we are 
partnering in providing training in evidence-based treatment for PTSD.
    TBI can result in slowed reaction time, impaired decisionmaking and 
judgment, and decreased mental processing. Mild TBI or concussion can 
reduce mission effectiveness and increase risk to the injured 
servicemember and others in the unit. Objective cognitive performance 
information can give the commander critical information for informed 
risk decisions in mission planning and execution while providing 
medical providers with an objective assessment of the extent of the 
injury and a method of tracking recovery. To facilitate the evaluation 
and management of TBI cases, DOD is about to expand a program to 
collect baseline neurocognitive information on all Active and Reserve 
personnel before their deployment to combat theaters. The Army already 
has incorporated neurocognitive assessments as a regular part of its 
Soldier Readiness Processing in select locations. Additionally, select 
Air Force units are assessed in Kuwait before going into Iraq.
    To ensure all servicemembers are screened appropriately for TBI, 
questions have been added to the Post-Deployment Health Assessment and 
the Post-Deployment Health Reassessment. That same information is 
shared with VA clinicians as part of an effort to facilitate the 
continuity of care for the veteran or servicemember.
    Rehabilitative Services and Polytrauma System of Care. VA provides 
clinical rehabilitative services in several specialized areas that 
employ the latest technology and procedures to provide our veterans 
with the best available care and access to rehabilitation for 
polytrauma and TBI, spinal cord injury, visual impairment, and other 
areas. Over the past 2 years, VA has implemented an integrated system 
of specialized care for veterans sustaining TBI and other polytraumatic 
injuries.
    The Polytrauma System of Care consists of four regional TBI/
Polytrauma Rehabilitation Centers (PRC) located in Richmond, VA; Tampa, 
FL; Minneapolis, MN; and Palo Alto, CA. A fifth PRC is currently under 
design for construction in San Antonio, TX, and is expected to open in 
2011.
    The four regional PRCs provide the most intensive specialized care 
and comprehensive rehabilitation for combat injured patients 
transferred from military treatment facilities. As veterans recover and 
transition closer to their homes, the Polytrauma System of Care 
provides a continuum of integrated care through 21 Polytrauma Network 
Sites, 76 Polytrauma Support Clinic Teams, and 54 Polytrauma Points of 
Contact located at VAMCs across the country.
    Throughout the Polytrauma System of Care, we have established a 
comprehensive process for coordinating support efforts and providing 
information for each patient and family member. The care coordination 
process between the referring DOD military treatment facility and the 
PRC begins weeks before the active duty servicemember is transferred to 
VA for health care. The PRC physician monitors the medical course of 
recovery and is in contact with the MTF treating physician to ensure a 
smooth transition of clinical care.
    We have come to appreciate the importance of support to family 
caregivers whose severely injured loved ones transition into VA health 
care. To that end, we are currently evaluating caregiver needs, and 
options to strengthen their ability to care for their loved ones.
    TBI Screening. Beginning on April 14, 2007, VA has screened all 
OEF/OIF veterans receiving medical care within the VA for possible TBl. 
VHA staff received training in administering the screening tool and 
follow-up evaluation, and the computerized medical record system was 
modified to include the TBI screening clinical reminder. The clinical 
reminder (1) identifies veterans who need screening, (2) presents the 
screening tool to the provider, and (3) enters results into progress 
notes and into the electronic health record. VA policy requires that 
veterans who screen positive on the TBI screening tool be offered a 
follow-up evaluation with a specialty provider who can determine 
whether the veteran has a TBI.
    To ensure appropriate staffing levels for PH, a comprehensive 
staffing plan for psychological health services has been developed 
based on a risk-adjusted, population-based model and the Services have 
received resources to staff that model. In addition, DOD has partnered 
with the Department of Health and Human Services (HHS) to provide 
uniformed Public Health Service officers in Medical Treatment 
Facilities to increase available mental health providers for DOD. The 
Memorandum of Agreement between the two Departments is near completion, 
with startup anticipated shortly. DOD program expansions, documented in 
an updated report to Congress submitted in February 2007, include:

    <bullet> Addition of telephone-based screening for those who do not 
have access to the Internet including a direct referral to Military 
OneSource for individuals identified at significant risk;
    <bullet> Availability of locally tailored, installation-level 
referral sources via the online screening;
    <bullet> Introduction of the evidence-based Suicide Prevention 
Program for Department of Defense Education Activity schools to ensure 
education of children and parents of children who are affected by their 
sponsor's deployment;
    <bullet> Addition of a Spanish language version for all screening 
tools, expanded educational materials, and integration with the newly 
developed pilot program on web-based self-paced care for PTSD and 
depression; and
    <bullet> Enhancement of the web based Mental Health Self Assessment 
Program.

    In November 2007, the Department of Defense Center of Excellence 
(DCoE) for Psychological Health and Traumatic Brain Injury was 
established as a national Center of Excellence for PH and TBI. It 
includes VA and HHS liaisons, as well as an external advisory panel 
organized under the Defense Health Board, to provide the best advisors 
across the country to the military health system. The center 
facilitates coordination and collaboration for PH and TBI related 
services among the Military Services and VA, promoting and informing 
best practice development, research, education, and training. The DCoE 
is designed to lead clinical efforts toward developing excellence in 
practice standards, training, outreach, and direct care for our 
military community with psychological health and TBI concerns. It also 
serves as a nexus for research planning and monitoring the research in 
this important area of knowledge. Functionally, the DCoE is engaged in 
several focus areas, including:

    <bullet> Mounting an anti-stigma campaign (Army's Mental Health 
Advisory Team V survey shows that stigma and fears of seeking help are 
being reduced, but there is more to do);
    <bullet> Establishing effective outreach and educational 
initiatives;
    <bullet> Promulgating a tele-health network for clinical care, 
monitoring, support, and follow-up;
    <bullet> Coordinating an overarching program of research including 
all DOD assets, academia and industry, focusing on near-term advances 
in protection, prevention, diagnosis, and treatment;
    <bullet> Providing training programs aimed at providers, line 
leaders, families, and community leaders; and
    <bullet> Designing and planning for the National Intrepid Center of 
Excellence (anticipated completion in fall 2009), a building that will 
be located on the Bethesda campus adjacent to the new Walter Reed 
National Military Medical Center.

    Similarly, VA's commitment to mental health has been evidenced by 
rapid response and action. From the beginning of Operation Enduring 
Freedom in Afghanistan until the end of FY 2007, nearly 800,000 service 
men and women separated from the Armed Forces. Almost 300,000 of them 
have sought care in a VA medical center or clinic. Of these, about 
120,000 received at least a preliminary mental health diagnosis, with 
PTSD being the most common seen diagnosis (nearly 60,000). Although 
PTSD is the most frequently identified of the mental health conditions 
that can result from deployment to OEF/OIF, it is by no means the only 
one. Depression, for example, is a close second.
    Care for OEF/OIF veterans is among the highest priorities of VA's 
mental health care system. For these veterans, VA has the opportunity 
to apply what has been learned through research and clinical experience 
about the diagnosis and treatment of mental health conditions to 
intervene early and to work to prevent the chronic or persistent 
courses of illnesses, especially PTSD that have occurred in too many 
veterans of prior eras.
    VA has increased its support of mental health funding from $2 
billion in 2001 to a projected amount of over $3.5 billion this year. 
As a result of focused efforts to build mental health staff and 
programs, VA has hired over 3,800 new mental health staff in medical 
centers and clinics over the past two and a half years for a total 
mental health staff of nearly 17,000.
    VA and DOD have continued to work collaboratively in the area of 
PTSD. VA's programs in PTSD are informed by the research supported 
through its Office of Research and Development, and by the research, 
educational programs, and clinical demonstrations of its National 
Center for PTSD (NCPTSD) headquartered in White River Junction, 
Vermont; its Mental Illness Research Education and Clinical Centers, 
especially those in Seattle and Portland, Palo Alto and San Francisco, 
and Durham, as well as the Centers of Excellence for Mental Health and 
PTSD in Canandaigua, New York, San Diego, and Waco.
    NCPTSD has been critical in conducting research establishing the 
effectiveness of evidence-based psychotherapies for PTSD, and for 
working with the clinical services in both VA and DOD to translate 
research findings into large scale training programs for mental health 
providers. In this way, VA and DOD are conducting research to develop 
new knowledge on effective treatments, and then organization of the 
programs necessary to allow veterans and servicemembers to benefit from 
them.
    The FY 2007 Supplemental Appropriation provided DOD $900 million in 
additional funds to make improvements to our PH and TBI systems of care 
and research. These funds are important to support, expand, improve, 
and transform our system and are being used to leverage change through 
optimal planning and execution. The funds have been allocated and 
distributed in three phases to the Services for execution based on an 
overall strategic plan created by representatives from DOD and the 
Services with VA input. Of the $600 million O&M Funds, $566 million (94 
percent) has been distributed, including $315 million for PH and $251 
million for TBI. The remaining balance is reserved for expansion of 
promising demonstration programs and for additional costs that emerge 
as the plans are executed.
                            care management
    To improve care management, the complexities between our two care 
management systems are being reduced through the Federal Recovery 
Coordination Program, which will identify and integrate care and 
services for the wounded, ill, and injured servicemember, veteran, and 
their families through recovery, rehabilitation, and community 
reintegration.
    New comprehensive practices for better care, management, and 
transition are being implemented. These efforts include responses to 
requirements of the National Defense Authorization Act 2008 regarding 
the improvements to care, management, and transition of recovering 
servicemembers. Progress is being made toward an integrated continuity 
of quality care and service delivery with inter-Service, interagency, 
intergovernmental, public, and private collaboration for care, 
management, and transition, and the associated training, tracking, and 
accountability for this care. Our efforts include important reforms 
such as uniform training for medical and non-medical care/case managers 
and recovery coordinators, and a single tracking system and a 
comprehensive recovery plan for the seriously injured.
    The joint FRCP trains and deploys Federal Recovery Coordinators 
(FRCs) to support medical and non-medical care/case managers in the 
care, management, and transition of seriously wounded, ill, and injured 
servicemembers, veterans, and their families. The FRCP will develop and 
implement web-based tools, including a Federal Individual Recovery Plan 
(FIRP) and a National Resource Directory for all care providers and the 
general public to identify and deliver the full range of medical and 
non-medical services. To date, the Departments have:

    <bullet> Hired, trained, and placed eight Federal Recovery 
Coordinators (FRCs) at three of our busiest Medical Treatment 
Facilities as recommended by the Dole-Shalala Commission. FRCs are 
located at Walter Reed Army Medical Center, National Naval Medical 
Center in Bethesda, Brooke Army Medical Center. Recruitment efforts are 
ongoing to place a FRC at Naval Medical Center Balboa.
    <bullet> Developed a prototype of the Federal Individual Recovery 
Plan (FIRP) as recommended by the Dole-Shalala Commission; and
    <bullet> Produced educational/informational materials for FRCs, 
Multi-Disciplinary Teams, and servicemembers, veterans, families, and 
caregivers.

    We are also in the process of:

    <bullet> Developing a prototype of the National Resource Directory 
in partnership with Federal, state, and local governments and the 
private/voluntary sector, with public launch this summer;
    <bullet> Producing a Family Handbook in partnership with relevant 
DOD/VA offices;
    <bullet> Identifying workloads and waiver procedures for Medical 
Case/Care Managers, Non-Medical Care Managers, and Federal Recovery 
Coordinators; and
    <bullet> Developing demonstration projects with states such as 
California for the seamless reintegration of veterans into local 
communities.
           data sharing between defense and veterans affairs
    Steps have been taken to improve the sharing of medical information 
between our Departments to develop a seamless health information 
system. Our long-term goal is to ensure appropriate beneficiary and 
medical information is visible, accessible, and understandable through 
secure and interoperable information technology. The SOC has approved 
initiatives to ensure health and administrative data are made available 
and are viewable by both agencies. DOD and VA are securely sharing more 
electronic health information than at any time in the past. In addition 
to the outpatient prescription data, outpatient and inpatient 
laboratory and radiology reports, allergy information, access to 
provider/clinical notes, problem lists, and theater health data have 
recently been added. In December 2007, DOD began making inpatient 
discharge summary data from Landstuhl Regional Medical Center 
immediately available to VA facilities. The plan for information 
technology support of a recovery plan for use by Federal Recovery 
Coordinators was approved in November 2007. A single web portal to 
support the needs of wounded, ill, or injured servicemembers, commonly 
referred to as the eBenefits Web Portal, is planned based on the VA's 
successful eVet Web site. The Veterans Tracking Application (VTA) is a 
data management tool utilized by both VBA and VHA staff to track VSI 
and SI veterans and assist in case management and prioritizing care for 
all OEF and OIF veterans.
                medical facilities inspection standards
    Progress has made to ensure our wounded warriors are properly 
housed in appropriate facilities. Using the comprehensive Inspection 
Standards, all 475 military Medical Treatment Facilities (MTFs) were 
inspected and found to be in compliance although deferred maintenance 
and upgrades were cited. The Services are continuing an aggressive 
inspection of MTFs on a semi-annual basis to ensure continued 
compliance, identify maintenance requirements, and sustain a world-
class environment for medical care. In the event a deficiency is 
identified, the commander of the facility will submit to the Secretary 
of the Military Department a detailed plan to correct the deficiency, 
and the commander will periodically re-inspect the facility until the 
deficiency is corrected. All housing units for our wounded warriors 
have also been inspected and determined to meet applicable quality 
standards. The Services recognize that existing temporary medical hold 
housing is an interim solution and have submitted FY 2008 military 
construction budgets to start building appropriate housing complexes 
adjacent to MTFs. They will also implement periodic and comprehensive 
follow-up programs using surveys, interviews, focus groups, and town-
hall meetings to learn how to improve housing and related amenities and 
services.
    In the wake of reports last year about poor physical conditions in 
some non-VA health care facilities that housed wounded and injured 
servicemembers, then Secretary Nicholson ordered a national review. The 
snapshot revealed that the problems identified were primarily related 
to normal wear and tear that are continually addressed through regular 
inspections and maintenance. Facility leadership conducts weekly 
environment of care (EOC) rounds to promptly identify and correct 
problems. Each Veterans Integrated Service Network (VISN) has an EOC 
review committee that conducts random, unannounced inspections of 
facilities in the Network at least once a year. In addition, there are 
cyclic inspections, e.g., by the Office of the Inspector General. The 
Joint Commission makes unannounced visits to VA health care facilities 
as well.
                   transition issues/pay and benefits
    VA has significantly expanded its outreach efforts to separating 
servicemembers to ensure they are fully informed about their VA 
benefits. From FY 2003 through February FY 2008, VBA military services 
coordinators conducted more than 41,700 VBA benefits briefings, 
reaching a total of more than 1.6 million active duty servicemembers. 
These briefings include 8,013 pre- and post-deployment briefings 
attended by over 493,400 activated Reserve and National Guard 
servicemembers. During FY 2007 alone, VBA military services 
coordinators provided more than 8,150 benefits briefings to over 
296,800 separating and retiring military personnel. As of February of 
this year, we had already provided more than 3,200 briefings to about 
132,600 separating servicemembers.
    Servicemembers transitioning from military to civilian life can 
also benefit from a collaborative effort between DOD and the Department 
of Labor (DOL). The DOL Pre-Separation Guide, which informs 
servicemembers and their families of available transition assistance 
services and benefits, is now available at http://www.TurboTAP.org. 
VA's military service coordinators encourage its use during their VA 
benefits briefings to separating servicemembers.
    Another resource tool for transitioning servicemembers is the 
expanded Small Business Administration's Patriot Express Loan program. 
The Patriot Express Loan offers a lower interest rate and an 
accelerated processing time. Loans are available for up to $500,000 and 
can be used by wounded warriors for most business purposes. DOD has 
also expanded Wounded Warrior Pay Entitlement information on the 
Defense Finance and Accounting Service (DFAS) Web site and other 
organizations have linked to the Web site; in July 2007, the DFAS 
posted an easily understood decision matrix on eligibility for Combat-
Related Injury Rehabilitation Pay (CIP) which allows wounded warriors 
to determine their eligibility for CIP on the Web site. Additionally, 
through use of streamlined debt management procedures, DFAS remitted, 
canceled, or waived debts for over 14,126 wounded warrior accounts 
totaling approximately $13.17 million as of January 29, 2008.
    DOD and VA have executed a Memorandum of Understanding for sharing 
of information concerning active duty servicemembers receiving 
inpatient care at VA medical centers. This expanded data sharing 
assists DOD pay specialists in their efforts to ensure that 
servicemembers and their families are receiving appropriate pay and 
travel benefits.
    To meet the needs of families, DFAS implemented a pilot program in 
October 2007 to provide family members of wounded servicemembers 
another option to immediate access of travel advance funds. A Family 
Support Debit Card with a pre-loaded advance from their travel 
entitlement is provided to the family giving them immediate access to 
funds. This debit card method was proposed to eliminate the delays and 
security issues associated with other travel advance methods--cash, 
check, and Electronic Funds Transfer--and is being tested in three 
locations.
    As authorized in the NDAA, the TRICARE Management Agency will 
implement coverage comparable to the Extended Care Health Option (ECHO) 
for servicemembers who incur a serious injury or illness on active 
duty. The respite care benefit has attracted the most interest and will 
provide short-term care for the servicemember in order to provide rest 
for those who care for the servicemember at home. To further address 
the needs experienced by families or the servicemember's designated 
caregiver, DOD has launched a study to identify the extent and amount 
of the costs borne by families or designated caregivers when they 
assume the responsibility of non-medical care to their servicemember or 
veteran. Initial numbers and costs from this study will be provided to 
DOD by July 2008 with validating surveys and interviews to follow in 
October 2008.
    DOD and VA have shared information concerning the traumatic injury 
protection benefit under the Servicemembers Group Life Insurance 
(TSGLI) and implemented plans replicating best practices. The Army is 
now placing subject-matter experts at MTFs to provide direct support of 
the TSGLI application process and improve processing time and TSGLI 
payment rates. Upon receipt of a completed claim form, the claim is 
adjudicated by the Services and paid within 3 weeks. VA's Insurance 
provider's payment time, upon receipt of a certified claim from the 
branch of Service, averages between two and 4 days. DOD has been 
successful using Congressional authority from the NDAA allowing 
continuation of deployment related pays for those recovering in the 
hospital after injury or illness in the combat zone. This ensures no 
reduction in deployment pays while the servicemember is recovering.
    We are creating a compensation/benefits Web site and handbook that 
will help servicemembers and veterans make informed decisions about 
their futures. VA has just contracted for two studies regarding the 
recommendations of the Dole-Shalala Commission. The first study will 
evaluate the levels and duration of transition benefit payments to 
assist veterans and their families while they are in a vocational 
rehabilitation program. The second study will develop recommendations 
for creating a schedule for rating veterans' disabilities based upon 
current concepts of medicine and disability, taking into account the 
loss of quality-of-life and loss of earnings resulting from service-
connected disabilities. Results of the studies will be provided to VA 
by August 2008.
                               transition
    Collaboration between VA and DOD gained substantial momentum over 
the past year as we partnered to establish a seamless continuum to meet 
the needs of our wounded, ill, and injured servicemembers and their 
families in transition to continued military service or veteran status. 
The SOC is scheduled to stand down in 2009, at which time the Joint 
Executive Council (JEC) will be responsible for SOC initiatives. The 
Departments are committed to maintaining the momentum created by the 
SOC through the JEC. It is the intent of the JEC to honor this 
commitment by ensuring that all of the initiatives that were developed 
and tracked by the SOC are fully and successfully implemented. The SOC 
will establish a clear direction for the two Departments before 
standing down, which will be incorporated into the next iteration of 
the JEC's Joint Strategic Plan. A number of the positive efforts have 
been produced under the auspices of the JEC: Dental care for reserve 
and national guard, realization of a joint Federal health care facility 
at North Chicago, traumatic injury protection benefit under the 
Servicemembers' Group Life Insurance/TSGLI, Benefits Delivery at 
Discharge (BDD), VBA Counselors stationed at MTFs, enhanced data 
sharing between VA and DOD, and more than 66 projects funded from 160 
million in the Joint incentive Fund.
                               conclusion
    The Senior Oversight Committee and its Overarching Integrated 
Product Team continue to work diligently to resolve the many 
outstanding issues while aggressively implementing the recommendations 
of Dole-Shalala, the NDAA, and the various aforementioned task forces 
and commissions. These efforts will expand in the future to include the 
recommendations of the DOD Inspector General's report on DOD/VA 
Interagency Care Transition, which is due shortly.
    As previously stated, one of the most significant recommendations 
from the task forces and commissions is the shift in the fundamental 
responsibilities of the Departments of Defense and Veterans Affairs. 
The core recommendation of the Dole-Shalala Commission centers on the 
concept of taking the Department of Defense out of the disability 
rating business so that DOD can focus on the fit or unfit 
determination, streamlining the transition from servicemember to 
veteran.
    We have made four fundamental changes in our support and care for 
wounded warriors:

    <bullet> Integrated the DOD and VA into a single team.
    <bullet> Identified new approaches to support outpatients (e.g., 
Warrior Transition Units and American's with Disabilities Act compliant 
barracks).
    <bullet> Developed new approaches to address psychological health 
and the challenges of TBI.
    <bullet> Revolutionized customer care.

    We envision five major changes that need to be addressed:

    <bullet> Create and deploy an effective performance management 
structure that will be functional when handed off to the JEC. The 
structure will be a sensor suite to ensure the system is operating as 
intended.
    <bullet> Rationalize DOD/VA roles and responsibilities in 
accordance with Dole-Shalala. x Define a solution for the Reserve 
Component.
    <bullet> Define the path toward an interoperable information 
environment.
    <bullet> Drive home the changed approach to psychological and 
customer care.

    While we are pleased with the quality of effort and progress made, 
we fully understand that there is much more to do. We also believe that 
the greatest improvement to the long-term care and support of America's 
wounded warriors and veterans will come from enactment of the 
provisions recommended by Dole-Shalala. We have, thus, positioned 
ourselves to implement these provisions and continue our progress in 
providing world-class support to our warriors and veterans while 
allowing our two Departments to focus on our respective core missions. 
Our dedicated, selfless servicemembers, veterans, and their families 
deserve the very best, and we pledge to give our very best during their 
recovery, rehabilitation, and return to the society they defend.

    Chairman Akaka, Senator Burr, and Members of the Committee, thank 
you again for your generous support of our wounded, ill, and injured 
servicemembers, veterans, and their families. We look forward to your 
questions.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Akaka to 
   Gordon Mansfield, Deputy Secretary of the Department of Veterans 
                                Affairs

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 Response to Written Questions Submitted by Hon. Jon Tester to Gordon 
   Mansfield, Deputy Secretary of the Department of Veterans Affairs

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Akaka. Thank you very much, Secretary.
    Secretary England?

STATEMENT OF GORDON ENGLAND, DEPUTY SECRETARY OF DEFENSE, U.S. 
  DEPARTMENT OF DEFENSE; ACCOMPANIED BY DAVID S.C. CHU, UNDER 
             SECRETARY FOR PERSONNEL AND READINESS

    Mr. England. Chairman Akaka, also aloha. It is always good 
to be with you, sir, and I thank you for the opportunity, and 
Senator Burr and Members of the Committee.
    I do want to say I do sincerely thank you for this 
opportunity. I think this is hugely important to have this 
dialog and exchange of information. This is about, as you said, 
Senator Burr, Secretary Gates, when he said this is the highest 
priority. I mean, the highest priority of the Department of 
Defense along with the war is indeed our wounded, our ill, our 
injured, and our veterans.
    I will say this. Of course, I have my good colleagues with 
me here today who we all work together on this, but I will tell 
you, throughout the government, I know in the Congress and 
throughout DOD and VA and all of our services and a lot of our 
other agencies, there are people of very good faith every day 
working very, very hard to deal with this subject. I will tell 
you this, it is very complex and very difficult because every 
single case is different. I mean, every single injury is 
different. Every single family situation is different.
    So, dealing with this is hard. It is complex. And I want to 
thank all the people who do this every day, because the people 
who go forward and do this, if they had not served our Nation, 
I will tell you, we would not wake up tomorrow free in this 
Nation. So every single day, when people wake up in a land of 
freedom and liberty, it is because of the people who served, 
and so, we do owe them everything we can.
    I do believe, particularly after this deep involvement on 
my part in this last year, I believe there are people working 
very hard and we have made some progress. That said, I mean, 
there is no finish line. This is not going to be finished. 
People after me and after you all--this is going to be a 
continuing effort to continue to improve our processes and 
systems for all these great Americans.
    Now, we did accomplish, I believe, in the last year we have 
accomplished a great deal. We have gotten on the right path in 
a number of these areas and we are making progress. We have 
dealt with well over 500 recommendations last year, so it was 
very difficult to go through all the 500 and understand a way 
forward that would indeed be beneficial across the board for 
all these great Americans.
    What we are doing now is we are trying very hard--well, 
first of all, we are tracking everything. So, if you come into 
our system, we have schedules and metrics and milestones for 
everything we are doing and we are going to try to bring 
everything we can to as much a conclusion in each of those 
areas by the end of this year or have it in a position that we 
can readily transition. I mean, we are becoming aware that it 
is not long off we will be in a transition to the next 
administration. That is a very disruptive process, because a 
lot of people leave. And so, we are already working very hard 
for a smooth transition to make sure we don't have any 
significant interruptions as we move to the next 
administration. So, we are working very hard to do that.
     A comment about the SOC, the Senior Oversight Committee. 
It is sort of a creation of the people who are here today. I 
mean, we put it together because, frankly, it fit our 
management styles and our approaches and there are similar-type 
venues that we have in the Department of Defense for other 
areas that have worked quite well, so we put together a similar 
organization dealing with these issues and problems.
    To some extent, it is personality-driven. Now, the comment, 
it goes away next January, well, it goes away next January 
because, frankly, the people at this table are not here after 
January 20 next year, and the next team may have a different 
approach to manage the problems. I mean, this has worked well 
for this management team. Senator, I can't tell you it will 
work well for the next management team because to some extent 
it depends on the style and management of the people who will 
be here after us. It doesn't mean it goes away, but it 
certainly goes away for us. There is an underlying organization 
in place, the JEC, which is legislatively put in place, so 
there will be a process to go forward and the next management 
team can decide if they deem to carry on the same way that we 
have.
    Now, regarding recommendations, I would just bring up, if I 
could, one recommendation. We can obviously talk about this 
more. The one area that is evident to me is we still do not 
have what I call a clear bright line between DOD and Veterans 
Affairs in terms of responsibility, and Dole-Shalala actually 
put forward a recommendation to do that. Basically, what Dole-
Shalala said is for DOD to decide fitness to serve--that is, 
can a servicemember remain in the service or would they have to 
leave the service and go into the VA system--and not have us in 
all the other aspects, you know, rehabilitation and all the 
other aspects of this.
    So, I think just as a step forward, I think that would be a 
very useful discussion this year in terms of just clarifying 
those lines of responsibility because that, in itself, I think, 
would end some of the confusion our servicemembers face today. 
So, we can discuss that further, and I thank you for the 
opportunity. It is hugely important for the people who serve 
that we continue to get this right, so I thank you for the 
opportunity. I am delighted to be here with you today.
    Thank you very much, sir.
  Response to Written Questions Submitted by Hon. Daniel K. Akaka to 
     Gordon England, Deputy Secretary of the Department of Defense
       dod and va combined tracking of seriously injured patients
    Question 1. Deputy Secretary England and Deputy Secretary 
Mansfield, I understand that VA and DOD are now tracking seriously 
injured patients through one system that is jointly administered by 
both Departments. The goal is that a veteran with serious TBI, for 
example, will not fall through the cracks and be left to battle the 
bureaucracy on his own when transitioning from DOD to VA care. Please 
elaborate on how this system is being operated and describe its 
successes or shortcomings.
    Response. Seamless transition is a jointly sponsored DOD and VA 
initiative that provides transition assistance to seriously injured 
Servicemembers. DOD and VA together have put into practice strategies 
to provide appropriate, timely, and seamless transition to the most 
seriously injured Operation Enduring Freedom/Operation Iraqi Freedom 
(OEF/OIF) active duty Servicemembers and veterans. The highest priority 
is ensuring those returning from the Global War on Terror transition 
seamlessly from DOD military treatment facilities (MTFs) to VA medical 
centers (VAMCs) and receive the best possible care wherever they are. 
In a timely way, we want these wounded warriors to receive all the 
benefits they have earned through their military service and because of 
their sacrifices.
    In response to the President's Commission on Care for America's 
Returning Wounded warriors, the DOD and VA signed a joint memorandum, 
requiring the establishment of a Federal Recovery Coordination Program 
(FRCP) to serve wounded, ill, and injured Servicemembers, veterans, and 
their families.
    Recovering Servicemembers, veterans, and their families who meet 
the criteria for the FRCP are assigned a Federal Recovery Coordinator 
(FRC). The FRC serves as the participant's ultimate resource, 
overseeing the development and implementation of a Federal Individual 
Recovery Plan throughout the continuum of care. A memorandum of 
understanding was signed by DOD, VA, and Health and Human Services that 
provides overarching guidance for the role and contribution of the 
Public Health Service in the FRCP effort
    At end state, we will have achieved a joint DOD/VA FRCP that 
provides the ultimate, long-term case/care management oversight for our 
recovering severely wounded, ill, and injured Servicemembers, veterans, 
and their families across multiple, multi-disciplinary teams, and 
across the continuum of care from recovery to rehabilitation to 
reintegration. We will also accomplish a coordinated process to manage 
identification and delivery of comprehensive services needed to meet 
the personal and professional needs of our recovering Servicemembers, 
veterans, and their families, ensuring that the right care by the right 
person at the right time and place is provided.
    The FRCP expansion is now in its second phase and will include 
``look backs'' for those severely wounded, ill, and injured 
Servicemembers, veterans, and their families injured prior to the start 
of the FRCP program. Identification of this population will be 
conducted through a review of VA rehabilitation, to include spinal cord 
injury and blind rehabilitation, along with the polytrauma patients. In 
tandem, the DOD will work through TRICARE in an effort to identify the 
same population for potential inclusion into the FRCP. Staffing support 
has already been initiated to support this expansion effort. An 
additional registered nurse is already being actively recruited to 
champion this effort along with additional FRCs who will be placed 
according to geographic location of need.
    In response to the National Defense Authorization Act of Fiscal 
Year 2008, the Wounded, Ill, and Injured Senior Oversight Committee is 
now jointly developing, to the extent feasible, a comprehensive policy 
on improvements to care, management, and transition of recovering 
Servicemembers. To assist in this effort, DOD provides the VA with data 
identifying all OEF/OIF veterans who have been discharged from military 
service. This information is then sent to the appropriate VA regional 
office listing all pending claims of these veterans. This list is 
updated on a weekly basis. Each VA regional office has an OEF/OIF 
manager, who is responsible for overseeing the OEF/OIF workload and 
outreach effort.
    Additionally, VA social worker liaisons and benefits counselors are 
located at ten MTFs that receive the most severely wounded patients, 
including Walter Reed Army Medical Center. These social workers and 
counselors are critical to the seamless transition process, assisting 
active duty Servicemembers in their transition to VA medical facilities 
and the VA benefits system. This transition process helps establish a 
personal and trusted connection with patients and families.
    In this transition process, both DOD and VA have social workers and 
benefits personnel that strive to fully coordinate care and information 
prior to a patient's transfer from an MTF to a VAMC. The FRC, with DOD 
and VA care coordinators, meet with the patients and their families to 
advise and talk them through the transition process. In transferring 
patients, the DOD and VA care coordinators are vital to the wounded 
warriors' treatment. In fact, video conference calling between the MTF 
and the receiving VA polytrauma center (PRC) are routinely accomplished 
to ensure the best transition for the patient. When feasible, the 
patient and family attend these video conferences to participate in 
discussions and to `meet' the VA PRC team.
    In conjunction with DOD, VA's Seamless Transition Program has 
coordinated the transfer of over 7,200 OEF/OIF severely injured or ill 
active duty Servicemembers. This includes ensuring the Servicemember or 
recently discharged veteran are enrolled in the VA medical facility for 
the medical services needed.
    As these patients are being transferred from a DOD medical facility 
to the VA facility, VA benefits counselors are notified at the 
appropriate VA regional office of the patients' transfer. All VA 
regional offices have established points of contact with all military 
hospitals and VA medical centers in their jurisdiction to ensure prompt 
notification of arrival, transfer, and discharge of a seriously injured 
Servicemember. All VA regional offices have designated OEF/OIF 
coordinators and case managers who maintain regular contact with 
injured veterans to make certain their needs are met.
    All Servicemembers are given VA contact information for their 
regional office OEF/OIF coordinator and case manager when they are 
being transferred to another medical facility, released to home, or 
await discharge or retirement from military service.
    Since December 2003, to ensure our veteran population from this war 
is kept updated on current information that may affect their health or 
benefits, the VA's Environmental Agents Service publish the 
``Operations Enduring Freedom/Iraqi Freedom Review'' newsletter. This 
newsletter is mailed to over 800,000 Servicemembers and veterans to 
provide information of combat veterans, specifically the Global War on 
Terror heroes, who served in OEF/OIF, their families, and others 
interested in possible long-term health consequences of military 
service in Southwest Asia. The ``Review'' describes actions by VA and 
others to respond to these concerns.
  on achieving jointness in services' injured servicemembers programs
    Question 4. Deputy Secretary England, at the Committee's first 
hearing on VA and DOD cooperation in January of last year, I raised the 
issue of how the seriously injured and their families are informed of 
their rehabilitation options and benefit eligibility. There are 
numerous programs on the DOD side that aim to assist servicemembers and 
their families, all operating independently of one another, including 
Marine for Life, Army Wounded Warrior, and Navy Safe Harbor. What is 
being done to make these programs work together and ensure their 
effectiveness?
    Response. All information and coordination on rehabilitation 
options and compensation and benefits will be integrated into a single 
Servicemember, veteran, and family-focused life plan. This plan will be 
a personal, customized plan for the severely and seriously wounded, 
ill, and injured Servicemember or veteran. The Recovery Care 
Coordinator (RCC) and/or the Federal Recovery Coordinator (FRC) will 
provide oversight of the plan to ensure the recovering Servicemember 
has knowledge of rehabilitation and benefits. Additional information 
will be available from the Wounded Warrior Resource Center provided 
through Military OneSource as well as through the National Resource 
Directory, a single, Web-based yellow book for resources and services.
    In response to the President's Commission on Care for America's 
Returning Wounded Warriors (PCCWW) and the National Defense 
Authorization Act for Fiscal Year 2008 (FY 2008 NDAA), the DOD and VA 
established a case management working group comprised of 
representatives from the Services' wounded warrior programs: the Army's 
Wounded Warrior Program, the Navy's Safe Harbor Program, the Marine 
Corps' Wounded Warrior Regiment, and the Air Force's Wounded Warrior 
Program. Representatives from the Services' medical, family, and 
chaplain programs also participate in this weekly working group. The 
results of the DOD/VA working group meetings include:

    <bullet> Implementing recommendations from the PCCWW on case/care 
management reform for the wounded, ill, and injured Servicemembers, 
veterans, and their families. Implementation included creating the 
Federal Recovery Coordination Program (FRCP) for severely injured 
servicemembers, veterans, and families and hiring of FRCs (placed at 
three military treatment facilities in January 2008).
    <bullet> A Federal Individual Recovery Plan (FIRP), created to 
assist wounded, ill, and injured Servicemembers and their families in 
navigating through the continuum of care, is in use by the FRCs with 
plans to enhance its scope and information technology capabilities by 
mid-summer. The Services' wounded warrior programs can refer severely 
wounded, ill, and injured Servicemembers and veterans to the FRCP. The 
FRC coordinates with the Services in creating a FIRP for the 
Servicemember, veterans, and their families.
    <bullet> Subsequently, the FY 2008 NDAA requires DOD and VA to 
develop and implement comprehensive policy on improvements to care, 
management, and transition of recovering Servicemembers and their 
families. This policy will allow the Services to provide world-class 
quality care and service delivery to wounded, ill, and injured 
recovering Servicemembers, veterans, and their families throughout the 
continuum of care from recovery and rehabilitation to reintegration.
    <bullet> DOD/VA implementation of section 1611 of the FY 2008 NDAA, 
``Policy on Improvements to Care, Management, and Transition of 
Recovering Service Members,'' is underway. A recovery coordination 
program (RCP) for recovering Servicemembers (RSMs) and their families 
is being created. RCCs are being established within the Services and 
their wounded warrior programs to oversee and assist Servicemembers 
through their entire spectrum of care, management, transition, and 
rehabilitation. A uniform program for assignment of RCCs to RSMs, and 
uniform standards for a comprehensive recovery plan are being developed 
using best practices from the Services' wounded warrior programs.
    <bullet> Collaboration with the Services' wounded warrior programs 
in establishing uniform standards for comprehensive policy for care, 
management, and transition of our recovering Servicemembers ensures 
that DOD and VA provide the best quality care throughout the phases of 
recovery, rehabilitation, and reintegration.
      request for plan to sustain the senior oversight committee 
                       in the next administration
    Question 5. Deputy Secretary England and Deputy Secretary 
Mansfield, please share the plan for sustaining the focus and energy of 
the Senior Oversight Committee into the next Administration, so as to 
ensure the continuity of its mission.
    Response. The Departments are committed to maintaining the momentum 
created by the Senior Oversight Committee (SOC). The SOC reflects the 
partnership of the two Departments' Deputy Secretaries, one of whom co-
chairs the Joint Executive Committee (JEC), a statutory body. The JEC 
already assists the SOC in its work. It is the intent of the JEC to 
ensure that all of the initiatives that were developed and tracked by 
the SOC are fully and successfully implemented. The SOC will establish 
a clear direction for the two Departments, which will be incorporated 
into the next iteration of the JEC's Joint Strategic Plan.
         dod and va electronic medical records interoperability
    Question 6. Deputy Secretary England, the 2008 National Defense 
Authorization Act required the Departments to provide Congress with a 
schedule for the implementation of an interoperable electronic health 
records system. I am disappointed that to date the Departments have 
failed to comply. However, I am more disturbed to learn that at Camp 
Arifjan, in Kuwait, an Army clinic cannot electronically transmit a 
prescription to a Navy pharmacy located only 20 yards away. How can we 
achieve record sharing between the two Departments when we cannot seem 
to accomplish it between two services that are only 20 yards apart from 
each other?
    Response. The Department of Defense (DOD) and the Department of 
Veterans Affairs (VA) share health information today. The Departments 
continue to pursue enhancements to information management and 
technology initiatives to significantly improve the secure sharing of 
appropriate health information. These initiatives enhance healthcare 
delivery to beneficiaries and improve the continuity of care for those 
who have served our country.
    DOD is developing a solution that will resolve the communications 
problem at Camp Arifjan and anticipates delivery to the Army and Navy, 
in October/November 2008. Army and Navy information assurance 
restrictions prohibit separate networks from communicating without 
approved network security capabilities. DOD previously identified this 
problem while working with the Army and Navy on a system upgrade 
project and initiated efforts to fund and develop a solution.
            post-deployment health assessment tbi questions
    Question 7. Deputy Secretary England, I note that in your testimony 
you mentioned that DOD has added TBI questions to the Post-Deployment 
Health Assessment. Committee staff has learned first-hand from 
servicemembers with mild cases of TBI that they are reticent to answer 
these questions truthfully because of the potential impact on their 
futures. What can be done to overcome the stigma attached to these 
wounds?
    Response. To further overcome the stigma, DOD has embraced the 
following principles to guide our plan of action:

    <bullet> Sustain visible leadership to support psychological health 
in Servicemembers;
    <bullet> Create, disseminate, and maintain excellent standards of 
care across the Department;
    <bullet> When best practices or evidence-based recommendations to 
address stigma are not available, we will conduct pilots/demonstration 
projects to better inform quality standards; and,
    <bullet> Provide constant attention to the needs of our war 
fighters and their families by building a strong culture of leadership 
and advocacy.

    Chief to our approach is changing the culture to ensure that 
psychological issues are seen in the same way as physical issues. This 
will require education of senior and unit level line leaders at all 
stages of career progression. In addition, there will be a focus on 
pro-resiliency campaigns to improve the understanding of psychological 
issues in Servicemembers and their families.
    The DOD cares deeply about the physical health, mental health, and 
wellbeing of each and every military member in the total military 
community. Preparedness for physiological and operational challenges is 
one way it aims to enhance resiliency and decrease the stigma 
associated with the invisible wounds incurred by deployment in 
Operation Iraqi Freedom and Operation Enduring Freedom. To build strong 
minds and strong bodies, we focus on the full continuum of removing or 
mitigating organizational risk factors, strengthening individual and 
family health and wellness, and improving traditional clinical 
diagnosis and treatment. Screening and surveillance plays a significant 
role in supporting our troops. Our objectives are to overcome stigma, 
to ensure early identification for individual conditions and concerns 
to afford the earliest possible intervention; identify trends as they 
emerge in the community so population-based changes may be made; and 
provide a solid structure for information management as well as 
continuous education and training.
       explanation of dod's interpretation of service-connected 
                        disability compensation
    Question 8. Deputy Secretary England, the 2008 National Defense 
Authorization Act bars VA from deducting any severance pay from a 
veteran's service-connected disability compensation if the qualifying 
disability was incurred in the line of duty in a combat zone or during 
performance of duty in combat-related operations, as designated by the 
Secretary of Defense. On March 13, 2008, the Department of Defense 
issued a Directive which limits this provision to those members whose 
disease or injury is the direct result of armed conflict. I am 
concerned that the Department is not recognizing disabilities incurred 
under all of the circumstances required by the statute. Please explain 
the reasoning for the Department's narrow interpretation of this 
legislation.
    Response. Section 1646 of the FY 2008 NDAA enhances disability 
severance pay for members of the Armed Forces who have disabilities 
incurred in the line of duty in a combat zone. Specifically, the 
statute states, `` . . . for a disability incurred in the line of duty 
in a combat zone (as designated by the Secretary of Defense for 
purposes of this subsection) or incurred during the performance of duty 
in combat-related operations as designated by the Secretary of 
Defense.'' The statutory definition and intent focus the ``enhanced 
disability severance'' on those Servicemembers whose unfitting 
condition is a result of participation and performance of duty in the 
war effort, and provide wounded warriors with enhanced disability 
severance compensation. The Department's policy simply implements the 
statute.
    The Department's policy promulgated to support the statute requires 
a causal relationship between the armed conflict and the resulting 
unfitting disability. The policy further directs the Military 
Departments to identify Servicemembers who have either a disease or 
injury incurred in the line of duty as a result of armed conflict. The 
definition additionally defines armed conflict and gives the Military 
Departments maximum flexibility to define ``combat-related'' operations 
in the context of the Global War on Terror. The definition states: 
``Armed conflict includes a war, expedition, occupation of an area or 
territory, battle, skirmish, raid, invasion, rebellion, insurrection, 
guerrilla action, riot, or any other action in which Servicemembers are 
engaged with a hostile or belligerent Nation, faction, force, or 
terrorists. Armed conflict may also include such situations as 
incidents involving a member while interned as a prisoner of war or 
while detained against his or her will in custody of a hostile or 
belligerent force or while escaping or attempting to escape from such 
confinement, prisoner of war, or detained status.''
    establishment and funding of the military eye trauma center of 
                               excellence
    Question 10. Deputy Secretary England, given the prevalence of TBI 
patients with visual complications and the fact that over 1,500 OEF/OIF 
veterans have suffered severe eye injuries, what is the timeline for 
establishing and funding the Military Eye Trauma Center of Excellence?
    Response. The Assistant Secretary of Defense for Health Affairs is 
the Department of Defense's lead for the Military Eye Trauma Center of 
Excellence. Health Affairs has designated the Army the lead of a Tri-
Service effort to establish the Military Eye Trauma Center of 
Excellence. On May 7, 2008, the Army presented a pre-decisional brief 
to Health Affairs, which included a proposed timeline, staffing, and 
funding requirements. Health Affairs continues to refine the 
recommendations and anticipates a finalized plan by June 2008.
   data request for servicemember suicide rates since october 7, 2001
    Question 11. Deputy Secretary England and Deputy Secretary 
Mansfield, please provide the most recent data available from your 
respective agencies on suicide among servicemembers and veterans since 
October 7, 2001.
    Response. The following table depicts active duty suicides since 
October 7, 2001:

                                              Department of Defense
                       U.S. Active Duty Military Suicides--October 7, 2001-April 29, 2008*
----------------------------------------------------------------------------------------------------------------
                                                                             Air     Marine
                         Calendar Year                            Army      Force     Corps     Navy      Total
----------------------------------------------------------------------------------------------------------------
2001 (Oct. 7-Dec. 31).........................................        13         8         6        10        37
2002..........................................................        73        32        21        37       163
2003..........................................................        80        39        22        46       187
2004..........................................................        66        55        34        46       201
2005..........................................................        84        37        25        35       181
2006..........................................................       100        48        25        37       210
2007..........................................................       111        36        24        35       206
2008 (Jan. 1-Apr. 29).........................................        28        14         5         5        52
                                                               -------------------------------------------------
  Total.......................................................       555       269       162       251     1,237
----------------------------------------------------------------------------------------------------------------
* Based on confirmed suicide reports--as of April 29, 2008 (data subject to change)
Sources: Defense Casualty Information Processing System, Defense Casualty Analysis System

 Response to Written Questions Submitted by Hon. Jon Tester to Gordon 
         England, Deputy Secretary of the Department of Defense
   availability of mental health services to reserve component forces
    Question 1. Deputy Secretary England, during the testimony, Deputy 
Secretary Mansfield stated his opinion that he believes that a number 
of suicides by Reserve Component veterans may be attributable to an 
insufficient availability of mental health services in the public at-
large. Do you concur in that observation? What actions is the 
Department of Defense taking to improve mental health services 
available to Reserve Component forces?
    Response. The DOD does not currently have the mechanisms to collect 
sufficient data to clearly understand the epidemiology of non-active 
duty Reserve component suicides. The Services collect data on Reserve 
component Servicemembers who are on active duty, but accessing 
autopsies on Reserve component members who are in a civilian status is 
not enforceable by DOD. Without solid epidemiological support, we 
cannot support an opinion on whether Reserve component suicides are 
attributable to insufficient availability of mental health services in 
the public at large nor whether they differ from the age/gender-mated 
civilian population rates.
    While there are fiscal and legal constraints on how appropriations 
can be expended (specifically, Reserve component members' duty status, 
length of time in that duty status, and combat theater history defines 
their access to treatment and other Defense Health Program funded 
initiatives), the DOD has a robust number and range of programs 
accessible to all members, regardless of duty status. These programs 
are designed to sustain the health and wellbeing of every military and 
family member in the total military community. Because no two 
individuals are exactly alike, multiple avenues of care are open to our 
military community to create a broad safety net that meets the 
preferences of the individual. DOD does not rely on one single method 
or program to care for our military members and families.
    All Servicemembers must meet the particular standards of their 
Service upon entry. Once they are in the military, and particularly 
before, during, and after a deployment, a wide array of programs are 
available to them and their families. This continuum of care 
encompasses:

    <bullet> Prevention and community support services;
    <bullet> Early intervention and prevention to reduce the incidence 
and chronicity of potential health concerns;
    <bullet> Service-specific deployment-related preventive and 
clinical care before, during, and after deployment;
    <bullet> Sustained, high-quality, readily available clinical care 
along with specialized rehabilitative care for severe injuries or 
chronic illness, and transition of care for veterans to and from the 
Department of Veterans Affairs (VA) system of care; and,
    <bullet> A strong foundation of epidemiological, clinical, and 
field research.

    The DOD provides a broad array of support systems and services to 
the military community. Services available at military installations 
include health and wellness programs, stress management, family 
readiness and community support centers, family readiness groups, 
ombudsmen, volunteer programs, legal and educational programs, and 
chaplains, among many other community programs.
    Early intervention and prevention programs include pre-deployment 
education and training, suicide prevention training, Military 
OneSource, the Mental Health Self Assessment Program, National 
Depression and Alcohol Day Screening, and health fairs (kits are 
available at www.mentalhealthscreening.org). DOD has formed a strong 
partnership with the VA and other Federal agencies and professional 
advocacy groups to provide outreach and prevention programs available 
to Reserve and National Guard soldiers.
    Medical conditions that may limit or disqualify deployed 
Servicemembers are continually assessed, while screening, assessment, 
and educational programs take place across the entire deployment cycle. 
A spectrum of prevention, stress control, and mental health care are 
available in theater. Expanded clarification of deployment limitations 
for mental health conditions and psychotropic medications were put into 
place in November 2006, to ensure consistent standards across all 
branches of Service.
    A post-deployment health assessment and education process is 
conducted upon returning from deployment to identify health concerns 
that might have arisen. An additional post-deployment health 
reassessment with additional education takes place 90 to 180 days after 
deployment, to identify any issues that might arise in that timeframe. 
Periodic health assessments are also conducted to identify any health 
issues a person might have prior to entering the pre-deployment cycle. 
In addition, a mental health self-assessment is available 24 hours a 
day, 7 days a week online or by telephone as an additional tool for 
family members and Servicemembers.
    Each Service has specific combat stress and deployment mental 
health support programs available before, during, and after the 
deployment cycle. These provide support tailored to the Service's 
mission and risk factors their personnel might face. In addition, 
cross-functional planning teams bring together subject matter experts 
from across the services, the Joint Staff, and DOD.
    The Military Health System delivers timely, quality mental health 
and behavioral healthcare, including Behavioral Health in Primary Care, 
Mental Health Specialty Care, Clinical Practice Guidelines, and ready 
access to high quality, occupationally relevant primary care, along 
with model and demonstration programs designed to continuously learn 
and improve the system of care delivery. In addition, walk-in 
appointments are available in virtually all military mental health 
clinics around the world.
    Military medical treatment facilities deliver rehabilitative care 
and specialty care. DOD partners with VA to provide state-of-the-art 
polytrauma centers, Traumatic Brain Injury (TBI) research and 
treatment, and transition assistance programs. Reserve and National 
Guard soldiers can make use of range of extended TRICARE health 
benefits.
    The quality of care is maintained through active quality assurance 
and national quality management programs. A deployment health program 
evaluation process provides further validation of effective practices 
and programs.
    Mental health deployment-related research is performed at local, 
Service, and interagency collaborative levels to maintain quality care 
in an environment of expanding knowledge. In addition, $300 million was 
added to the DOD congressionally-directed medical research program 
specifically for psychological health and TBI research.
      reserve component servicemember data transfer from dod to va
    Question 2. Deputy Secretary England, during the hearing, Dr. Chu 
stated that all service data is transmitted from the Department of 
Defense to the Department of Veterans Affairs when a servicemember 
separates. Is there any difference between data transferred to the VA 
for separations of members of the Reserve Component forces and active 
duty separations? Does this information include information relating to 
the character of discharge, and all other elements required to 
determine eligibility for enrollment in the VA health care system?
    Response. Data transmitted to the VA for a separating Servicemember 
is the same independent of the Servicemember's component. All 
information relating to the discharge is contained on the DD Form 214 
with data that VA needs for the VA health care system. Specifically, in 
accordance with DOD Instruction 1336.1, ``Certificate of Release or 
Discharge from Active Duty (DD Form 214/5 Series),'' Copy No. 3, which 
contains block 24, characterization of service, will be sent to the VA, 
in accordance with section 18(a) of Public Law 100-527, ``Department of 
Veterans Affairs Act,'' dated October 25, 1988. The required entries in 
block 18 (Remarks) of the DD Form 214 for mobilized reservists include:

    <bullet> The details of the order to active duty in support of 
contingency operations;
    <bullet> The period of service in the country to which deployed;
    <bullet> Imminent danger area (if designated); and,
    <bullet> Whether the member completed the period for which ordered 
to active duty for the purpose of post-service benefits and 
entitlements.

    A copy is also provided to the hospital with the medical records if 
the individual is transferred to a VA hospital.
            reserve component call-up and discharge process
    Question 3. Deputy Secretary England, are there incidences in which 
a reserve component servicemember is called to active duty, yet does 
not receive a DD-214 upon discharge? If so, please explain why such a 
circumstance might occur, and what measures the DOD takes to ensure 
that these individuals are ultimately provided a copy of their DD-214?
    Response. The Department's policy regarding the issuance of DD 
Forms 214 is that Servicemembers will generally receive the 
``Certificate of Release or Discharge from Active Duty'' document (DD 
Form 214) when they have completed tours of 90 days or more (including 
training tours). However, exceptions to the policy are allowed that 
provide for issuance of the document for tours less than 90 days for 
medical, mobilization, or other reasons, or anytime the Secretary 
concerned so prescribes. For example, the Department's Mobilization/
Demobilization Personnel and Pay Policy for the current contingency 
states:

        ``To ensure identification of qualification for veterans' and 
        other benefits, members of a Reserve Component who have served 
        on active duty in response to the World Trade Center and 
        Pentagon Attacks on or after September 11, 2001, will be issued 
        a Certificate of Release or Discharge from Active Duty (DD Form 
        214) in accordance with Department of Defense Instruction 
        1336.1, `Certificate of Release or Discharge from Active Duty 
        (DD Form 214/5 Series).' The certificate will be provided on 
        release from active duty, regardless of the number of days 
        actually served.''

    The reason for the general ``90-day'' rule is that, in most cases, 
benefits attributable to or authorized by a DD Form 214 are not 
provided for shorter tours. If benefits would be affected, then the 
Department would prescribe the issuance of the form, regardless of the 
tour duration.
    Section 1168 of title 10, United States Code, governs discharge or 
release from active duty. It states that ``. . . a member of the Armed 
Forces may not be discharged or released from active duty until his 
discharge certificate or certificate of release from active duty (DD 
Form 214), as well as his final pay or a substantial part of that pay, 
are ready for delivery to him or his next of kin or legal 
representative.'' This does not prevent immediate transfer of a member 
to a facility of the Department of Veterans Affairs for necessary 
hospital care.
    DOD policy, as well as each Service policy, states that ``. . . 
upon release or discharge from active service, the original of DD Form 
214 will be physically delivered to the separatee prior to departure 
from the separation activity.'' This occurs on the effective date of 
separation, or on the date that authorized travel time commences. 
Copies of DD Form 214 are distributed with 24 hours of the effective 
date of separation. When separation is effected under emergency 
conditions which preclude physical delivery, or when the recipient 
departs in advance of normal departure time (e.g., on leave in 
conjunction with retirement or at home awaiting separation for 
disability), the original DD Form 214 is mailed to the recipient on the 
effective date of separation. If the separation activity is unable to 
complete all items on the DD Form 214, the form is prepared as 
completely as possible and delivered to the separatee. The separatee is 
advised that a DD Form 215, Correction to Certificate of Release or 
Discharge from Active Duty, will be issued when the missing information 
becomes available. The Services have oversight mechanisms during the 
out-processing of their members to ensure that this important document 
is prepared and delivered.

    Chairman Akaka. Thank you very much, Secretary England. 
Thank you for your remarks.
    I have a fast question for you. The issues that you have on 
your plate--this is to our two Deputy Secretaries--the issues 
that you have on your plate are of enormous importance and 
cover a huge range, as you are pointing out, Secretary England, 
from TBI, PTSD, case management, disability reforms, and on and 
on. To take on such serious and numerous matters--and this is 
my question to you--how often are you now both sitting down 
together to work through these ongoing issues?
    Mr. England. Mr. Chairman, I would say we sit down whenever 
we need to do that, so whenever the topic needs to be addressed 
by each of us, then we call the appropriate people together to 
do that or else Gordon and myself just talk about it ourselves. 
So we do have a very close relationship. I mean, it is easy for 
us to call each other, to get together.
    When we first set up the SOC, because we had literally all 
these recommendations--and I believe it was 500-and-some 
recommendations to deal with--we were literally getting 
together a couple of times a week for a couple of hours, and, 
of course, we had a lot of lines of action working and they 
would report regularly to us. As time has gone on, then we were 
meeting like once a week, and now we meet whenever we need to. 
It is either every other week or every third week, so there is 
really no set time now.
    We still have the lines of action in place. All the 
underlying work is still being done, but at the senior 
management level we meet whenever it is appropriate to get 
together and deal with the issues we have to deal with. So, 
that is what we do today. That is our modus operandi right now 
for the SOC.
    Chairman Akaka. Secretary Mansfield?
    Mr. Mansfield. I would just reaffirm what Secretary England 
has said and make the point that we can talk to each other 
whenever we need to. We have done that as needed. We met weekly 
in an effort to make sure that we had all these issues 
identified, working groups put together, and then they are 
moving forward to carry out the desire of the Senior Oversight 
Council. So right now, we don't need to meet as much because we 
have been through the, as mentioned, 500 issues. We have got 
work groups in progress, and so again, we can meet as needed or 
talk about these issues as needed.
    Chairman Akaka. Let me, in the interest of time, just ask 
one question and I will pass it on. Switching gears to a very 
serious issue, suicide prevention is absolutely critical. There 
must be a sharply-focused effort to identify those at risk and 
to reach out to them in an effective way. It is also vital that 
no effort be spared to seek to reduce the stigma of seeking 
care.
    The DOD Task Force on Mental Health and a recent RAND study 
estimated huge numbers of active duty soldiers and National 
Guard who have served in Iraq and Afghanistan and who report 
mental health issues. It seems obvious at this point that 
neither VA nor DOD is ready to deal with the increase in mental 
health needs of Iraq and Afghanistan service personnel. We also 
have inconsistent information on the number of suicides, and in 
some cases we know that information on suicides is being 
suppressed, and this was mentioned.
    First, for Deputy Secretary England, what is the rate of 
suicide in the military? And Deputy Secretary Mansfield, what 
do your numbers show? And for each of you, are we facing a 
suicide epidemic?
    Mr. England. I am going to have Dr. Chu answer some because 
he has the latest data, because what I have in front of me is 
only through 2006. Through that period, it was all very 
consistent, I can tell you, for the service. I do know, though, 
that the Army has gone up in terms of the suicide rate, 
Senator, and the rest of the services have stayed relatively 
constant throughout. Army has gone up here in the last year, 
and David, do you have the latest numbers, please?
    Dr. Chu. Yes, sir, that is correct. The Department's 
experience has been that for the Navy, Marine Corps, Air Force, 
while there are variations year to year in suicide rates, they 
are roughly stable over the years of this first decade of the 
21st century. The Army has in the last 3 years seen some 
gradual increase. Over the last few months, and I don't want to 
overdo this, the Army has seen some modest diminution.
    We are very much concerned with the issues that you raise. 
Do we have enough people? We are adding several hundred mental 
health providers in all the military services, and I am 
delighted to say we are being assisted by the Public Health 
Service, which is giving us some of its officers to assist with 
this process.
    Each service has a vigorous program of suicide prevention. 
They differ slightly in their content. The Air Force has done 
particularly well on this front over the years and is seen by 
many as a model in terms of ideas and procedures that we should 
emulate, although it, too, has seen some variability from year 
to year. So there is, in our judgment, no single magic answer.
    I do think a central initiative does need to be, as you and 
others, the Secretary of Defense, have emphasized, 
destigmatizing our people asking for assistance, and we are 
trying to do this in a variety of ways inside the Department. 
This includes the Army teaching program in terms of mental 
health issues, et cetera. But it will be a long, hard effort to 
get this where we want it to be.
    I think the good news is that on an age-adjusted basis, the 
Department's suicide rates as a whole tend to be a bit below 
the national norm. Even the Army's recent increase only puts it 
at approximately the national level on an age-adjusted basis. 
Now, there are variations within subgroups, et cetera, that one 
wants to pay attention to.
    We take it very seriously. We are putting more people on 
this issue. It is a leadership matter. We are holding you 
accountable. We are very pleased with this new Center for 
Behavioral Health and Traumatic Brain Injury because we have 
charged its commander, Dr. Loree Sutton, with making 
psychological resilience prevention, not just after-the-fact 
care, prevention our first priority.
    Chairman Akaka. Secretary Mansfield?
    Mr. Mansfield. Yes, sir. I want to make the point that the 
VA regards this issue, mental health generally, as one of the 
most important that we have to deal with. In fiscal year 2008, 
the VA will invest approximately $3 billion in general mental 
health services, a continuing increase in our budget. We 
invested $60 million in PTSD and TBI research in 2007. We 
employ more than 9,000 front-line mental health workers and 
17,000 mental health workers in total, 3,200 of them hired in 
the last two-and-one-half years.
    In fact, Modern Health Care recently had an article called 
``Brain Drain'' talking about the fact that the VA's effort to 
go out and hire additional front-line health care personnel has 
put a strain on the mental health capacity of the entire 
country. I think that is something that we need to look at and 
talk about. Again, with the VA's responsibility in education in 
the health care arena, we need to look at doing something more 
in this area.
    We recently put forward the nursing initiative and the 
nursing academy initiative, which is going into its second year 
this year. I have started discussions in the Department about 
us attempting to do something in this mental health care arena 
in an effort to increase the supply of mental health 
practitioners in the United States, which will allow us not to 
have to deal with this brain drain but also get excellent 
people on board.
    Each of VA's 153 medical centers and most of our 718 
community-based outpatient clinics do have world-class mental 
health specialists who use state-of-the-art therapies to treat 
mental health disorders. I would make the point that we 
recognize in the VA that the numbers show there have been an 
increase from 2001 to 2005. For example, the number of suicides 
of veterans who have sought care in the VA have increased from 
1,403 to 1,784. It is an issue that we are working on and 
making sure that we assess veterans for suicidal tendencies, 
that we have prevention counselors that make sure that we get 
the job done at the VA medical centers. And conduct the best 
research possible and make this a priority.
    Chairman Akaka. Let me ask for a very brief answer. Are we 
facing a suicide epidemic?
    Mr. Mansfield. Sir, again, I am not the expert on numbers 
or on the medical or mental health care. But, looking at the 
numbers that CDC reports, it is informative for me to look at 
the fact that suicide happens to be the second- or third-
largest cause of death in the population from 15 to 24 years 
old, many of whom are the ones that we recruit and serve in the 
Armed Forces. So, there is an issue in that area.
    I don't know that I would call it an epidemic given the 
indicators that Senator Murray brought forward--that we have a 
large number of people coming back from a combat zone that need 
mental health care--and we would expect to see some kind of an 
increase. But, as indicated, that means we should be prepared 
to deal with it, and we are attempting to ramp up and make sure 
that we do attempt to identify each and every one of these 
folks and give them the care and treatment that they need so 
that we can deal with these issues that drive them to this.
    Chairman Akaka. Secretary England?
    Mr. England. Senator, I would say that what we need to do 
is make sure we don't have an epidemic. We don't in our active 
force today. We do have people coming back, obviously, with 
mental health issues and so we do need to deal with those 
issues promptly, as Senator Murray said. We need to do it 
completely, otherwise, you could have an issue in the future. 
So, we do not today. As Dr. Chu said, our rates are really 
quite stable in all of our services. They have gone up in the 
Army and we addressed that and we have a lot of special 
programs in place now to help with that issue. But you do need 
to deal with the issues of people returning. Otherwise, you 
could have a larger problem in the future, certainly.
    Chairman Akaka. Will you both provide some hard data on 
suicide for me for the record?
    Mr. England. Yes, sir. That is available and we do keep 
that updated; so, absolutely.
    Mr. Mansfield. We will do that, sir.
    Chairman Akaka. Senator Burr?
    Senator Burr. Thank you, Mr. Chairman.
    I really had one question and two observations. I think I 
am going to make it three observations because I think the 
question to Gordon Mansfield may be unfair at this point. I was 
going to ask for an update of this 1-year pilot program, what 
you have seen so far. It may be premature to make an 
assessment, but if you feel you have one, I will let you 
provide that.
    But to Secretary England, I would encourage you to look at 
the disability bill that I have introduced, specifically Title 
I of that bill, and see if it meets the threshold of that 
bright line distinction where DOD responsibilities stop and 
VA's start. See if it accomplishes legislatively what the 
commissions have identified, and more importantly, what you as 
Deputy Secretary think we need in legislation to draw that 
distinction.
    The last observation I would like to make to both of you 
jointly, to DOD and to VA. I think we are at a point in time 
where transparency is probably the most important thing that we 
can display--transparency of trends. It should not be a 
question for you, this Committee, or this country as to whether 
there is a trend that we should be concerned with that we 
should address. I don't think that there is any attempt to 
intentionally not share information. I think that now is a 
point in time where we need to focus on more openness from the 
standpoint of not only what we are doing, but the challenges we 
are up against.
    To Secretary Mansfield, he and I--and I think most 
Committee Members--understand the mental health challenge that 
we have got within the VA. I personally believe that we have to 
make some substantial changes to encourage our veterans to take 
advantage of it. I think the two doctors on both ends would 
agree that part of our outcome problem is we don't get them 
early enough. We don't get them in the intense rehabilitation 
that all medical data today proves: that, if we get them very 
early and we intensify that rehabilitation, that the outcome is 
significantly different.
    So, it has to be a collaborative effort to make sure that 
the incentive is there for--whether it is our active duty or 
whether it is our veterans--to enter into that rehabilitation. 
I think, clearly, the Department of Veterans Affairs has made 
great strides to make sure the infrastructure is, in fact, 
there. I am not sure that I hold Secretary Mansfield in the 
greatest of confidence in rural America, but I understand that 
we have challenges in recruitment.
    But, you raise a very important point. We are bringing on 
board so many mental health professionals that this potentially 
will cause a strain on the private sector side, because the VA 
has recognized the possible surge and has begun to prepare for 
it.
    So, I encourage both the VA and the Department of Defense, 
the more transparent these trends can be, we should be open and 
share that with the American people. War has consequences and 
the faster we can recognize the challenges you are up against, 
the faster the American people understand the challenges that 
our servicemembers are faced with, the faster we can make the 
changes collectively that you might need to accomplish that 
mission, the faster we get the active duty or the veterans in 
some type of treatment process. The difference is in the 
outcome, and I hope you will work with us aggressively to make 
sure that those outcomes are as optimal as we can make them.
    I thank both of you, and Secretary Mansfield, if you would 
like to comment on the pilot, though we are just 6 months into 
it, I am happy to hear it.
    Mr. Mansfield. Yes, sir, I do have some numbers for the 
Disability Evaluation System pilot. The total number currently 
in the process are 306, 94 from the Army, 56 from the Navy, 91 
from the Air Force, and 65 Marines. Twenty-one of these have 
been rated. In other words, they have been identified, their 
information has been processed, they have been brought in for 
the exam, and then the information has been forwarded to a 
rating panel. Twenty-one have been rated: 19 rated 30 percent 
or higher; one was rated at 10 percent; and one, interestingly 
enough, a disability existed prior to service is the finding. I 
am still asking for additional information on that one. Two are 
pending permanent retirement. Three of those have been found 
fit for duty and we continue to move forward and the numbers 
continue to increase as we ramp up and move forward.
    Senator Burr. And Gordon, as I understand it, in the pilot 
program, we are rating based upon DOD's current structure and 
VA's current structure, correct?
    Mr. Mansfield. Well, there is one physical exam. DOD makes 
the decision--fit or unfit for service--based on whatever that 
unfitting condition may be and only that. Then it moves to the 
VA, and this has been traditionally the way the system works.
    Senator Burr. But in the pilot program, you are still 
rating two different ways?
    Mr. Mansfield. No.
    Senator Burr. No? You are just doing one?
    Mr. Mansfield. We are rating one way. The process is such 
that for DOD, the number of issues are limited to what makes 
the person fit or not fit for active duty.
    Senator Burr. So you are doing one exam----
    Mr. Mansfield. So that is----
    Senator Burr [continuing]. De facto, you are creating two 
separate decisions, one within a very tight box for DOD, 
correct?
    Mr. Mansfield. Right. And then it moves on. In other words, 
DOD looks at a part of it, potentially at a part of the person, 
and then VA looks at the total medical----
    Senator Burr. And----
    Mr. Mansfield. That is no change from what is existing now.
    Senator Burr. I understand. My time is up, but I think that 
the ability to sort out, after five decades, the disability 
malaise that we have created is absolutely essential to our 
country's veterans and, I think, for active duty forces, as 
well, and understanding.
    Mr. England. Senator, again, I will go back to Dole-
Shalala. I mean, Dole-Shalala does provide some recommendations 
here as to how to do that in terms of how to deal with 
disability. No more 30 percent to deal with, basically, based 
on a retirement program. So I think there is still merit to 
look at Dole-Shalala in terms of how we may help clarify some 
of this. I think it would be much easier for our veterans in 
terms of this clarification, particularly one physical and then 
just that determination.
    So again, I will go back to Dole-Shalala. I do believe of 
all the discussions last year, that was very helpful as we went 
through all the Dole-Shalala implications in terms of easing 
this for the men and women who serve; and that is really, I 
think, at the end of the day, the criteria--how do we simplify 
this system. This whole system is very complex and 
bureaucratic, and to the extent we can simplify it, I mean, 
that would be helpful for us.
    Senator Burr. It is my hope that we can help you do that.
    Mr. England. OK.
    Senator Burr. I thank you.
    Mr. England. Thank you.
    Chairman Akaka. Thank you, Senator Burr.
    Senator Murray?
    Senator Murray. Thank you, Mr. Chairman.
    Secretary Mansfield, I have to say, I am pretty frustrated 
today. I mean, this Committee has had to drag the VA every 
single day for five-and-a-half years since the War in Iraq 
started to give us accurate information so that we can provide 
the services that our men and women who served us overseas get. 
You know as well as I do that this Committee--in fact, the 
entire Senate--was extremely frustrated when several years ago 
Secretary Nicholson gave us inaccurate information about how 
long the backlogs were and how short the VA was in funding.
    As a result of that, we did come back. Because we finally 
got accurate information, because we yelled and screamed, and 
because we held you to it, we were able to provide the 
additional mental health money that you just referred to, in 
order to help our men and women, particularly with mental 
health. But, it would not have happened unless we had finally 
gotten the accurate information that the VA was denying.
    It is frustrating to us when we have to drag that 
information out of you. The Walter Reed scandal from a year ago 
didn't come because any agency came before us. It came because 
a press account showed it to us and America, and then we had to 
react.
    So, I have to tell you, I am very angry and upset that we 
find out this week that several internal VA emails that were 
made public--not because you wanted them to, but because of a 
lawsuit that was occurring--showed that the VA downplayed 
vastly the number of suicides and suicide attempts by veterans 
in the last several years. Just a few months ago, in November, 
the VA was confronted with an analysis that said there were 
6,250 veterans who had committed suicide in 2005, an average of 
17 a day. VA officials said that number was inaccurate. It was 
much lower.
    But these emails that were uncovered this week show that 
Dr. Katz, who is the VA's top mental health official, not only 
backed up those alleged numbers, but he acknowledged that the 
numbers were much higher than that. So, what they were telling 
us in November and December was that the number was lower, but 
inside the VA, everyone knew it was higher, and there are 
emails saying that and showing that to us.
    And in addition to that, not only were the numbers of 
actual suicides inaccurate, but the emails show that VA 
officials also knew and didn't tell us that there were 1,000 
veterans who received care in VA medical facilities attempting 
suicide each month. Now, to me, that is a pretty astounding 
fact. It is an alarm bell that all of us need to be paying 
attention to.
    I acknowledge that we are now trying to get more mental 
health officials into the field. The Army, in particular, I 
have talked to them, worked with them, I know they are working 
on it. I know the challenges of the health care professions 
that you talk to.
    But, the fact is that how do we trust what you are saying 
when every time we turn around, we find that what you are 
saying publicly is different than what you know privately. This 
Committee, this Congress, all of us can only act on knowledge 
that is accurate. It is not about a public relations war. It is 
about making sure we have got the right information.
    So, Secretary Mansfield, can you tell me how we can trust 
what you are saying to us today?
    Mr. Mansfield. Senator Murray, I share your concerns and I 
apologize for the fact that I have to apologize again. The last 
time I was before this Committee, I think I pointed out to you 
that if you have any specific information about a person or 
persons that are providing false information or not providing 
information that has been requested, to please contact me and 
that I would do everything I can to ensure that you get the 
information.
    Senator Murray. Well----
    Mr. Mansfield. I would tell you that I agree with Senator 
Burr. We should have complete transparency. Other than 
individuals' private medical information and perhaps some other 
information, there isn't a lot that the VA should be keeping 
secret that shouldn't be presented to this Committee----
    Senator Murray. So how do you explain this?
    Mr. Mansfield. I am not--well, I have seen one report on 
one set of emails. I haven't seen the total package and I am 
not sure that I would characterize it as attempting to keep 
information away from this Congress or away from----
    Senator Murray. Secretary Mansfield, let me quote to you an 
email from Dr. Katz. First line, top line, ``Shh!'' S-h-h-
exclamation point. ``Our suicide prevention coordinators are 
identifying about 1,000 suicide attempts per month among the 
veterans we see in our medical facilities. Is this something we 
should carefully address ourselves in some sort of release 
before someone stumbles on it?''
    The first sentence, ``Shh,'' how do we have accurate 
information if inside the VA the whole culture is, ``we had 
better not tell anybody?''
    Mr. Mansfield. I know Dr. Katz and I know that he is 
dedicated to attempting to take care of veterans and that has 
been his professional career. I think it is unfortunate, and I 
agree with you the characterization of the way that email was 
written does not bode well and sends the wrong message. But I 
think what I would read in there is how do we get this 
information out? What is the platform, what is the method?
    I have not talked to him directly about this specific 
email, but I do understand, as I said, your concerns and would 
commit to you that I would do everything, everything that I can 
to make sure that you do get the information that you request, 
the information that you need, the information that is required 
for us to continue an effective partnership that has allowed us 
to move forward, as you indicated, with additional funds, as I 
indicated, with more people doing the job that needs to be 
done.
    Senator Murray. Well, I have two concerns. One is that we 
have to know what the facts are. We have to know that the VA is 
sharing with us what the facts are. We have to be confident 
that what you are telling us allows us to do our jobs.
    And second, and importantly, we need to be dealing with 
this issue. The RAND report that I talked about a few minutes 
ago said that 20 percent of our military servicemembers who 
have returned from Iraq and Afghanistan, more than 300,000, 
have reported symptoms of PTSD or major depression. Of those 
300,000, only half have sought treatment, and of the half that 
sought treatment, only half of those are receiving, quote, 
``minimally adequate care.''
    So, Mr. Secretary, if we don't have accurate information or 
we can't trust the information from you, we can't deal with 
this. But second, and just as critically, we are not dealing 
with a critically important issue and that is the mental health 
care, the invisible wounds of war of the men and women who are 
coming home. The suicide rate is a red alarm bell to all of us 
that there is a problem out there. If that red alarm bell is 
being hidden inside the VA so that we are underestimating it, 
so we don't know about it, we in this country can't take care 
of a critical problem.
    Mr. Secretary, I worked on a psychiatric ward during the 
Vietnam War. I know what happens to our soldiers and I know 
that if we, as a country, deny that something is happening to 
them, they are walking time bombs for decades. We have a 
responsibility when we send our men and women to war--when they 
come home to make sure we treat them and we treat them well, 
and we give them the respect and the dignity and the help and 
support that they need.
    If we are not getting accurate numbers from you, if those 
numbers are being downplayed, if the attitude inside the VA is 
``Shh,'' then we are doing a disservice to the men and women we 
have asked to serve us. So, I am really upset about this and I 
hope that every conversation inside the VA is upset about this. 
And I hope what Senator Burr said about us having transparency 
has gotten through to the VA finally. We are not your enemy. We 
are your support team. And unless we get the accurate 
information, we can't be there to do our jobs. That is why I am 
upset.
    Mr. Mansfield. Senator, let me again say that I apologize 
for the implications here. I apologize if there has been an 
effort. I do not believe there has been an effort to not 
provide the accurate information. I know that the VA has been 
concerned for a number of years about this mental health 
problem and started ramping up on this issue----
    Senator Murray. Then why----
    Mr. Mansfield [continuing]. Three years ago----
    Senator Murray. Do you disagree with the RAND report?
    Mr. Mansfield. Again, I have to make the point that we have 
applied the resources that this Congress gave us to deal in 
this issue----
    Senator Murray. Not----
    Mr. Mansfield [continuing]. To the extent that----
    Senator Murray. Not requested by the administration, 
because they didn't have accurate numbers. We had to dig and 
get our own information to do that.
    Mr. Mansfield. I did indicate the amount of money provided 
by the Congress----
    Senator Murray. Thank you.
    Mr. Mansfield [continuing]. And again, that is a 
partnership and I do thank you for the efforts that you and 
this Committee and other folks on the Hill have put forward to 
ensure that we are able to get the job done. And as mentioned 
here, we are applying significant resources in an effort to get 
that done.
    And as indicated here, this article, which I will share 
with you, talks about the fact that as the VA woos behavioral 
health providers, the private sector is feeling the pinch. I 
mean, we are out there doing what we can. We have hired 3,100 
more----
    Senator Murray. Well, I hope you take the message back to 
the VA that we want accurate information, but I also want----
    Mr. Mansfield. Madam, I do know, and as I indicated in our 
previous discussions, unfortunately, I have to admit, that you 
do want information. I have made that commitment and I will 
continue that commitment to be sure that you can get what you 
want.
    Senator Murray. OK, and let me also ask you, the RAND 
estimates that PTSD and depression will cost as much as $6.2 
billion in the 2 years following deployment, but believe that 
investing in high-quality treatment could save us close to $2 
billion. Mr. Secretary, either one of you, do you agree or 
disagree with----
    Mr. Mansfield. There is no doubt that the sooner we 
identify these issues, that the sooner we get qualified 
practitioners dealing with them, the better off these 
individuals are going to be. I have to tell you that one of the 
things that bothers me the most is the applications we have 
right now. For example, for Vietnam veterans who are coming in 
35 or 40 years after the war and applying for PTSD benefits 
because----
    Senator Murray. That is what we don't want to see 35 years 
from now.
    Mr. Mansfield. Exactly. And that is the feeling in the VA, 
that we need to make sure that we do it different, that we do 
it better, that we catch these folks early, that we get them 
into treatment, that we make sure we take care of them. And 
that, I can tell you, is the Secretary's attitude, my attitude, 
Dr. Kussman's attitude. The VA medical corps out there, 
196,000-plus people, want to make sure we take care of these 
individuals. That is our job. That is our requirement. That is 
our commitment.
    Senator Murray. I am out of time, Mr. Chairman. Thank you.
    Chairman Akaka. Thank you, Senator Murray.
    Senator Isakson?
    Senator Isakson. Thank you, Mr. Chairman.
    Secretary Mansfield, I want to commend you on the increased 
employment of mental health individuals and the attention to 
mental health. I want to echo what Senator Murray has said. We 
had a problem in Georgia a couple of years ago with a wing at 
Robins with a spike in suicide. One of the real issues in 
mental health to begin with is the reticence of those who are 
suffering to come forward themselves. The more transparent VA 
is on both what is available as well as issues we may have, 
including suicide rate, the more openness that comes there, I 
think the more openness that comes from those individuals who 
are hurting. So, I commend the remarks of Senator Murray. I 
think it is something for us to pay close attention to.
    And I will transition now to the Fort Stewart situation. I 
think in your conclusion, you referred to one of the four 
fundamental changes you have made as identified new approaches 
to support outpatients and the Warrior Transition Units as a 
focus. What I saw was the Warrior Transition Unit at Fort 
Stewart, and what I saw at that unit was something I have never 
seen in the military from the standpoint of the decor of the 
facility in which they live, the available resources, I mean, 
flat-screen TVs and mood music and coordinated colors, and the 
openness with which these--in this case, it was all women--were 
coming forward, talking about their problems. Is that the new 
fundamental change that you have made in terms of the Warrior 
Transition Units?
    Mr. England. Pardon me, Senator. We have the Warrior 
Transition Units. We actually have, I believe the Army now has 
2,400 people as its warrior transition, working in that area. 
And I think it is important to clarify here a little bit 
because of the care coordinators that we were hiring.
    We have now in the military and all the services, we have 
basically Warrior Transition Units. We have people who take 
care of people, and so we have squad leaders on each of these 
squads of military and now they take care of people. So, we 
have added a lot of people. I think the Army has just done an 
excellent job. The Marines have done an excellent job--and you 
are a Marine for life--so they literally follow people into 
communities and care for them.
    When we put the Federal Care Coordinator in place, which 
you are right, we only have ten of them today, but they were 
never intended to be the person who was actually working with 
every individual person. They were to make sure that we 
literally had all the right processes in place, the right 
knowledge, and they would be the last resort for people. You 
could always go to that person if you could not get something 
resolved.
    We are not trying to duplicate all the processes we have in 
place today, but we are making sure, at a senior oversight 
level, that we do have people working the unit and there is 
always someone that they have that they can go to. 
Specifically, we brought in VA people to do this because we 
wanted to be able to bridge between DOD and VA. So, we wanted 
people in the VA system who would be with us at DOD, go into 
VA, and literally be available lifetime in terms of a person 
they could always go to.
    Our expectation is that not everybody goes to that person 
because we literally now have deployed teams to help every 
single person, as you commented on, Senator. So we keep 
expanding this because we know this is important. It is 
important not just for physical wounds but also mentally. I 
mean, this is very important, so we will continue to deploy. I 
think the Army has come a huge way in the last year in terms of 
putting these systems in place.
    As I said before, though, there is no finish line and we 
will continue to work this, but it is trying to fit together 
these different levels of care for our people. That is where we 
are today. It seems to be working at this point. Still, we will 
continue to work it because it is important for our people, 
Senator.
    Senator Isakson. Well, the implementation at Fort Stewart 
is pretty remarkable and it is a dramatic improvement. I 
commend you on what you have done there.
    Secretary Mansfield, a last question before my time runs 
out, or a comment, on the seamless transition vis-a-vis 
assessment at DOD and transitioning to out of active duty and 
to VA. I had a field hearing at the Uptown Augusta Medical 
Center last August and at Eisenhower Medical Center at Fort 
Gordon, also in Augusta, and just a comment. I ran into a 
Sergeant Harris in the hospital--the VA hospital. She had been 
deployed in Iraq and on her second day there was in an IED 
incident and has suffered from Traumatic Brain Injury. She went 
to DOD for assessment, and I presume this was the fit/unfit 
part of the assessment, and was determined to be severed from 
the service and was transitioned from Fort Gordon, the hospital 
at Eisenhower, to the VA hospital in what was, I think, the 
VA's first seamless transition coordination, if I remember what 
they did there.
    Just to comment about how good that works when you don't 
have a hole to fall into and that seamless transition makes a 
difference. Sergeant Harris went into the VA facility. In 6 
months, she was corrected. Her Traumatic Brain Injury was cured 
and she reenlisted and went back in the military. And I think 
that is a testimony, first, to the identification, at least in 
terms of Fort Gordon when she was on active duty, of the TBI, 
and then the immediate transition over to the VA hospital that 
got her the care that allowed that injury to be corrected.
    So, the more you can coordinate closely between the warrior 
leaving the service and going to VA, the more seamless that 
hand-off is and the better that diagnosis is, not only do you 
have less problems, but you have quicker solutions, and in many 
cases, corrections of some of these mental health difficulties 
or Traumatic Brain Injury or PTSD. So, I just wanted to make 
that comment. That is one place where the seamless transition 
was implemented and it has really made a significant difference 
in the lives of soldiers.
    I yield back, Mr. Chairman.
    Chairman Akaka. Thank you, Senator Isakson.
    Senator Tester?
    Senator Tester. Yes, thank you, Mr. Chairman. I want to 
thank the panel for their testimony. I also want to thank 
Senator Murray for bringing up something that quite honestly 
troubles me greatly, too. It occurred to me as Senator Murray 
was asking her questions, this isn't really a complex issue or 
a difficult issue. It is really the easiest issue that you have 
to fix, and that is just give us good information, truthful 
information. It takes far less energy.
    I hope it is not systematic, but I will tell you there are 
other agencies within this administration where I see this 
occurring, where they are doing stuff and they are not telling 
me the whole story when I ask them. They pick parts that sound 
good. In the end, it bites you every time.
    So, I would just concur with Senator Murray and I would 
concur with Ranking Member Burr's thoughts on transparency. We 
can talk about transparency, but the proof in the pudding is 
really to make it happen, and it is not that difficult.
    I will start out addressing Secretary Mansfield. There have 
been articles written--there is a recent one in the AP--about 
veteran suicides among Guard and Reserves being higher than 
active military. Do you have any idea on why this is?
    Mr. Mansfield. No, sir. I am sorry. Again, I am not the 
expert in this area. What I would commit to you again is I will 
go back, talk to the experts, and provide you whatever 
information we do have.
    Senator Tester. That would----
    Mr. Mansfield. I would imagine--again, this is my own 
supposition--if you come back, if you were with an active duty 
unit, you come back and return from the combat zone, you remain 
together. You have the reinforcement of that unit that has been 
through similar activities, whereas if you come back with 
National Guard and Reserve, you come home and then you deploy 
and you are kind of like all alone. You don't have the support 
group that you essentially had.
    The other point I would make is that as far as the VA 
outreach goes, our Vet Centers are set up to deal with 
individuals, and again, we have added more outreach people 
there to go out into the field and try and find folks. But 
again it is a question, if you have got an active duty unit, 
they are easier to approach. You know where they are. Whereas 
with the National Guard, the only opportunity you have is when 
they have their monthly drill or when you can attempt to find 
them otherwise.
    Senator Tester. Right.
    Mr. Mansfield. So, that would be a supposition, but I can't 
tell you that there is an expert background to that.
    Senator Tester. We see that similarly. When you ask your 
folks why this is, also ask them what they are going to do to 
address it, because I think it is an issue.
    I want to talk about transferring medical records just for 
a brief second, and I have got a few questions here, so if you 
can be as concise as possible, it would be great. Senator 
Wicker talked about it a little bit, but where are we as far as 
medical records from DOD getting to VA in a timely manner, 
containing all the information they need?
    Dr. Chu. Let me address that, if I may, Senator. We are 
near the goal line, which is to be able to send back and forth 
electrically medical information from the two institutions. It 
is built on several years of effort, as has been noted. I would 
be glad to furnish you separately a diagram that shows 
everything that can now be transferred, but by September 30 of 
this year, we anticipate being able to send back and forth any 
electronic record that either Department possesses as far as 
medical data are concerned.
    Senator Tester. How about discharge information?
    Dr. Chu. The discharge summaries are now viewable between 
the two institutions on an electronic basis.
    Senator Tester. OK. Let me back up just a little bit, just 
so I get it. The date that this is going to be finalized, you 
said was----
    Dr. Chu. Thirty September this year. That is our goal. We 
are on track to meet that goal. We have a few areas yet to make 
viewable in this sense, but otherwise, most of the material is 
there. Some of it has been there for some years.
    I should also emphasize we have transferred several million 
medical records electronically for those who have left service 
to VA.
    Senator Tester. Is the VA or the DOD or both, you guys, 
looking at this being a starting point for automatic 
enrollment? Once you can transfer medical records and people 
know the information, you know what the problems are, it would 
seem to me that automatic enrollment would be a natural next 
step, or is that part of the conversation?
    Dr. Chu. Well, if they are--I am not quite sure what you 
intend by automatic enrollment. If they are on active duty, 
they are automatically enrolled in our medical system.
    Senator Tester. Guardsmen?
    Dr. Chu. Including Guardsmen.
    Senator Tester. OK.
    Dr. Chu. Part of the process of bringing active duty is to 
put them in the medical system.
    Senator Tester. Right. OK. All right. That is fine. Benefit 
claims--at this point in time, Guard and Reserve soldiers are 
more likely to have their benefit claims denied than, as I said 
in my opening statement, than the active duty folks. The 
question I have--and any of you can answer it--is, what is 
being done about this?
    I can tell you that in a State like Montana, if you happen 
to be a Guardsman or a Reservist, you live in a place like 
Miles City, Montana, it is a 345-mile drive because the only 
comp doctors are in Helena, one way. And so that may be a part 
of it, but just curiously, is this an issue within your 
organizations, within this committee, and is it being 
addressed?
    Mr. Mansfield. Senator, let me make the point that it will 
be addressed starting when I return back to the office. I am 
not aware of what the difference is or the reasons for that----
    Senator Tester. OK.
    Mr. Mansfield [continuing]. But I would commit to you 
again, I will give you whatever information we have. And if 
there is something we need to do to fix that, then we will move 
forward to fix it.
    Senator Tester. That would be great.
    Mr. Mansfield. Pat Dunne is our Acting Under Secretary for 
Benefits and he will be working on that from now forward.
    Senator Tester. OK. There are some opportunities, I think, 
and if you guys are aware of it and you are working on it, that 
will be good. With that----
    Mr. Mansfield. Let me just make the point, though, sir, in 
that area that having traveled around the country. I visited a 
number of regional offices, visited a number of Vet Centers and 
other areas. We do have a group of folks out there in our 
veterans benefits arena that are working actively on outreach 
to go find Guard and Reserve folks. We know when the units 
return. We have plans and people who work evenings and weekends 
and attend drills in an effort to try and get these folks in 
and get them taken care of. Now, the question of the 
deniability is another area, but we are working in specific 
areas on the Guard and Reserve issues.
    Senator Tester. That is outstanding and I commend those 
efforts. I think that the September 30 date for you folks being 
able to talk through medical records back and forth will help 
you track those folks much more easily upon their discharge, or 
upon their return back here when they are still remaining in 
the Guard and Reserves.
    With that, thank you very much. I do want to thank you 
folks for being here. I think that we still have a lot of work 
to do. I think we are making our efforts to move forward. But I 
will revert back, and Senator Murray, I wasn't aware of the 
points that you brought up with the emails. It is very 
distressing and it needs to be fixed.
    Thank you, Mr. Chairman.
    Mr. England. Senator, if I could just offer one thing, we 
do have detailed schedules on what is currently electronically 
transferrable, what will occur on September 30, all the data, 
and then also the plan leading to next year in terms of 
interoperability. So, we do have all that data available in 
terms of every specific kind of record that you can transfer 
today and what you will be able to do by September of this 
year, and that is all available. We are pleased, if you are 
interested, someone can come talk to you about that. So, to 
whatever extent your interest is, we can follow up with you and 
would be pleased to do so.
    Senator Tester. Well, I appreciate that offer and if we can 
get some time, we will take you up on that, and we will make 
the time to do that. But, I think when you talk about seamless 
transition, this is a foundation element that has to happen or 
seamless transition will never happen without this. So, I 
appreciate your work.
    Mr. Mansfield. Sir, we also, I would make the point, have 
set up the interagency office and appointed a director and 
deputy director to take this whole issue under their auspices. 
This is required by NDAA. Jointly, we have signed a memorandum 
and we have got these folks working on that.
    Senator Tester. Thank you.
    Chairman Akaka. Thank you, Senator Tester.
    Senator Wicker?
    Senator Wicker. Thank you, Mr. Chairman.
    Just to immediately follow up, Secretary Mansfield, this 
group that you have set up, you are speaking about a group that 
is going to deal with the specific issue of a seamless, common, 
mutually accessible medical record? And who is going to be head 
of that group?
    Mr. Mansfield. Senator Wicker, the National Defense 
Authorization Act, Section 1635, established a DOD-Department 
of VA Interagency Program Office with requirements for them to 
move forward with timelines, et cetera. So, we have now moved 
to the point where we have got that office being set up and 
individuals dedicated--Ms. Lois Kellett as the Program Office 
Director and Mr. Cliff Freeman is the Acting Deputy Director. 
That is the person from the VA.
    Senator Wicker. OK.
    Mr. Mansfield. So, both Departments are recognized in the 
establishment and leadership of this office.
    Senator Wicker. All right. So, Dr. Chu, when you responded 
to Senator Tester that we were near the goal line, that is 
really just an interim goal line, would that be fair to say?
    Dr. Chu. No, sir. It is a goal we have had for some time, 
as you observe, to make it possible to exchange on an 
electronic basis everything each agency has electronically 
regarding health. We are going to get there so we can see what 
VA has about a patient and VA can see what we have by 30 
September. Most of that is already done.
    The Integrated Program Office is about, OK, what does the 
future look like and what investments should----
    Senator Wicker. I really----
    Dr. Chu [continuing]. And beyond that----
    Senator Wicker. That is certainly my goal, which is a much 
more complicated and long-term goal than you will be able to 
achieve by September 30, which is sending records back and 
forth. I don't view that as an ultimate solution. But let me 
ask the Secretary----
    Dr. Chu. Nor do we, sir. I don't think we have a quarrel on 
that.
    Senator Wicker. So we are----
    Dr. Chu. But it is a very important achievement and would 
make it possible for the clinician to look at the data. That is 
really where I think we need to be immediately. And Senator 
Tester asked about something that has been of great importance 
to the clinicians and that is the discharge summaries, which 
are now viewable electronically by clinicians on both sides of 
this agency scene.
    Senator Wicker. OK. Well, congratulations on that. But let 
me ask Secretary Mansfield and Secretary England this. I went 
ahead and discussed my frustration at length in my opening 
statement. The Departments were directed by the Congress to 
report back with a detailed master plan on actions being taken 
to achieve an interoperable Electronic Medical Record by a date 
certain, March 3 on the part of the Defense appropriations 
bill, and then Mil Con-VA, April 1. Either one of those dates 
would have been fine.
    But do you view it as acceptable that we have not received 
such a report and that when a Senator and--I take no personal 
affront in this--but when a Senator and his staff contacts the 
Department, we are told that a temporary report should be 
forthcoming, explaining why the Departments are late on these 
two requests, and we haven't even received that. So, I will let 
you comment on that. I don't want to fight and fuss, but it 
does seem to me that the Departments should be responding to 
the directives of the Congress.
    Dr. Chu. We agree, sir.
    Senator Wicker. I actually was directing my question----
    Dr. Chu. I am sorry.
    Senator Wicker [continuing]. To Secretary England and 
Secretary Mansfield.
    Mr. England. Sir, this is the responsibility of Dr. Chu, 
these reports.
    Senator Wicker. I understand.
    Mr. England. He has it in his responsibility. And we do 
take it seriously and we are working and I believe you are a 
day or so away from getting that report, Senator. So it is very 
close. David, we are very close on that report?
    Dr. Chu. Let me recheck. I thought we had sent one of the 
transmissions that you cite, but let me recheck that point. We 
certainly----
    Senator Wicker. You have sent nothing.
    Dr. Chu. Let me check----
    Senator Wicker. Well, OK, Dr. Chu. How will this detailed 
report be submitted to the various committees and to the 
Congress?
    Dr. Chu. In the normal manner, sir. We transmit it over the 
signature of the appropriate official. That could be myself. It 
probably would be in this circumstance. I think, as you cited, 
the important date here is April 30, where you want a fuller 
report. But let me check on what happened to the interim 
reports. My recollection is we did comply with that, but I 
could be wrong on that point.
    Senator Wicker. Secretary Mansfield, I will let you comment 
on that. Do I have----
    Mr. Mansfield. Sir, I would state----
    Senator Wicker [continuing]. A right to be concerned----
    Mr. Mansfield. Yes, sir, I think you do----
    Senator Wicker [continuing]. That the date was not met----
    Mr. Mansfield. And I would make the point that I know 
Secretary England and Dr. Chu feel the same way I do, that we 
should make every attempt to comply with the requirements put 
on us. I do know that part of the concern here was the passage 
of this bill and the time it took between the first time the 
dates were identified and when we actually got it.
    The other part is this is a vastly complicated area with 
two separate systems, as you know, one in DOD and one in the 
VA. The effort to make them compatible and work together as an 
interoperable system is not a simple task and it has a lot of 
high-level IT people working very hard and long hours in an 
attempt to figure out how we can do that. As Dr. Chu indicated, 
we have come forward and are transmitting more and more 
information that will allow the clinicians to use that to do a 
better job at treating the patients. And that remains our goal. 
But we have to also deal with some of the realities involved 
here.
    Senator Wicker. Dr. Chu, will the report include timelines 
and an ultimate goal of actually reaching this interoperable 
seamless type of electronic record that can move back and forth 
between the systems?
    Dr. Chu. That is certainly our intent, sir.
    Senator Wicker. And this report that I am going to be 
allowed to see within a day or two is going to have those 
timelines?
    Dr. Chu. I believe the original statutory requirement was 
for that report by April 30. Let me look at what happened to 
the interim products. I apologize if we did not deliver them on 
time. It was certainly our intent to deliver these things on 
time. So, I will check what happened to those transmissions. 
But the final report, yes, sir, does need to address the 
various statutory directions.
    Mr. England. Senator, if I could also add, though, let me 
also make the offer I just made to the Senator, because I think 
there is maybe not a full understanding of what we are doing 
today and what we are doing by September 30. You know, a lot of 
medical data is already being exchanged. There will be a lot 
more come September in terms of medical records.
    Then the question is, for interoperable, what is it that 
the doctors may need in addition to what they can act on, and 
so that requires literally some consultation and discussion in 
terms of what sort of data would be available that doctors may 
want in addition to what is being made; and also how are those 
records then modified? Who has the right to do that and what is 
the process to do that, because obviously doctors are on each 
side, so what are those kind of procedures?
    But it may be useful, frankly, for us to spend some time 
with you and discuss this in terms of where we are and maybe 
perhaps what your vision is as this goes forward; because I 
think for us, come September 30, we will have a lot of these 
processes in place, a lot of this data being exchanged, and 
then the question will be, beyond that, what is it that the 
clinical people themselves need to do in addition to just 
receiving data between our organizations. So, to whatever 
extent you can perhaps further describe that, that would be 
helpful to us.
    Senator Wicker. I am way beyond the time. I appreciate that 
offer and I would simply say that staff to staff, we have been 
actively engaged with both of your Departments in this respect 
and we have been having a continuous conversation on this area, 
which I view as very important to the servicemembers and the 
veterans, since we became engaged in it last year. I appreciate 
your invitation and I thank the Chair for indulging me on the 
time.
    Chairman Akaka. Thank you very much, Senator.
    I do have additional questions and I will submit those for 
inclusion in the record. But, I must tell you with much 
gratitude, thank you so much for being here today and thank you 
so much for your testimony and your responses. I also want to 
commend you for trying to bring the seamless transition about. 
It will take time, but you have certainly set a foundation for 
that and I am really proud of you and what you are doing and 
look forward to improving the system with time.
    So, I want to thank all of you for coming this morning. 
Thank you.
    Mr. England. Senator, thank you, and we do look forward to 
working with you and we thank you for having the hearing. It is 
very helpful to us, also, Senator. So thank you very much, sir.
    Chairman Akaka. Thank you, Secretary England.
    Mr. Mansfield. Thank you, Mr. Chairman.
    Chairman Akaka. Thank you, Secretary Mansfield.
    I want to thank the second panel for being here and tell 
you that I appreciate each of you being here today.
    First, I welcome Adrian Atizado, Assistant National 
Legislative Director for the Disabled American Veterans. He is 
here today as a representative of members of the Independent 
Budget.
    Next, I welcome Todd Bowers, Director of Government Affairs 
for Iraq and Afghanistan Veterans of America.
    And finally, I welcome Commander Rene Campos, Deputy 
Director of Government Relations for the Military Officers 
Association of America.
    I thank all of you for joining us today. Your full 
statements will appear in the record of the Committee. Mr. 
Atizado, let us begin with you.

STATEMENT OF ADRIAN M. ATIZADO, ASSISTANT NATIONAL LEGISLATIVE 
DIRECTOR, DISABLED AMERICAN VETERANS, ON BEHALF OF THE AUTHORS 
                      OF THE INDEPENDENT 
                             BUDGET

    Mr. Atizado. Mr. Chairman, Members of the Committee, on 
behalf of the Independent Budget Veterans Service 
Organizations, composed of AMVETS, Veterans of Foreign War, 
Paralyzed Veterans of America, the Disabled American Veterans 
is pleased to present our views relating to the work of the 
joint Department of Defense and Veterans Affairs Oversight 
Committee, or the SOC.
    The SOC was established subsequent to February 2007 
Washington Post articles raising concerns regarding the care of 
injured servicemembers at Walter Reed Army Medical Center. 
While considering a number of external reviews and reports as 
mentioned by the previous panel, as well as pertinent 
provisions in the National Defense Authorization Act, the SOC 
was to identify immediate corrective actions, implement 
recommendations, and track them.
    As the sunset of the SOC approaches, we do note progress 
made by VA and DOD in four common areas of concern to the 
Independent Budget Veterans Service Organizations. The four 
areas are: the Disability Evaluation System, mental health and 
Traumatic Brain Injury, care management, and data sharing. And 
while the IBVSOs applaud the hard work and goals achieved thus 
far, much concern and questions remain that needs to be dealt 
with. Most of it is outlined in my written testimony. I will 
only highlight a few.
    Staffing problems with the Disability Evaluation System 
persist, where board liaison, legal staff, and board physicians 
are not being filled and the quality support is not where it 
should be. Meeting staffing goals of the Army's Warrior 
Transition Unit also have not been met despite recent 
significant increases. In particular, staffing targets for the 
Triad, the nurse case manager, the squad leader, and primary 
care providers who are the backbone of these units, remain 
unfulfilled.
    The IBVSOs are encouraged that the current number of six 
VA-employed Federal Recovery Coordinators--two, by the way, are 
higher positions, they are directors and a supervisor, 
therefore not really involved with the actual work of Federal 
Recovery Coordinators--will be expanded to ten this May. We are 
encouraged by that. However, for as much emphasis as was placed 
on the need for a single recovery coordinator before this 
Committee, we are deeply concerned that the small size of this 
program and the number of injured servicemembers currently 
being served is so--67 clearly does not reflect the need that 
this Committee and our organizations believe is out there.
    The SOC focus on mental health and Traumatic Brain Injury 
has been on building capacity and improving services. The DOD 
Center of Excellence for Psychological Health and Traumatic 
Brain Injury was established to address needed research, 
education, and training. As this Committee is aware, there is a 
great concern over the evidence base of servicemembers and 
veterans suffering from mild to moderate forms of TBI. The 
IBVSOs are concerned that this Center of Excellence may be 
remiss in focusing more on mental health rather than the 
equally deserving Traumatic Brain Injury and untreated visual-
related problems. Any delay of these conditions can hinder 
successful rehabilitation of severely injured veterans and 
servicemembers.
    On the line of action for data sharing, the IBVSOs applaud 
the SOC's approval of initiatives to ensure health 
administrative data are made available and are viewable by both 
agencies, although much work remains for the two-way electronic 
exchange to share not just viewable, Mr. Chairman, but 
computable health information between both agencies. VA health 
care providers are not just clinicians, they are clinician 
researchers and viewable information is not conducive to that.
    Clearly, the accomplishments outlined in these four areas 
are a good first step. However, the future of the SOC's work 
remains uncertain and we urge this Committee to do what it can 
to regain the confidence of our fighting men and women and 
assure the citizens of this Nation that our government is 
indeed carrying out its moral obligation.
    The IBVSOs recommend a permanent office be established and 
staffed with full-time employees from both agencies well before 
the SOC closes its doors. Furthermore, unlike the current 
structure of the SOC, we believe VA should take the lead for 
several reasons, chief of which is that injured servicemembers 
and their family will come to VA, many for a lifetime of care.
    Again, on behalf of the IBVSOs, Mr. Chairman, we thank this 
Committee for its unwavering diligence in conducting oversight 
on this important matter and in doing so on behalf of our 
Nation's disabled veterans and servicemembers. I would be happy 
to answer any questions you may have.
    [The prepared statement of Mr. Atizado follows:]
Prepared Statement of Adrian M. Atizado, Assistant National Legislative 
               Director of the Disabled American Veterans
    Mr. Chairman and Members of the Committee: On behalf of the four 
co-authors of The Independent Budget, AMVETS, the Veterans of Foreign 
Wars, and the Paralyzed Veterans of American, the Disabled American 
Veterans (DAV) is pleased to present our views relating to the work of 
the joint Department of Defense (DOD) and Department of Veterans 
Affairs (VA) Senior Oversight Committee.
    In February 2007, the Washington Post published a series of 
articles regarding deficiencies in the medical care services and 
housing at Walter Reed Army Medical Center (WRAMC), which raised 
concerns regarding the care of injured Operations Enduring and Iraqi 
Freedom (OEF/OIF) servicemembers. In March, the Army began development 
of the Medical Action Plan (AMAP) to address the continuum of care, the 
Army's disability evaluation system and coordination with the VA.
    By May 2007, the DOD established the Wounded, Ill, and Injured 
Senior Oversight Committee (SOC). Chartered and co-chaired by the 
Deputy Secretaries of VA and DOD, the SOC is to identify immediate 
corrective actions, and to review, implement and track recommendations 
from a number of external reviews. Reports to be considered include the 
DOD Inspector General Review of DOD/VA Interagency Care Transition,\1\ 
DOD Task Force on Mental Health,\2\ the Independent Review Group,\3\ 
the Veterans Disability Benefits Commission,\4\ the President's 
Interagency Task Force on Returning Global War on Terror Heroes,\5\ and 
Commission on Care for America's Returning Wounded Warriors.\6\ In 
addition, the SOC is to implement and track the Wounded Warrior and 
Veterans titles of the National Defense Authorization Act, Public Law 
110-181.
---------------------------------------------------------------------------
    \1\ Not yet reported.
    \2\ An achievable vision: Report of the Department of Defense Task 
Force on Mental Health. Department of Defense Task Force on Mental 
Health, June 2007.
    \3\ Rebuilding the Trust: Report on Rehabilitative Care and 
Administrative Processes at Walter Reed Army Medical Center and 
National Naval Medical Center, Independent Review Group, April 2007.
    \4\ Honoring the Call to Duty: Veterans' Disability Benefits in the 
21st Century, Veterans' Disability Benefits Commission, October 3, 
2007.
    \5\ Task Force Report to the President: Returning Global War on 
Terror Heroes, Interagency Task Force on Returning Global War on Terror 
Heroes, April 19, 2007.
    \6\ Serve, Support, Simplify: Report of the President's Commission 
on Care for America's Returning Wounded Warriors, President's 
Commission on Care for America's Returning Wounded Warriors, July 30, 
2007.
---------------------------------------------------------------------------
    Supporting the SOC decisionmaking process is an Overarching 
Integrated Product Team (OIPT), co-chaired by the Principal Deputy 
Under Secretary of Defense for Personnel and Readiness and the VA Under 
Secretary for Benefits and composed of senior officials from both 
agencies. The OIPT reports to the SOC and coordinates, integrates, and 
synchronizes work and makes recommendations regarding resource 
decisions. Working under a very short timeline, eight discrete Lines of 
Action (LOAs) \7\ were established. An owner \8\ for each LOA was 
assigned and tasked to outline planning and track milestones, identify 
needed resources, and develop legislative language to improvement a 
specific element of the overall treatment of injured servicemembers. A 
different LOA owner briefs the OIPT and SOC at each bi-weekly meeting.
---------------------------------------------------------------------------
    \7\ Disability System, TBI/PTSD, Case Management, DOD/VA Sharing, 
Facilities, Clean Sheet Review, Legislation and Public Affairs, 
Personnel Pay and Financial Support.
    \8\ Disability Advisory Council, TBI Working Group, Case Management 
Working Group, BEC/HEC Working Group, Installation Capability 
Committee, OIPT Co-chairs, Continuous Process Improvement Group.
---------------------------------------------------------------------------
    As the sunset for the SOC approaches, we note progress made by VA 
and DOD on the four common areas of concern for The Independent Budget 
veterans service organizations (IBVSOs) and identified by the 
aforementioned reports and studies: Disability Evaluation System,\9\ 
Mental Health (Post Traumatic Stress Disorder) and Traumatic Brain 
Injury,\10\ Care Management \11\ and Data Sharing.\12\
---------------------------------------------------------------------------
    \9\ William Carr, Deputy Under Secretary of Defense for Military 
Personnel Policy; Thomas Pamperin, VA Deputy Director for Compensation 
and Pension; William Feeley, VA Deputy Under Secretary for Health for 
Operations and Management
    \10\ Ellen Embrey, Deputy Assistant Secretary of Defense for Force 
Health Protection and Readiness; Barbara Sigford, National Program 
Director of Physical Medicine and Rehabilitation
    \11\ Lynda C. Davis, Deputy Assistant Secretary of the Navy for 
Military Personnel Policy; Kristin Day, Chief Consultant, Care 
Management and Social Work Service, Office of Patient Care Services
    \12\ Jones, Steve, Principal Deputy Assistant Secretary of Defense 
for Health Affairs, Department of Defense; Paul Tibbits, VA Deputy 
Chief Information Officer for Enterprise Development
---------------------------------------------------------------------------
                      disability evaluation system
    DOD and VA launched a disability evaluation pilot program in 
November 2007 at WRAMC, the National Naval Medical Center (NNMC), and 
Malcolm Grow Medical Center at Andrews Air Force Base, Maryland. Using 
performance measures, site assessment, case management and a phased 
expansion, the pilot project is to specifically improve timeliness, 
effectiveness, transparency, and resource utilization by integrating 
two separate disability evaluation processes, eliminating duplication, 
and improving case management practices.
    The pilot project uses a single physical examination conducted on 
VA standards by a VA physician in a defense facility. VA assigns 
percentage ratings on all identified disabilities which DOD will accept 
\13\ in determining disability benefits. DOD will make a decision on 
whether the servicemember will or will not remain on active duty. If 
the service component makes the decision that the servicemember cannot 
continue to serve, the package goes to VA, who in turn notify the 
service component of the rating for each condition listed.
---------------------------------------------------------------------------
    \13\ Defense, VA Team Proposes Disability Process Changes, Jim 
Garamone, American Forces Press Service, October 23, 2007. http://
www.defenselink.mil/news/newsarticle.aspx?id=47888.
---------------------------------------------------------------------------
    The defense disability system handles about 20,000 cases each year 
of various degrees of disability, and of those found unfit nearly 90 
percent leave with a severance payment. All others are judged 30 
percent or more disabled and are medically retired.\14\ According to 
the Army, the total number of servicemembers completing the medical 
evaluation board process increased about 19 percent from the end of 
2006 to the end of 2007. With an average caseload target established by 
the Army of 30 servicemembers per board liaison, the IBVSOs believe 
this has not been met due to shortages of board liaisons. Like the 
board liaison staffing shortage, legal staff \15\ as well as board 
physicians \16\ assigned to help injured servicemembers navigate the 
disability process are not sufficiently staffed. We also remain 
concerned with the number of injured servicemembers served by this 
pilot project compared to the number of actual injured servicemembers 
who would otherwise quality for participation.
---------------------------------------------------------------------------
    \14\ ib.
    \15\ Attorneys and paralegals assigned by the Office of the Judge 
Advocate to assist during the Physical Evaluation Board Process.
    \16\ The Army's established goal is 1 board physician per 300 
injured servicemembers.
---------------------------------------------------------------------------
    According to Government Accountability Office (GAO), DOD and VA 
have not finalized their criteria for expanding the pilot beyond the 
original sites. Current evaluation plans lack key elements, such as an 
approach for measuring the performance of the pilot--in terms of 
timeliness and accuracy of decisions--against the current process, 
which would help planners manage for a successful expansion.\17\ The 
IBVSOs can appreciate the need for satisfaction surveys being conducted 
on veterans and servicemembers who have gone through the system; 
however, ensuring due process, and reducing variability and timeliness 
to ensure decisions are consistent will greatly lend to fairness and 
confidence in the process.
---------------------------------------------------------------------------
    \17\ GAO-07-1256T.
---------------------------------------------------------------------------
                          case/care management
    Warrior Transition Units: The Army's new organizational structure 
for providing an integrated continuum of care for its returning 
servicemembers is called Warrior Transition Units. These units were 
designed as the center piece of the Army's Medical Action Plan. The 
warrior-transition program assigns each injured servicemember, or 
``Warriors in Transition,'' \18\ a ``Triad'' which consists of a nurse 
case manager to coordinate needed services and appointments, a squad 
leader to ensure compliance to treatment plan and a primary care 
provider who oversees the treatment plan. A typical Warrior Transition 
Unit company will have a commander, executive officer, first sergeant, 
six platoon sergeants and 18 squad leaders. The workload for a squad 
leader will be 12 patients as opposed to 50 in Medical Hold 
companies.\19\
---------------------------------------------------------------------------
    \18\ A Warrior in Transition is a medical hold-over, active-duty 
medical extension, medical hold, and any other active-duty Soldier who 
requires an MEB or has complex medical needs requiring six months or 
more of treatment or rehabilitation.
    \19\ Warrior Transition Units at Center of Army Medical Action 
Plan, Gary Sheftick and Franz Holzer, Oct 08, 2007.
---------------------------------------------------------------------------
    At the time of the announcement in June 2007, the Army Medical 
Command expected to staff Warrior Transition Units with 2,419 cadre by 
January 2008 (the target date for new units to become fully 
operationally). The staffing was projected to ultimately include 743 
active-component soldiers, 381 National Guard soldiers, 381 Army 
Reserve soldiers, and 914 Army civilians, to support an estimated 
population of 10,000 ``Warriors in Transition.'' As of this writing, 
the Army's organizational chart maps out the Warrior Transition Unit 
structure serving approximately 8,000 soldiers. More non-commissioned 
officers are still needed to staff units and mental health 
professionals are needed.\20\
---------------------------------------------------------------------------
    \20\ General: Army still facing Warrior Transition Unit challenges, 
John Vandiver, Stars and Stripes European edition, Monday, February 25, 
2008.
---------------------------------------------------------------------------
    According to GAO, as of September 2007, 17 of the 32 units had less 
than 50 percent of staff in place in one or more of these critical 
positions.\21\ In a subsequent report GAO notes, ``the Army has made 
considerable progress in staffing this structure, increasing the number 
of staff assigned to key positions by almost 75 percent. However, 
shortfalls continue to exist in some areas--11 of the 32 U.S. Warrior 
Transition Units had less than 90 percent of needed staff for one or 
more key positions.'' \22\ Moreover, the data generated on meeting the 
needs of servicemembers and families remain suspect.\23\ Greater 
oversight is needed to ensure benchmarks are clearly indentified and 
defined, and that progress is measured and reported.
---------------------------------------------------------------------------
    \21\ GAO-07-1256T
    \22\ GAO-08-514T
    \23\ Warrior Transition Program Satisfaction Survey was not 
intended to be a methodologically rigorous evaluation.
---------------------------------------------------------------------------
    Federal Recovery Coordination Program (FRCP): A Federal Recovery 
Coordinator Director, a Federal Recovery Coordinator Supervisor, and 
eight Federal Recovery Coordinators were hired, trained, and deployed 
in January 2008. Employed by VA, the Federal Recovery Coordinator (FRC) 
is intended to complement VA and DOD's existing case management 
approach. VA's care management program includes the OEF/OIF Program 
Manager, Transition Patient Advocates and OEF/OIF Nurse and Social 
Worker Case Managers, and other case and care managers (Women Veterans, 
Spinal Cord Injured, Visual Impairment Service Team, and Polytrauma 
Support Clinic Teams). DOD's military wounded warrior programs include 
the Wounded Warrior Transition Units of the Army Medical Action Plan, 
the Army Wounded Warrior (AW2) program, the Navy's Safe Harbor Program, 
the Marine Corps' Marine for Life Program and the Air Force Palace HART 
Program.
    According to our most recent data, for each of the 67 injured 
servicemembers who are currently enrolled in the FRCP, there are 6 
FRCs. The FRC is intended to be the ultimate resource to oversee the 
development and implementation of services. The FRC is responsible for 
each enrolled servicemember the Federal Individual Recovery Plan 
(FIRP), which provides an individualized, integrated, longitudinal, 
clinical/non-clinical service plan across the continuum of care for 
injured servicemembers, veterans and their families. Also, the FRC is 
to monitor and regularly modify the FIRP in conjunction with all Multi-
Disciplinary Teams to meet the requirements and needed services to 
ensure successful transition of servicemember and family.
    In addition to the recovery plan, the FRC will have at their 
disposal a National Resource Directory,\24\ Family Handbook, 
MyEBenefits, and access to Veterans Tracking Application to assist in 
their work to help injured servicemembers and their families. The 
IBVSOs are encouraged that the current number of six \25\ FRCs will be 
expanded to 10 \26\ this May; however, many questions remain such as 
the effectiveness of this program in meeting the need of severely 
injured servicemembers. For as much emphasis as was placed on the need 
for a single recovery coordinator, we are deeply concerned with small 
size and the number of injured servicemembers currently being served by 
this program. Another cause for concern is the enrollment into the FRCP 
\27\ and number of servicemembers who may be eligible for the program. 
The potential workload and expansion of this program should be 
accompanied by appropriate resources being allocated.
---------------------------------------------------------------------------
    \24\ In partnership with VA, DOD, and Department of Labor and based 
on the DisabilityInfor.gov web portal, the National Resource Directory 
is an inter-service/agency/governmental, public/private and non-profit 
resource for use by the FRC, the multiple MDTs, and the severely 
injured servicemembers, veterans and their families. The contents are 
to be managed by stakeholder/partner with the prototype for FRCs 
available in April, for MDTs in May, and a final public rollout in 
August.
    \25\ 8 FRCs were originally hired in January 2008, 3 FRCs at Walter 
Reed Army Medical Center; 2 FRCs at Brooke Army Medical Center; 3 FRCs 
at National Naval Medical Center.
    \26\ +1 FRC at Brooke Army Medical Center; 1 FRC at Naval Medical 
Center San Diego
    \27\ Servicemembers are to be reviewed by a DOD inter-disciplinary 
team within three working days after admission into the military 
treatment facility.
---------------------------------------------------------------------------
       post traumatic stress disorder and traumatic brain injury
    In November 2007, the DOD Center of Excellence (DCoE) for 
Psychological Health and Traumatic Brain Injury (TBI) was established 
\28\ to improve the care provided to servicemembers. The SOC has 
developed a policy for DOD and VA to establish a National Center of 
Excellence for Psychological Health and TBI at Bethesda that will 
include VA and the Department of Health and Human Services liaisons, as 
well as an external advisory panel organized under the Defense Health 
Board, to provide the best advisors across the country to the military 
health system. In addition, it will coordinate the efforts across 
agencies to facilitate coordination and collaboration for Post 
Traumatic Stress Disorder (PTSD) and TBI related services among the 
military compents and VA, promoting and informing best practice 
development, research, education and training.
---------------------------------------------------------------------------
    \28\ See also Public Law 110-181, the National Defense 
Authorization Act for Fiscal Year 2008, Subtitle B.
---------------------------------------------------------------------------
    We applaud DOD's program to collect baseline neurocognitive 
information before deployment to combat theaters. The Army already has 
incorporated neurocognitive assessments as a regular part of its 
Soldier Readiness Processing in select locations. Additionally, select 
Air Force units are assessed in Kuwait before going into Iraq. Such 
information could address the National Defense Authorization Act of 
2008 provision regarding creation of a TBI registry. However, we are 
concerned about the lack of evidence base regarding servicemembers and 
veterans suffering from mild to moderate forms of TBI. The emerging 
literature strongly suggests that even mildly injured TBI patients may 
have long-term mental and physical health consequences. According to 
DOD and VA mental health experts, mild TBI can produce behavioral 
manifestations that mimic PTSD or other conditions.
    Additionally, TBI and PTSD can be coexisting conditions in one 
individual. Much is still unknown about the long-term impact of these 
injuries and the best treatment models to address mild-to-moderate TBI. 
We believe more research should be conducted into the long-term 
consequences of brain injury and development of best practices in its 
treatment; however, we suggest that any studies undertaken include 
older veterans of past military conflicts who may have suffered similar 
injuries that thus far have gone undetected, undiagnosed or 
misdiagnosed, and untreated. Their medical and social histories could 
be of enormous value to VA researchers interested in the likely long-
term progression of these new injuries. Likewise, such knowledge of 
historic experience could help both the DOD and VA better understand 
the policies needed to be put into place to improve screening, 
diagnosis, and treatment of mild TBI in combat veterans of the future.
    Another issue of concern to the IBVSOs is unidentified TBI veteran 
patients with undiagnosed and untreated visual-related conditions. 
Servicemembers and veterans suffering from undiagnosed visual 
impairments pose a risk for incomplete rehabilitation which can 
significantly affect one's ability to function independently for life. 
It is clear the SOC is not tracking or taking action on this issue. 
Moreover, it is unclear whether DOD providers are assessing and 
treating subtle visual-related conditions or neuro-optometric 
dysfunctions. The IBVSOs are concerned VA and WRAMC have limited 
knowledge and resources to meet the demand and that there are a number 
of untreated visual-problems that delay and hinder rehabilitation.
    It is evident families provide the ``front line'' of the support 
network for returning veterans. Spouses are often the first to identify 
readjustment issues and facilitate veterans' evaluation and treatment 
when concerns are identified. The IBVSOs strongly believe that VA and 
the DOD must embrace new models of support for this generation of 
combat veterans. Family counseling support services that are needed by 
recently returning OEF/OIF veterans are only available on a limited 
basis in VA despite increasing need for such services. The Mental 
Health Advisory Team V report shows that while stigma among 
servicemembers seeking health is reduced, this problem continues to 
persist. Meanwhile the Mental Health Task Force highlighted the need 
for marital and family counseling; however, it appears the SOC has not 
adopted any action to enhance TRICARE benefits to include marital and 
family counseling. Although geographic coverage is a major limitation, 
we note that the Vet Center program is one of the few VA programs to 
address the veteran's full range of needs within family and community 
where family counseling is provided when needed for the readjustment of 
the veteran.
           data sharing between defense and veterans affairs
     The SOC's Line of Action to expedite VA/DOD data sharing stands in 
the shadow of both the President's Task Force to Improve Health Care 
Delivery for Our Nation's Veterans report in 2003 \29\ regarding the 
need for an interoperable electronic medical record and the two 
agencies working for almost 10 years to facilitate the exchange of 
medical information. The IBVSOs believe the need for sharing patient 
information is critical particularly for the FRC and local VAMC OEF/OIF 
Care Management Team that require timely and reliable patient 
information to ensure continuity of care across the many organizational 
seams between VA and DOD. We understand that the SOC has approved 
initiatives to ensure health and administrative data, such as DOD 
provider/clinical notes, problem lists, and theater health data 
(recently added), automated Federal Individual Recovery Plan, and the 
My eBenefits Web Portal based on the VA's My HealtheVet Web site, are 
made available and are viewable by both agencies.
---------------------------------------------------------------------------
    \29\ Final Report 2003, Page 27, Recommendation 3.1.
---------------------------------------------------------------------------
    Success in sharing outpatient data, most recently with outpatient 
pharmacy (government and retail) data has lead to progress in sharing 
inpatient data such as inpatient laboratory and radiology reports, 
inpatient discharge summary data from Landstuhl Regional Medical 
Center, consults, admission, disposition and transfer data, allergy 
information, and ambulatory coding data. Moreover, the one-way transfer 
of information has lead to the bi-directional sharing of information 
including outpatient pharmacy and allergy data, laboratory results and 
radiology reports. Progress notes, problem lists, and history data will 
round off the list and by June 2008, it is expected that VA will have 
access to data from all DOD locations.
    The IBVSO's believe VA and DOD should capitalize on their ability 
to share computable bi-directional allergy and pharmacy information 
between next-generation systems and data repositories. Computable 
information permits the VA and DOD systems to conduct automatic drug-
drug and drug-allergy interaction checking.\30\ The IBVSOs believe the 
DOD and VA must continue to develop electronic medical records that are 
computable, interoperable, and bidirectional, allowing for a two-way 
electronic exchange of health information. Furthermore, these 
electronic medical records should also include an easily transferable 
electronic DD-214 forwarded from the DOD to VA. This would allow the VA 
to expedite the claims process and give the servicemember faster access 
to health care and benefits.
---------------------------------------------------------------------------
    \30\ Capability at seven locations and Enterprise-wide 
implementation is currently being scheduled.
---------------------------------------------------------------------------
                               conclusion
    The IBVSOs applaud efforts and accomplishments made by both 
agencies over the past 14 months to ensure a seamless transition for 
injured servicemembers and veterans to receive benefits and services 
they need, whether provided by VA or DOD. It is clear however, that 
these accomplishments are a good first step and that many challenges 
remain as outlined above. The IBVSOs believe the momentum generated 
should be sustained as the SOC sunsets. Also, the transition to 
whichever entity will be responsible for tracking current LOAs should 
be handled with the same vigor and transparency as the SOC. The IBVSOs 
recommend a permanent office be established and staffed with full time 
employees from both agencies. Furthermore, unlike the current structure 
in the SOC we believe VA should take the lead for several reasons, 
chief of which is that injured servicemembers and their families will 
eventually come to VA, many for a lifetime of care.

    Again, we thank this Committee for its unwavering diligence in 
conducting oversight on this important matter on behalf of our Nation's 
most recent generation of disabled veterans and servicemembers.

    Chairman Akaka. Thank you very much.
    Mr. Bowers?

STATEMENT OF TODD BOWERS, DIRECTOR OF GOVERNMENT AFFAIRS, IRAQ 
              AND AFGHANISTAN VETERANS OF AMERICA

    Mr. Bowers. Mr. Chairman and Members of the Committee, on 
behalf of the Iraq and Afghanistan Veterans of America and our 
tens of thousands of members nationwide, I thank you for the 
opportunity to testify today regarding this important subject. 
I would also like to point out that my testimony today is as 
Director of Government Affairs for the Iraq and Afghanistan 
Veterans of America and does not reflect the views and opinions 
of the United States Marine Corps Reserves, in which I 
currently serve as a Sergeant.
    Over the past few years, multiple commissions have made 
recommendations regarding the most effective way to establish 
coordination between the Department of Defense and VA. These 
recommendations provide guidance on some of the most pressing 
issues affecting our Nation's newest veterans. The President's 
Commission on Care for America's Returning Wounded Warriors and 
the Veterans Disability Benefits Commission have made hundreds 
of recommendations and these suggestions are joined by hundreds 
more from internal DOD and VA task forces.
    As we have seen, the complexities of instituting and 
coordinating these recommendations can be overwhelming. IAVA is 
very concerned that many of these recommendations will go where 
so many other committee recommendations have ended up: On a 
shelf, merely collecting dust.
    The Wounded, Ill, and Injured Senior Oversight Committee, 
or SOC, has the responsibility of overseeing the implementation 
of many of these recommendations, and while great strides have 
been made in this past year, there is still much to be 
accomplished. As the SOC prepares to disband next year, it is 
our goal along with our other Veterans Service Organizations to 
ensure that these effective measures continue to be implemented 
in a timely, and most importantly, an efficient manner.
    To effectively implement change, oversight is paramount. 
Like basic military structure, a leadership entity must be 
present for actions to be followed and missions to be 
accomplished. This is why the SOC has been so successful thus 
far. IAVA does not believe that it is time to abandon one 
leadership structure for another, and joins our colleagues here 
today in expressing our concerns regarding the complexities of 
the Senior Oversight Committee (SOC) and the VA/DOD Joint 
Executive Council (JEC).
    Because members of the JEC have other responsibilities in 
addition to their oversight function, we are concerned that 
implementation of the recommendations will be slowed. Oversight 
should not be a part-time job. It is our recommendation that 
the JEC be appropriately staffed with full-time leadership.
    Moreover, we believe that the Veterans Administration 
should act as the lead organization for the JEC. Many veterans 
and their respective Veterans Service Organizations have borne 
witness to the difficulties of working with the Department of 
Defense at times. While the DOD coordinates with our 
organizations via press releases, we believe that the open 
channels of communication established by the VA has established 
with our institutions an effective conduit for us to 
communicate whether these improvements are being felt by the 
men and women on the receiving end.
    In addition to our concerns with the current structure of 
the JEC, IAVA is concerned that upcoming elections and the 
transition of top-level staff in the new administration will 
result in unnecessary delays. It is vital that the work of the 
SOC does not get lost in the fray. An effective plan must be 
established to ensure that the work of the SOC is not hindered 
with changes in administration and leadership.
    Finally, I would like to touch on what the priorities for 
both the SOC and JEC should be. The SOC has established eight 
lines of action, or LOAs, to have a tremendous impact on the 
ability of new veterans to navigate the often complex 
transition between DOD and VA. LOA2 specifically addresses the 
two signature wounds of the Iraq and Afghanistan conflicts, 
Post Traumatic Stress Disorder and Traumatic Brain Injury. 
These often hidden wounds of war are both extremely complex, 
both in recognition and treatment.
    We have heard the numbers from RAND that were released last 
week, so I won't go over them again, but again, I would like to 
highlight the importance of this problem. These numbers from 
RAND are not new. It is a problem that we have seen is coming 
and they just highlight the importance.
    When we saw these numbers and we were able to have it 
solidified, we really do see this as a national outrage, and 
the responsibility of addressing this national health crisis is 
going to fall largely on DOD and VA. This problem is not going 
to go away. Many of the Members of the Committee have commented 
on the problems with stigma and servicemembers reaching out to 
seek mental health treatment. This is a massive problem that we 
have seen both in the active component, the Reserves, National 
Guard, and specifically for those who have gotten out of 
service.
    With that, I am proud to say that IAVA has partnered with 
the Ad Council on a 3-year campaign to reach out to the 
American public through every media available, whether it be 
radio, television, or print ad, to reduce the stigma in regards 
to mental health injuries. We at IAVA focus on mental health 
injuries as something that can be treated and that you can 
become an important tool in society. That is something that is 
going to be difficult to change, but it is something that can 
change.
    Over time, the rate of psychological injuries will continue 
to be high. Mental health wounds range in severity and can take 
months to years to manifest. In the aftermath of the Vietnam 
War, the Congressionally-mandated National Vietnam Veterans 
Readjustment Study estimated that approximately 15 percent of 
servicemembers suffered PTSD during the conflict, but as many 
as 30 percent suffered PTSD at some point after their service. 
We can expect a higher lifetime rate of mental health injuries 
for our Iraq and Afghanistan veterans, as well. Rates of mental 
health injuries are increasing because of the time it takes for 
troops' mental health wounds to manifest. Longer tours and 
multiple deployments are also contributing to the higher rates 
of mental health injuries.
    In conclusion, if we are to get ahead of the veterans' 
mental health crisis, we need a strong, consistent, full-time 
oversight committee that will address the many gaps in care 
facing Iraq and Afghanistan veterans. We cannot allow the 
accomplishments made by the SOC over the past year to be 
overshadowed by the lack of effective planning on how their 
efforts will continue.
    With that, I thank you for this opportunity to testify and 
can answer any questions.
    [The prepared statement of Mr. Bowers follows:]
Prepared Statement of Todd Bowers, Director of Government Affairs, Iraq 
               and Afghanistan Veterans of America (IAVA)
    Mr. Chairman, Ranking Member and distinguished Members of the 
Committee, on behalf of Iraq and Afghanistan Veterans of America, and 
our tens of thousands of members nationwide, I thank you for the 
opportunity to testify today regarding this important subject. I would 
like to point out that my testimony today is as the Director of 
Government Affairs for the Iraq and Afghanistan Veterans of America and 
does not reflect the views and opinions of the United States Marine 
Corps.
    Over the past few years, multiple commissions have made 
recommendations regarding the most effective way to establish 
coordination between the DOD and VA. These recommendations provide 
guidance on some of the most pressing issues affecting our Nation's 
newest veterans. The President's Commission on Care for America's 
Returning Wounded Warriors and the Veterans' Disability Benefits 
Commission have made hundreds of recommendations, and these suggestions 
are joined by hundreds more from internal DOD and VA task forces. As we 
have seen, the complexities of instituting and coordinating these 
recommendations can be overwhelming. IAVA is very concerned that many 
of these recommendations will go where so many other committee 
recommendations have ended up: on a shelf, collecting dust. The 
Wounded, Ill and Injured Senior Oversight Committee or SOC by the 
Department of Defense has the responsibility of overseeing the 
implementation of many of these recommendations, and while great 
strides have been made in the past year, there is still much to be 
accomplished. As the SOC prepares to disband next month, it is our 
goal, along with other Veterans Service Organizations, to ensure that 
these effective measures continue to be implemented in a timely and 
efficient manner.
    To effectively implement change, oversight is paramount. Like basic 
military structure, a leadership entity must be present for actions to 
be followed and missions to be accomplished. This is why the SOC has 
been so effective thus far. IAVA does not believe that this is the time 
to abandon one leadership structure for another, and joins our 
colleagues here today in expressing our concern regarding the 
complexities of the Senior Oversight Committee (SOC) and the DOD/VA 
Joint Executive Council (JEC).
    Because members of the JEC have other responsibilities in addition 
to their oversight function, we are concerned that implementation of 
the recommendations will be slowed. Oversight should not be a part-time 
job. It is our recommendation that the JEC be appropriately staffed 
with full-time leadership. Moreover, we believe that the Veterans 
Administration should act as the lead organization for the JEC.
    Many veterans and their respective Veterans Service Organizations 
have borne witness to the difficulties of working with the Department 
of Defense. While the DOD coordinates with our organizations via press 
releases, we believe that the open channels of communication the VA has 
already established with our institutions will provide an effective 
conduit for us to communicate whether improvements are being felt by 
the men and women on the receiving end.
    In addition to our concerns with the current structure of the JEC, 
IAVA is concerned that the upcoming elections and the transition of 
top-level staff in the new administration will result in unnecessary 
delays. It is vital that the work of the SOC does not get lost in the 
fray. An effective plan must be established to ensure that the work of 
the SOC is not hindered with changes in administration and leadership.
    Finally, I would like to touch on what the priorities for both the 
SOC and JEC should be. The SOC has established eight lines of action or 
LOAs that will have a tremendous impact on the ability of new veterans 
to navigate the often complex transition between the DOD and VA. LOA 2 
specifically addresses the two signature wounds of the Iraq and 
Afghanistan conflicts, PTSD and TBI. These often hidden wounds of war 
are extremely complex both in recognition and treatment. Last week, the 
RAND Corporation recently released a report that should serve as a 
wakeup call to this Nation regarding these two injuries. From this 
report we have learned that the problems facing servicemembers and 
veterans regarding PTSD and TBI have only gotten worse. One in five new 
veterans are suffering from PTSD or major depression. Just half of 
these veterans are receiving treatment, and of those, only half are 
receiving minimally adequate care. Let me say that again: 300,000 
troops are suffering from a serious mental health problem, and barely 
25 percent are getting care that can even be called ``minimally 
adequate.''
    This should be a national outrage, and the responsibility of 
addressing this national health crisis will fall largely on the DOD and 
VA. And the problem isn't going away.
    Over time, the rate of psychological injuries may be higher. Mental 
health wounds range in severity, and can take months or years to 
manifest. In the aftermath of the Vietnam War, the Congressionally-
mandated National Vietnam Veterans Readjustment study estimated that 
approximately 15 percent of servicemembers suffered PTSD during the 
conflict, but as many as 30 percent suffered PTSD at some point after 
their service. We can expect a higher lifetime rate of mental health 
injury for Iraq and Afghanistan veterans as well. Rates of mental 
health injuries are increasing not only because of the time it takes 
for troops' mental health wounds to manifest, however. Longer tours and 
multiple deployments are also contributing to higher rates of mental 
health injuries.
    If we are to get ahead of the veterans' mental health crisis, we 
need a strong, consistent, full-time oversight committee that will 
address the many gaps in care facing Iraq and Afghanistan veterans. We 
cannot allow the accomplishments made by the SOC over the past year to 
be overshadowed by a lack of effective planning on how their efforts 
will continue.

    Chairman Akaka. Thank you very much, Mr. Bowers.
    Commander Campos?

   STATEMENT OF RENE A. CAMPOS, COMMANDER, U.S. NAVY (RET.), 
   DEPUTY DIRECTOR, GOVERNMENT RELATIONS, MILITARY OFFICERS 
                     ASSOCIATION OF AMERICA

    Commander Campos. Chairman Akaka, thank you for the 
opportunity to present testimony on MOAA's views of VA and DOD 
cooperation and collaboration efforts and the challenges that 
we see both short-range and down-range. The progress made to 
date, including the extensive measures adopted in last year's 
National Defense Wounded Warrior Act, are a credit to the 
leadership efforts not only in the VA and DOD, but in this 
Committee and the Armed Services Committees.
    At this point, we offer three main recommendations or 
priorities for consideration. First is the urgent need for 
continued Congressional action and oversight. It is common 
knowledge that the significant gains in funding, health care, 
and benefits didn't come about solely because of VA and DOD's 
leadership. Rather, it took Congress's intervention to push 
this relationship to the next level.
    MOAA is very concerned about how VA and DOD agencies will 
sustain continuity of effort and oversight when the leadership 
comes and goes, and particularly when the new administration 
changes. We cannot allow our servicemembers, particularly our 
most vulnerable population, our wounded and disabled veterans, 
to fall through the cracks.
    In addition to bipartisan and bicameral efforts in 
Congress, there is a pressing need for establishing a joint 
seamless transition office. That office should be a permanent 
office. Last year's defense bill established a foothold in this 
area, but only to set up a Joint Electronic Record Office. 
Long-term sustainment of joint effort requires a broader change 
in DOD and VA organizational structure.
    VA and DOD officials acknowledged the need for a Joint 
Transition Office at a February 12 Senate Armed Services 
Committee hearing. Officials agreed to provide a proposal for 
the establishment of that office. MOAA is not aware of any 
language that has been provided to the committee to date. Our 
hope is that military and VA leaders will follow through on 
that promise and submit a proposal for that office. This effort 
is simply too important to be someone's part-time job.
    I would like to add, too, that we are also very concerned 
and sensitive to the fact that if we can't put seamless 
transition here in our own backyard in the D.C. area where the 
policymakers are, then we are in real big trouble implementing 
policy across both organizations.
    A second critical issue is expanding mental health and TBI 
services. With nearly one-third of returning veterans suffering 
from PTSD, TBI, depression, or some combination thereof, we 
simply must find ways to expand and leverage our capacity to 
deliver care because there just aren't enough providers in the 
VA and DOD systems. You heard the comments from my colleagues, 
and Senator Murray's concern that was mentioned in the RAND 
report. Researchers also stated that this is will require a 
major effort to expand and improve capacity to meet the needs 
of veterans and servicemembers. The effort must include a focus 
on training more providers, must have evidence-based methods of 
treatment, reducing stigma and encouraging servicemembers and 
veterans to seek care.
    And finally, we must ensure full funding of VA health care 
and benefits and encourage innovation in the long haul. MOAA 
applauds the Committee's support for additional VA funding and 
we commend VA's efforts in improving access and quality care to 
veterans. But in delivering services and care, the VA must not 
overlook families who need care, as well.
    In that regard, we strongly urge the Committee to provide 
some compensation for full-time family caregivers. Too often, 
the need doesn't stop when the servicemember leaves active duty 
and goes into the VA system.
    VA should also consider adapting support programs, like DOD 
Military OneSource and Military Family Life Consultants, which 
provide information and referral and counseling services. This 
is also a very quick way to get a program up and going with 
DOD's help.
    We are very grateful for the Committee's strong efforts and 
oversight of veterans' health care and benefits. We pledge to 
work with you, DOD, and VA to continue the progress. Thank you 
very much for the opportunity to present MOAA's views on these 
critically important topics.
    [The prepared statement of Commander Campos follows:]
  Prepared Statement of Commander Rene A. Campos, USN (Ret.), Deputy 
   Director, Government Relations, Military Officers Association of 
                                America
    Chairman Akaka, Ranking Member Burr, and distinguished Members of 
the Committee, on behalf of the 370,000 members of the Military 
Officers Association of America (MOAA), I am grateful for the 
opportunity to present testimony on MOAA's views of the Department of 
Defense (DOD) and Department of Veterans Affairs (VA) cooperation and 
collaboration efforts and the challenges we see, both short-range and 
down-range.
    MOAA does not receive any grants or contracts from the Federal 
Government.
                           executive summary
    The Global War on Terror has produced a number of challenges for 
DOD, for the VA, for Congress, and for our country that we are not 
fully prepared to meet. We must muster all the necessary resources to 
get out in front of the issues that will impact all generations of 
military members, veterans, retirees, their families, and survivors 
now, and for decades to come. MOAA is extremely thankful for the 
Committee's leadership in working with the Armed Services Committee to 
improve health care and benefits for wounded warriors and their 
families.
    MOAA is encouraged by DOD and VA leadership's focused efforts and 
collaboration on the care of wounded warriors, disabled veterans, and 
their families to improve delivery of health care, benefits, and 
support services as servicemembers transition from the DOD into the VA 
system and to civilian life.
    Urgency of Joint Congressional Action and Oversight. Continued 
bipartisan and bicameral efforts between the Veterans Affairs and Armed 
Services Committees are absolutely crucial to continued progress. As in 
the executive branch, the leadership sets the tone for the staffs. We 
recognize that many of the jurisdictional and funding issues are not 
easy to resolve, but it is absolutely imperative to nourish a 
continuing collaborative framework to assess, oversee, prioritize, and 
fund cross-jurisdictional issues affecting the health, benefits, and 
welfare of our military and veteran beneficiaries, especially wounded 
warriors and their families who are so vulnerable to inefficiencies, 
inconsistencies, and bureaucracies of the DOD and VA systems.
    Joint Transition Office. While both DOD and VA are making great 
efforts to cooperate, the single greatest barrier to continued progress 
is the lack of an institutional structure to impel and ensure joint 
cooperation between the two bureaucracies. Periodic leadership 
committee meetings, after which DOD and VA participants return to their 
separate offices on opposite sides of the Potomac, simply are 
insufficient to alter decades of historical administrative impediments. 
MOAA applauds the requirement for a joint office to implement the joint 
electronic medical record, but this is only one of many initiatives 
that require full-time joint collaboration if we hope to achieve 
substantive progress. These issues are simply too important to the 
Nation to allow them to remain a part-time job.
    In fact, Chairman Carl Levin (D-MI) at a February 12th Senate Armed 
Services Committee hearing, asked senior officials in DOD and VA to 
provide a legislative proposal for the establishment of a joint 
transition office that would provide a broader and more permanent 
structure for caring for our Nation's wounded than the current JEC 
forum. Officials agreed on the need for such an office and told the 
committee they would provide the language. MOAA is not aware of any 
language that has been provided to the Committee to date.
    Expanding National Mental Health Capacity. With nearly one-third of 
returning veterans suffering from PTSD, TBI, depression, or some 
combination thereof, we simply must find ways to expand and leverage 
our capacity to deliver care. A new RAND study concludes that investing 
in proper treatment would actually save $2 billion within 2 years by 
improving the capacity of members and families to return to productive 
work. The real challenge is how to develop enough providers to meet the 
need. RAND and MOAA believe this will take a national campaign to:

    <bullet> increase DOD's and VA's in-house mental health capacity, 
to attract more providers to see TRICARE beneficiaries;
    <bullet> increase incentive, education, and training programs to 
encourage more military people, veterans, and civilians to enter mental 
health delivery and counseling fields;
    <bullet> reduce stigma associated with seeking care and instill 
confidence that getting needed care will enhance, rather than detract 
from, servicemembers' career opportunities;
    <bullet> outreach to let civilian providers know who they can 
contact for specialized information in treating military and veteran 
patients and families, provide information on DOD and VA web sites that 
provide military/VA-unique insights and best practices; and
    <bullet> provide a clearing house for veterans and families in need 
to find providers or programs best-suited to their needs.

    Caregiver and Family Support. More must be done to strengthen 
support for families, including authorization of compensation for 
family member caregivers of severely injured who must leave their 
employment to care for the servicemember. DOD and VA should each 
provide per diem or other appropriate compensation for these 
caregivers, recognizing that if government service has imposed this 
obligation on family caregivers, the government has an obligation to 
provide them some level of compensation. VA should consider 
implementing DOD programs like Military OneSource and Military Family 
Life Consultants to provide outreach services for veterans and family 
members.
    Access to Care and Case Management. MOAA shares the concern that 
unnecessary delays in accessing health care can result in some veterans 
languishing in or giving up on the system, preventing them from getting 
the necessary treatment they need to improve their condition down 
range. MOAA commends VA's willingness to look at innovative ways to 
improve access and quality care outside of its traditional delivery 
mechanisms such as Federal Recovery Coordinators (though MOAA questions 
VA's and DOD's ability to manage 4,000 severely injured members with 
only seven of the eight FRC positions identified for the program), OEF/
OIF Transition Teams in VA medical facilities to assist and facilitate 
coordination of care and services for veterans, a Rural Health National 
Advisory Committee, and a Travel Nurse Corps.
    Disability Evaluation System (DES) Reform. MOAA agrees strongly 
that VA and DOD should realign the DES so that the Services determine 
fitness for duty but accept disability ratings assigned by the VA. MOAA 
emphatically does not support the recommendation of the Dole-Shalala 
Commission to eliminate the military disability retired pay system, 
which could substantially reduce benefits for many wounded warriors and 
their families.
    Claims Processing. MOAA believes that VA's workload estimates do 
not fully reflect new claims from returning OEF/OIF veterans, including 
more than 615,000 National Guard and Reserve activated since September 
11, 2001. MOAA strongly supports additional claims-worker positions 
(FTE) for FY 2009 and investment in training, technology upgrades and 
integration in support of claims processing.
    Guard-Reserve Support. MOAA urges the Committee to continue and 
expand its efforts to ensure Guard and Reserve soldiers and their 
families receive needed transition services to make a successful 
readjustment to civilian status.
    DOD/VA Medical and Benefits Systems Funding and Innovation. MOAA 
applauds the Committees' opposition to any initiatives that would 
reduce critical funding and resources, including the imposition of 
usage fees and higher drug co-payment fees for VA services. Since 
delayed funding authority seriously hampers program execution, MOAA 
urges the Committees to work with Senate and House leadership to ensure 
that the FY 2009 VA Appropriations Bill is signed into law before 
October 1 of this year.
                                overview
    While the stories begin to fade over the cases of wounded 
servicemembers who became lost in the military health care and 
administrative systems upon being transferred to outpatient 
rehabilitative care, the issues of care and support continue to be 
major challenges for both DOD and VA systems. MOAA is particularly 
concerned about how the two agencies will continue moving forward on 
these critical issues and who will be in charge when the leadership 
changes in the transition to a new Administration.
    Our experience with such changes in the past has us worried that 
top-down commitment to seamless transition could wane when current 
leaders depart--not for lack of interest, but simply for lack of 
continuity in leadership, direction, personal knowledge, and energy.
Urgency of Joint Congressional Action and Oversight
    Progress to date, including the extensive measures adopted in the 
FY 2008 Defense Authorization Act, are a credit to the leadership 
efforts not only in DOD and VA, but also in this Committee and the 
Armed Services Committee. We are grateful for the unprecedented 
cooperation among all parties to address this most urgent national 
priority.
    But the provisions enacted last year were only a first step. Many 
of the steps involved pilot programs and reports to help identify what 
actions are needed next.
    You have a significant continuity advantage over the executive 
branch agencies. For that reason, the continued bipartisan and 
bicameral efforts between the Veterans Affairs and Armed Services 
Committees are absolutely crucial to continued progress. As in the 
executive branch, the leadership sets the tone for the staffs.
    We recognize that many of the jurisdictional and funding issues are 
not easy to resolve, but we are optimistic that our common concern for 
the well-being of those who have borne the overwhelming share of 
national sacrifice will continue to overcome those barriers that have 
impeded progress in the past.
    It is absolutely imperative to nourish a continuing collaborative 
framework to assess, oversee, prioritize, and fund cross-jurisdictional 
issues affecting the health, benefits, and well-being of our military 
and veteran beneficiaries, especially wounded warriors and their 
families who are so vulnerable to inefficiencies, inconsistencies, and 
bureaucracies of the DOD and VA systems.
Joint Transition Office
    One critical problem is bureaucratic stove-piping in each 
department. While both DOD and VA are making great efforts to 
cooperate, the single greatest barrier to continued progress is the 
lack of an institutional structure to impel and ensure joint 
cooperation between the two bureaucracies.
    There's no doubt about the good intentions of leadership, but 
sustaining the current effort for the long term requires a change in 
organizational structure. Periodic leadership committee meetings, after 
which DOD and VA participants return to their separate offices on 
opposite sides of the Potomac, simply are insufficient to alter decades 
of historical administrative impediments.
    The FY 2008 Defense Authorization Act established DOD/VA 
Interagency Program Office to oversee implementation of a joint 
electronic medical record, which MOAA greatly applauds. Only by 
establishing a joint office, staffed by full-time members of both 
agencies working full-time together, can we hope to address the 
seamless transition issues that have stymied progress for decades.
    But the electronic medical record is only one of many initiatives 
that require full-time joint collaboration if we hope to achieve 
substantive progress. Now that Congress has acknowledged the necessity 
of this structural change for this function, it is essential to 
acknowledge that the same necessity applies to many other joint needs.
    Chairman Carl Levin (D-MI) at a February 12th Senate Armed Services 
Committee hearing, asked senior officials in DOD and VA to provide a 
legislative proposal for the establishment of a joint transition office 
that would provide a broader and more permanent structure for caring 
for our Nation's wounded than the current JEC forum. Officials agreed 
on the need for such an office and told the Committee they would 
provide the language. MOAA is not aware of any language that has been 
provided to the Committee to date.
    We urge the military and VA leadership present at this hearing to 
follow-through on that promise by submitting a proposal to Senate 
Committees on Veterans' Affairs and Armed Services with a legislative 
proposal and implementation plan for a joint office.
    This simply can't be someone's part-time job. It requires a full-
time joint Federal transition office, staffed by full-time DOD, service 
and VA personnel working in the same office with a common joint 
mission: developing, implementing and overseeing the DEC's strategic 
plan.
    This office's responsibilities should include:
    Joint In-Patient Electronic Health Record--We strongly support the 
initiative already established in law. But we believe the 2012 
objective for implementing this system is too long to wait. Congress 
must press DOD and VA to speed delivery as soon as humanly possible, 
with concrete timelines and milestones for action.
    Special Needs Health Care--Polytrauma Rehabilitation Centers were 
established to meet the specialized clinical care needs of patients 
with multiple trauma conditions. They provide comprehensive inpatient 
rehabilitation services for individuals with complex cognitive, 
physical and mental health sequelae of severe disabling trauma. These 
centers require special oversight in order to ensure the required 
resources are available to include specialized staff, technical 
equipment and adequate bed space. This oversight must be a joint effort 
since it provides a significant piece of the health care continuum for 
severely injured personnel.
    Recreational/Alternative Therapy--DOD/VA also should consider 
collaborating and expanding policy and resources to provide for more 
robust recreational and alternative therapy programs as a means to 
improve the quality-of-life of wounded warriors and their families, 
particularly as they adjust and transition into various communities and 
phases of the life-cycle so the VA can meet the personal and work-life 
needs of the veteran.
    Post Traumatic Stress Disorder (PTSD), Traumatic Brain Injuries 
(TBI), and Mental Health/Counseling--MOAA strongly supports the 
provisions in the FY 2008 NDAA establishing Centers of Excellence for 
these programs. But the fact remains that the services and VA are 
already conducting multiple independent pilot projects in these areas--
with independent standards, measuring processes, and objectives. MOAA 
is doubtful whether these centers, by themselves, will be in a position 
to ensure coordination and implementation of best practices across all 
departments and services. There simply must be a single agency in 
charge--a joint office, a service Executive Agent, or some other 
oversight activity--to provide central monitoring, guidance, 
evaluation, and cross feed of best practices to all concerned if we are 
to coherently destigmatize, identify, and treat PTSD and TBI.
    MOAA believes it also is important to ensure that TBI and PTSD are 
identified and treated as combat injuries rather than mental health 
problems.
Expanding National Mental Health Capacity
    Like the Committee, MOAA is greatly concerned that the 
exponentially growing need for mental health, behavioral, and cognitive 
therapy generated by the current war is coming at a time when our 
national capacity to deliver the level and kinds of needed care is 
already overwhelmed.
    With nearly one-third of returning veterans suffering from PTSD, 
TBI, depression, or some combination thereof, we simply must find ways 
to expand and leverage our capacity to deliver care.
    A new RAND study of psychological and cognitive needs of all 
servicemembers deployed in the past 6 years is particularly instructive 
in highlighting this need. The study entailed:

    <bullet> A national survey of servicemembers who have been deployed
    <bullet> Economic modeling to estimate the cost of not providing 
appropriate treatment (including loss of productivity and suicide)
    <bullet> An evaluation of treatment services available to 
servicemembers and barriers to that treatment.

    RAND estimates that PTSD and depression among servicemembers will 
cost the Nation up to $6.2 billion in the two years after deployment. 
The study concludes that investing in proper treatment would actually 
save $2 billion within two years by improving the capacity of members 
and families to return to productive work.
    Researchers stated that ``a major national effort is needed to 
expand and improve the capacity of mental health system to provide 
effective care to servicemembers and veterans. The effort must include 
the military, veteran and civilian health care systems, and should 
focus on training more providers to use high-quality, evidence-based 
treatment methods and encouraging servicemembers and veterans to seek 
care.''
    The report cites the psychological toll on military members and 
veterans is disproportionately higher than those with physical 
injuries.
    The real challenge is how to develop enough providers to meet the 
need. RAND and MOAA believe this will take a national campaign to:

    <bullet> increase DOD's and VA's in-house mental health capacity, 
to attract more providers to see TRICARE beneficiaries;
    <bullet> increase incentive, education, and training programs to 
encourage more military people, veterans, and civilians to enter mental 
health delivery and counseling fields;
    <bullet> reduce stigma associated with seeking care and instill 
confidence that getting needed care will enhance, rather than detract 
from, servicemembers' career opportunities.

    It is clear to MOAA that DOD/VA will have to pull out all the stops 
to address this issue before a real crisis erupts. Military and family 
members need early intervention to improve outcome--so too does DOD/VA 
if they expect to take charge of the situation.
    Since we cannot possibly increase in-house capacity to needed 
levels in the short-term, we must find ways to leverage in-house 
expertise for use by civilian providers. That means outreach programs 
to let civilian providers know who they can contact for specialized 
information in treating military and veteran patients and families, 
information on DOD and VA web sites that provide military/VA-unique 
insights and best practices, and clearing houses for veterans and 
families in need to find providers or programs best-suited to their 
needs.
Caregiver and Family Support
    Lessons learned by the DOD and Military Services over the last 
three decades show the increasingly active role of military family 
members in the success of recruiting, retention and readiness. Families 
also expect and need to be active participants in the care and support 
of their veteran. VA must be able to adjust its mission and services to 
meet the needs of the larger veteran community--a community that 
includes the family--spouses, parents, siblings, and others whom the 
veteran considers important in his or her life.
    Several wounded warrior provisions in the recently enacted NDAA 
provide additional support for the caregiver of the wounded warrior, 
typically a family member. However, we believe more needs to be done to 
strengthen support for families; to include the authorization of 
compensation for family member caregivers of severely injured who must 
leave their employment to care for the servicemember. Per diem is 
provided while the servicemember remains on active duty, but this 
ceases upon medical retirement or discharge--even though members may 
still face years of rehabilitation and require continued full-time 
caregiver attention. DOD and VA must address this continuing need, 
recognizing that if government service has imposed this obligation on 
family caregivers, the government has an obligation to provide some 
level of compensation for those caregivers.
    Left with diminishing resources and unfamiliar with military 
benefit and disability rules, family members are severely disadvantaged 
in trying to represent the interests of their veteran and the family 
while trying navigate complex administrative systems and procedures.
    VA should consider implementing DOD programs like Military 
OneSource and Military Family Life consultants to provide outreach 
services for veterans and family members. The Military OneSource 
initiative, a contracted information and referral service, would 
provide a mechanism to set-up a program quickly, and allow for 
augmenting and expanding current VA programs and initiatives in the 
works. DOD's Military OneSource provides information and referrals to 
military and civilian resources, to include childcare, mental health 
counseling, benefits assistance, financial counseling and assistance, 
and other high demand support services.
Access to Care and Case Management
    MOAA is especially grateful to Congress for extending VA health 
care for OIF/OEF veterans for five years vs. the previously authorized 
two. While this is a step in the right direction, we continue to hear 
about huge gaps in accessing health care services in some parts of the 
country by those already in the system. This is due in part to the 
growing veterans' population, but also because of VA failing to 
anticipate demand or lacking the agility to respond quickly to meet 
emergent requirements.
    Senator Burr expressed concern at a February 28 hearing about the 
need to provide wrap-around services to veterans at the front-end of 
the disability process--particularly upon entering the VA system. MOAA 
shares the concern that unnecessary delays in accessing health care can 
result in some veterans languishing in or giving up on the system, 
preventing them from getting the necessary treatment they need to 
improve their condition down range.
    MOAA commends VA's willingness to look at innovative ways to 
improve access and quality care outside of its traditional delivery 
mechanisms such as:

    <bullet> Federal Recovery Coordinators to serve as single case 
manager and advocate for severely injured, wounded or ill 
servicemembers and their families. MOAA however, questions VA's and 
DOD's ability to manage the 4,000 severely injured servicemembers 
currently in the system with only seven of the eight FRC positions 
identified for the program.
    <bullet> OEF/OIF Transition Teams in VA medical facilities to 
assist and facilitate coordination of care and services for veterans.
    <bullet> Rural Health National Advisory Committee to advise senior 
VA officials about health care issues affecting veterans in rural areas 
in order to bring services closer to the veteran.
    <bullet> Travel Nurse Corps to deal with a nationwide shortage of 
nurses and to improve the quality of care for veterans. The Corps will 
enable VA nurses to travel and work throughout the Department's medical 
system.
VA/DOD Seamless Transition, Wounded Warrior Compensation, and Benefits
    Current legacy systems are stove-piped and over-burdened--they were 
not built for agility or surge capability. Putting ``seamless'' in 
transition will require more than DOD/VA to make the cultural changes. 
Congress and the Nation must continue to pressure the systems toward 
change so that seamless transition becomes a reality and not just an 
unreached vision. Active duty and Reserve components should be able to 
access transition services from multiple sources, when and where they 
need those services.
    Disability Evaluation System (DES) Reform--A number of commissions 
and task forces have addressed major issues that arose from the Walter 
Reed situation, including the Dole-Shalala Commission and the Veterans 
Disability Benefits Commission (VDBC), among others. The VDBC issued 
its final Report to Congress on October 2007. MOAA is particularly 
pleased that the VDBC Report calls for the reform of the VA/DOD 
disability evaluation system.
    MOAA agrees strongly that VA and DOD should realign the DES so that 
the Services determine fitness for duty but accept disability ratings 
assigned by the VA.
    MOAA emphatically does not support the recommendation of the Dole-
Shalala Commission to eliminate the military disability retired pay 
system, which could substantially reduce benefits for many wounded 
warriors and their families.
    Claims Processing--We believe that VA's workload estimates do not 
fully reflect new claims from returning OEF/OIF veterans, including 
more than 615,000 National Guard and Reserve activated since September 
11, 2001.
    Claims also are increasingly complex and require more time in 
developing and rating them. In 2007, more than one-quarter (26%) of the 
compensation workload contained eight or more disability issues. This 
is an increase of 168 percent since 2000.
    New VA claims workers need about two years to become minimally 
proficient in adjudicating a VA disability claim. We note that the 
Committees' ``Views and Estimates'' to the Budget Committees on the FY 
2009 VA budget underscores the importance of training to improve claims 
processing timelines, increase accuracy and reduce appeals workload.
    MOAA strongly supports additional claims-worker positions (FTE) for 
FY 2009 and investment in training, technology upgrades and integration 
in support of claims processing.
    Guard-Reserve Support--For the Reserve component, finding and 
accessing critical support services and health care presents unique 
challenges because Guard and Reserve soldiers and their families are 
not always able to access base services like active duty personnel. 
Operation tempo and increase frequency and duration of deployments are 
extremely tough on Guard and Reserve whose support structure is usually 
the civilian community that often is not sensitive or understanding to 
military and family issues.
    MOAA appreciates the work of this Committee in seeking to address 
some of these needs in the FY 2008 NDAA, but more remains to be done.
    We strongly urge the Committee to continue and expand its efforts 
to ensure Guard and Reserve soldiers and their families receive needed 
transition services to make a successful readjustment to civilian 
status.
DOD/VA Medical and Benefits Systems Funding and Innovation
    For a fifth year in a row the Administration has proposed annual 
usage fees and higher VA drug co-payments. MOAA is grateful that the 
both the Senate and House Committees on Veterans' Affairs opposed these 
fee hikes. Like the House Committee on Veterans' Affairs, we are 
``puzzled as to why the Administration requests these proposals in the 
face of consistent Congressional opposition.'' We, too, are concerned 
about the impact of these proposals on VA's ability to deliver 
sustained quality care and access to services.
    The DOD, VA, Congress, MOAA, and our Military Coalition partners 
all have reason to be concerned about the rising cost of military 
health care. But it is important to recognize that the bulk of the 
problem is a national one, not a military-veteran-specific one. To a 
large extent, military and VA health cost growth is a direct reflection 
of health care trends in the private sector.
    MOAA applauds the Committees' opposition to any initiatives that 
would reduce critical funding and resources, including the imposition 
of usage fees and higher drug co-payment fees for VA services. Since 
delayed funding authority seriously hampers program execution, MOAA 
urges the Committees to work with Senate and House leadership to ensure 
that the FY 2009 VA Appropriations is signed into law before October 1 
of this year.
    MOAA thanks the Committees for recommending over $2.5 billion 
increase to VA health funding above the Administration's request.
    It is imperative that DOD and VA continue to think out-side-of-the-
box in delivering quality health care and support services through 
innovation and cost efficient and effective ways. This doesn't mean 
however, that the costs of DOD's and VA's inefficiency and 
effectiveness should be shouldered by servicemembers, retirees, 
veterans, family members, and survivors.
                               conclusion
    MOAA reiterates its profound gratitude for the extraordinary 
progress this Committee, DOD and VA have made in advancing a wide range 
of seamless transition, wounded warrior, health care, and benefit 
initiatives for all uniformed services personnel, veterans, their 
families, and survivors.
    We are eager to work with the Committee in pursuit of the goals 
outlined in our testimony. Through innovation, cooperation, and 
collaboration DOD/VA can be model systems for the Nation. We must all 
work together to change department cultures and open our system through 
partnerships and outreach. MOAA looks forward to working with Congress, 
DOD, and VA to build a joint system of care and support for our 
military and veteran communities.

    Thank you very much for the opportunity to present MOAA's views on 
these critically important topics.

    Chairman Akaka. Thank you very much, Commander, for your 
statement.
    For each of you, let me ask you a fast question. Do you 
have any comments on the question as to whether or not VA is 
facing an epidemic? Mr. Atizado?
    Mr. Atizado. Mr. Chairman----
    Chairman Akaka. Meaning a suicide epidemic.
    Mr. Atizado. Yes, Mr. Chairman. Thank you for that 
question. I cannot tell you whether or not it is an epidemic. I 
don't know the technical definition, especially in a health 
care arena, of what an epidemic is, but I can tell you it is a 
shame and we are deeply disturbed by these recent events and by 
the course of action that had to be taken to bring to light 
this situation. I am sure I can speak on behalf of the other 
organizations for the Independent Budget that we will work with 
you and VA to ensure that this issue is taken care of 
appropriately. We can't have it. Thank you.
    Chairman Akaka. Thank you. Mr. Bowers?
    Mr. Bowers. Again, I agree with Adrian. I am not sure if it 
is an epidemic, but I will say that it is a very large problem. 
It is something that we have seen. The numbers are increasing. 
I think it is a mixture of the difficulties that many Iraq and 
Afghanistan veterans are facing when returning home from 
deployments. I also think it is a mixture of the aging 
population of Vietnam veterans. They are coming together at an 
interesting time right now, these are often difficult problems 
that folks face--whether it be reintegration or just dealing 
with past demons.
    I can say that we have been very excited with VA, the way 
they have really promoted and established their suicide 
prevention hotline. Yesterday, we were very pleased to be able 
to sit down with Secretary Peake and hear some of the other 
efforts that they are taking to combat suicide. It is an 
extreme problem and it is something that we are very focused on 
and looking forward to working with this Committee, the VA, and 
DOD to address.
    Chairman Akaka. Thank you. Commander Campos?
    Commander Campos. Yes, sir. I believe that MOAA recognizes 
that there is a lot of concern about the mental health and that 
is an issue that we think has to have a lot more emphasis 
nationally as well as within the DOD and VA. Again, like my 
colleagues, I am not an expert in talking in terms of this 
being an epidemic, but I can say that we believe that we are 
experiencing a crisis in mental health provider shortages and 
that DOD and VA has to pull out all the stops to address this. 
We may not be able to address it perfectly and may not have the 
cadre of trained people that we need, but we need to use every 
vehicle that we have to provide advocates for our 
servicemembers and their families to address these issues; and 
we need to be able to make sure that those resources that are 
given to DOD and VA are effectively used.
    I think the issues that we are facing here today are really 
an issue of who is in charge. I don't think we can listen to 
the testimony earlier and really--it is sort of like a military 
comment I heard over my 30 years in the military, ``If 
everybody is in charge, then nobody is in charge.'' And that is 
why we think it is critically important to have an office that 
can address these issues, address them head-on, and not let 
these issues drop every time the administration changes or 
there are changes in leadership, and let it be somebody else's 
problem.
    Chairman Akaka. Well, thank you so much for your comments. 
It is great to hear you, as well as those from the 
administration and Members of this Committee, talk about 
working together. That is one of the ways that we can deal with 
these problems and work as quickly as we can to resolve them.
    This question is to all three of you. The Dole-Shalala 
Commission recommended the creation of recovery plans for all 
servicemembers who are seriously injured since the beginning of 
the Afghanistan and Iraq conflicts. Do you believe the Senior 
Oversight Committee, and I think all of you mentioned the SOC, 
do you believe that this committee has been effectively doing 
their job in overseeing and ensuring the implementation of this 
program? And also, if you would add to that if you have any 
recommendations as to what else you think they can do. Mr. 
Atizado?
    Mr. Atizado. Mr. Chairman, as I had mentioned in my 
testimony, we in the IBVSOs are concerned with the small size. 
Granted, it is a rather new program and a lot is being asked of 
these Federal Recovery Coordinators. I should say, a lot of 
expectation has been placed on these coordinators despite what 
has been said about them being a last resort. They are not a 
last resort. They have been touted to be the ultimate resource 
for these injured servicemembers.
    And having, from what I understand, 67 enrolled in this 
program where a veteran can self-refer, it is concerning. This 
Committee is aware of the need for this kind of a single point 
of contact that can stand above the fray and make things 
happen. Now there is talk about what they can or cannot do or 
should or should not do. I think it is incumbent upon us to 
take a closer look at this, considering the hearing that was 
before this Committee last month, I believe it was, this is 
extremely important. This person is responsible for taking care 
of not only the servicemember, but the families, and easing the 
transition.
    I would like to see, first and foremost, from the Senior 
Oversight Committee what their plans are to evaluate this 
program, if it is, in fact, effective. I think that is my first 
question with regards to their ability to be effective 
overseers of this program. What is the evaluation of the 
effectiveness of this? I will leave it at that.
    Chairman Akaka. Mr. Bowers?
    Mr. Bowers. Well, I have not had any personal contact with 
servicemembers who have had recovery coordinators. It is my 
hope that having that single point of contact is going to ease 
the transition from DOD to the VA, and I agree with Adrian that 
it is paramount that they be involved with helping the families 
make this transition, also.
    With that said, the concern lies that, again, within our 
membership, we have yet to meet anybody who has had a recovery 
coordinator. We do believe that the program needs to be 
expanded, that the SOC is an effective place right now, but 
again, the clock is ticking to be able to oversee this program 
more effectively, and I think measures of effectiveness will be 
paramount in establishing whether this is a solid program.
    Chairman Akaka. Commander Campos?
    Commander Campos. I agree with my colleagues and I think 
that the creation of recovery plans and the recovery 
coordinators has been a great step in the right direction and I 
do applaud--we do applaud DOD and VA for moving out on that. 
Again, when you have a significant population of severely 
injured--4,000--and you only have ten identified positions, 
somebody is going to fall through the cracks.
    We are also concerned that programs focus only on severely 
injured and yet there are other servicemembers that have been 
wounded or injured or have the invisible wounds that don't have 
recovery plans. What happens to them?
    So we believe that there should be some--the recovery 
coordinator was supposed to be the advocate for the 
servicemember and the family, so we want to see that truly 
happen. And I believe the only way for that to truly happen is 
to expand the number of those individuals.
    Chairman Akaka. Please share your thoughts on how 
successful efforts have been to streamline and improve the 
transition and case management processes. What else needs to be 
done? What more can the Senior Oversight Committee be doing in 
this area of case management?
    Commander Campos. I would say, sir, that it is very hard 
for us to evaluate how all these moving parts are working, as 
we could tell from DOD and VA today, that there are so many 
moving pieces and we are not in a position to even understand 
necessarily how far and how successful some of these 
initiatives are.
    I do go back to the fact that we are not--we still need--
the SOC has been a great because it has had the senior 
leadership's focus--but again, if it is not somebody's full-
time job and somebody is not accountable for it, then the 
accountability and the responsibility is spread over 
organizations; and in our opinion it would be business as 
usual.
    So, we believe that there needs to be one Seamless 
Transition Office to make sure that all these moving pieces 
that are occurring don't have unintended consequences as we 
implement some of the many recommendations in the Wounded 
Warrior Act. And somebody has to be responsible for overseeing 
the implementation of all these initiatives that are taking 
place.
    Chairman Akaka. Thank you.
    Mr. Bowers. I was fortunate enough to speak with some of 
our members last week who have recently made the transition 
from the Department of Defense to the VA. There are still many 
complexities that remain. With that said, everybody conveyed to 
me, and this was three individuals that I spoke to--that they 
could tell changes were coming, that they knew things were 
being implemented and that was sort of some of the confusion as 
they were making this transition. So, I think that is a good 
sign, but I would stand by that it is almost too early to say 
how much the SOC has been able to streamline the transferring 
from DOD to VA; but there are changes being made.
    Chairman Akaka. Thank you.
    Mr. Atizado. It seems to me, Mr. Chairman, that much of the 
accomplishments that have been presented to this Committee by 
the previous panel speak to the main problems with what is 
becoming the age-old problem of seamless transition--whether it 
is health or data information sharing or the actual hand-off 
from one agency to the other and the kind of care they receive 
and the housing--that they have the ability to accommodate 
servicemembers' family or support in that work as they recover.
    But, I think what I would like to impress upon this 
Committee is: these are just first steps. These are not the 
end-all and be-all. And in those first steps, as my colleague 
had just mentioned, there is one important component that is 
missing. How well is it working?
    I can appreciate surveys of satisfaction. I can appreciate 
when a servicemember or veteran receives the benefits that they 
have been fighting for. But I can also appreciate when the 
servicemember doesn't receive benefits that they are not aware 
of. How well are these things working? That is my prime concern 
with all the accomplishments that have been made.
    Chairman Akaka. Mr. Bowers, you recently commented that 
health care is inconsistent at the local level. What are your 
thoughts on what must be done to ensure a more standard level 
of care that can be available?
    Mr. Bowers. Mr. Chairman, I believe that is in regards to 
what we discussed about urban veterans versus rural veterans 
and some of the difficulties that they face in seeking 
treatment for different types of injuries. This is a very 
difficult problem. I know that there has been discussion of the 
VA being able to provide outreach to rural veterans via Web 
access and things along those lines. That is something that we 
have a little concern with in regards to the complexities of 
broadband access for rural veterans. But our number 1 issue is 
making sure that they receive effective mental health 
counseling, and I know that speaking to a lot of individuals, 
the often very long distances they have to travel to try and 
receive treatment can be very difficult.
    With that said, one thing we have heard consistently, I 
would say, with almost all of our membership, is how incredible 
the Vet Centers are. And while those allow a conduit for the VA 
for sometimes more rural areas, it is a very effective tool for 
individuals to go and receive help in dealing with a lot of 
these issues; and then finding the correct measures to receive 
treatment.
    There is often discussion about contracting out for a lot 
of treatment along these lines, and while we believe that the 
VA needs to be the primary source, if there is no other course 
of action for individuals to receive treatment, then 
contracting out services for rural veterans we believe would be 
a good step, but in the most extreme cases.
    Chairman Akaka. Commander Campos, the Army Surgeon General 
testified before the House Armed Services Committee that the 
pilot project to speed the process of evaluating and rating 
servicemembers' disabilities will do little more than turn a 
bad process into, and I quote, ``a fast bad process.'' Do you 
agree with this statement, and what can we do to make it a, 
quote, ``fast good process''?
    Commander Campos. Well, sir, I would have to say that we 
are concerned about the pilot program and what realistically we 
can accomplish in that program. We believe that there needs to 
be a single physical for the servicemember when they transition 
out of the military; and that VA should be the organization 
that determines the rating, and DOD and the services determine 
the fitness for duty.
    The process--the pilot project is concerning to us because 
the individuals in the area here in D.C. is all being managed 
very carefully and methodically; and so, I am not sure that it 
can be deployed to other areas around the country where VA or 
military medical treatment facilities may not have the same 
consistencies in their own processes and their own systems. So, 
we are concerned about how the findings out of the pilot--what 
the pilot recommendations will be, what the results of the 
pilot, but how practical and feasible will that be able to be 
translated throughout the services and the VA system.
    Chairman Akaka. Commander Campos, in your testimony, you 
suggested that VA should consider implementing DOD programs 
like Military OneSource and Military Family Life, consultants 
to provide outreach services to veterans and their families. I 
would ask each of you also to comment about this. Please 
explain what these programs would provide that is not currently 
available through VA.
    Commander Campos. Sir, these programs sprang up around the 
time DOD was actually considering Military OneSource as an 
outreach program where the family centers at each of the 
installations needed some services to augment their existing 
services. So, they developed or contracted and set up a program 
called Military OneSource that allows servicemembers and 
families to access support services anywhere from finding child 
care to if they need some sort of mental health counseling; if 
a family is in crisis, job resources, those kinds of things. It 
is an EAP, if you will, for the military, an Employee 
Assistance Program to augment the existing family programs. Out 
of that program, though, it has expanded and has become very 
popular within the services.
    Currently, the VA is not by statute--other than the Vet 
Centers--really don't have the mandate to do the kinds of 
outreach that is needed in some cases to assist families. If it 
is part of the member's treatment as a veteran, then the VA can 
support the family. But the EAP is a contracted vehicle to help 
servicemembers and their families connect with resources in the 
communities that they are in. And I think this is, again, 
something that is already in place that is a contracted vehicle 
that VA could very easily apply within their own community--I 
mean, within their own systems and their own initiatives--and 
be able to provide some of that outreach that they can't do 
currently, or that isn't their core competency.
    So, it really has a great opportunity to either allow 
members to access a variety of services by phone, by Web, or 
they can get some counseling services anonymously in the 
civilian community.
    Chairman Akaka. Mr. Bowers?
    Mr. Bowers. I am going to highlight again quickly the work 
that we are doing with the Ad Council. We were very fortunate 
yesterday when we spoke with the Secretary to convey to him 
that we are hoping that this is going to be an effective tool 
for the VA to do that portion of outreach that they currently 
cannot do.
    Part of our goal is in regards to reducing stigma of mental 
health. It is trying to get people to make that difficult step 
to get the treatment that they need. It is our goal to be able 
to communicate through this campaign to let people know where 
they need to go, whether it be a Vet Center, utilizing the 1-
800 numbers that are available within the VA, and visiting the 
Web site and the Web resources. We are hoping that that will be 
an effective step.
    This is sort of a trial run, if you will, to see how 
effective this is going to be, because Military OneSource has 
been incredibly effective, although there is sometimes a tad 
bit of confusion in regards to the National Guard and Reserves. 
When they are no longer actively in the military, there is 
often a gap in making that transition for these individuals, 
and while during peacetime it isn't that difficult to go from 
serving your 2 days a month and 2 weeks a year, many of these 
individuals have served multiple deployments, so they are 
pretty close to being active duty. But when they transition out 
of their Reserve status into civilian life, there often are not 
the steps available for these individuals to make that change, 
and that is something that we are hoping we will be able to 
address, also.
    Chairman Akaka. Would you----
    Mr. Atizado. Mr. Chairman, thank you for that question. I 
believe your question actually touches upon a couple of 
concerns. Military OneSource and the like are quite passive 
tools that the military uses to provide information and 
outreach and education, as well as referrals to other services. 
VA, on the other hand, as my colleague had mentioned, is 
constrained somewhat in that arena.
    In addition, DOD has a much more comprehensive benefit 
package, particularly in regards to family services and 
caregiver services, when compared to VA. So there is a gap, or 
I should say, a break in the seam, as it were, in that 
particular arena.
    I believe, and I can't say for certain, but I do believe VA 
recently had a call center, but I think it dealt more with 
benefits issues more so than actual referral for such things 
as, I don't know, housing or employment and things of that 
nature. But it is quite fragmented at this point. I think DOL 
has a program that they are trying to stand up, but again, I am 
not too familiar with that.
    Chairman Akaka. I want to thank all of you for your 
responses, as well as your testimony. I want to thank Secretary 
Mansfield for remaining here for this panel, as well.
    Again, I thank all of you, our witnesses, for appearing 
today. Your input on these issues is valuable to the Committee 
as we work to ensure that the transition from DOD to VA for 
injured servicemembers is as seamless as possible. I want to 
thank all of you again.
    This hearing is adjourned.
    [Whereupon, at 12:18 p.m., the Committee was adjourned.]
  

                                  <all>
</pre></body></html>
